<html>
<title> - ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2005</title>
<body><pre>[Senate Hearing 108-]
[From the U.S. Government Printing Office]



 
    ENERGY AND WATER DEVELOPMENT APPROPRIATIONS FOR FISCAL YEAR 2005

                              ----------                              


                        TUESDAY, MARCH 23, 2004

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 2:32 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Pete V. Domenici (chairman) 
presiding.
    Present: Senators Domenici, Bennett, Craig, Reid, and 
Feinstein.

                          DEPARTMENT OF ENERGY

                National Nuclear Security Administration

STATEMENT OF AMBASSADOR LINTON F. BROOKS, UNDER 
            SECRETARY
ACCOMPANIED BY:
        ADMIRAL FRANK L. BOWMAN, DEPUTY ADMINISTRATOR, NAVAL REACTORS 
            PROGRAM
        DR. EVERET H. BECKNER, DEPUTY ADMINISTRATOR, DEFENSE PROGRAMS
        PAUL M. LONGSWORTH, DEPUTY ADMINISTRATOR, DEFENSE NUCLEAR 
            NONPROLIFERATION

             OPENING STATEMENT OF SENATOR PETE V. DOMENICI

    Senator Domenici. Good afternoon. This hearing will come to 
order.
    Today, the subcommittee will take testimony on the fiscal 
year 2005 budget request for the National Nuclear Security 
Administration. We will receive testimony from Under Secretary 
and Administrator of NNSA, Ambassador Linton Brooks; Deputy 
Administrator for Naval Reactors, Admiral Frank Bowman; Deputy 
Administrator for Defense Programs, Dr. Everet Beckner; Deputy 
Administrator for Nuclear Nonproliferation, Paul Longsworth.
    It is a pleasure to have all of you here. I look forward to 
your testimony today.
    For the NNSA, the President has requested $9 billion, an 
increase of 4.4 percent from the current year funding level of 
$8.6 billion. As a percentage, this is a considerable increase 
above the 1.2 percent growth in discretionary funding for 
Department of Energy.
    Ambassador Brooks, your responsibilities include the 
important job of maintaining our shrinking nuclear stockpile 
and to ensure that it serves its essential mission of 
deterrence. Funding priorities in this account include 
continuation of the stockpile refurbishment activities as well 
as conducting important stewardship activities to ensure safety 
and reliability, a vital necessity in the absence of 
underground testing.
    Your budget also continues to make the National Ignition 
Facility, NIF, a top priority. I am deeply concerned that the 
fiscal year 2005 budget has slipped the target date for 
ignition back to 2014 as a result of numerous technical 
challenges, including the cryogenic targets. To date, we have 
spent $2.5 billion with another $4 billion that will be spent 
over the life of the program. I don't believe it is prudent to 
continue to throw good money after bad. I will do everything in 
my power to ensure that program managers deal with the most 
pressing technical issues before we allow the program to go any 
further. In addition, I will work to ensure there are clear and 
verifiable programmatic milestones.
    I was surprised to see the request that nearly $500 million 
is provided for the Robust Nuclear Earth Penetrator. The 
Department should not assume such large sums in its budget 
without Congressional approval or direction. What we are really 
talking about is a stockpile plan. A successful report 
validates design feasibility and need and does not force the 
inclusion of such a large amount of money. I want it explained 
to this committee, unequivocally, so what we are doing and what 
we are authorizing and what we are not doing and what we are 
not authorizing. Because nobody on this committee is voting to 
do this. We are voting to study it if it wins but not to do it. 
To study it is a small amount of money. If we do it it is a lot 
of money.
    The budget also provides $124 million, a 21 percent 
increase above current year funding in the safeguards and 
security accounts to respond to the new design basis threat. 
That new security requirements, that these new ones are driving 
costs to such a high level it is diverting limited resources 
from other cash-strapped programs within DoE. While I recognize 
the need to protect this special nuclear material I fear that 
there is not a plan to consolidate the nuclear material across 
NNSA complex in order to lower our security costs and at the 
same time minimize terrorist threats.
    Ambassador Brooks, I am somewhat disappointed that the 
administration has failed to provide the nuclear stockpile 
report that was required in the 2004 Energy and Water Bill. 
This is an important priority within this bill and I would 
appreciate it if you would take the message back to the 
Forrestal Building and to the Pentagon that we are eagerly 
awaiting that report. Soon this committee will begin developing 
our budget priorities. Failure to produce the stockpile report 
will have serious consequences for your funding priorities next 
year. I need not spend any more time; you had better answer it, 
acknowledging that what I am talking about is right and you had 
better promise us to fix it or we will have big troubles 
between you and this committee, I assure you. This should have 
already been done.
    Finally, I am very discouraged with the funding cuts 
proposed in 2005 for the Mesa Facility at Sandia and the CMR 
replacement facility at Los Alamos. Shortfalls of a serious 
budget nature will delay these construction projects, adding to 
the costs and limiting the lab's ability to perform critical 
stockpile work.
    Now, I understand you are short of money. You get told by 
the OMB what to do but some of this, you know, we are not going 
to do what you ask us just because OMB let you, we are going to 
do what we think and not let you do some of the things that 
they have told you that you can do. I will have my turn on 
these laboratories when I ask you the questions.
    I will just make a statement ad lib now, that everything 
that I can now read about America in the globalization and jobs 
would indicate that what this country needs more than anything 
else is new technology breakthroughs. And we need them quick. 
We need new things that follow on the computer with new 
technologies. And if I understand correctly, those come in the 
fields of micro-engineering, probably, and nano-science, and 
the center for those should have been Mesa. Maybe it still will 
be but if we delay it so long it will not be.
    In addition to maintaining the nuclear stockpile, you at 
the NNSA also have the important challenge of preventing the 
spread of nuclear material, technology and expertise that could 
be used to develop and use weapons of mass destructions. The 
Office of Nuclear Non-Proliferation works very hard to secure 
weapons-grade material and prevent the sale of technology used 
by countries to develop nuclear weapons.
    Mr. Ambassador, I must compliment you and Mr. Longsworth 
and his staff for the role DoE played in disarming Libya, as 
well as uncovering the proliferation activities operated by 
Pakistan's top nuclear weapons scientist, Abdul Khan. We 
congratulate you on that. And we only fail to understand how 
Abdul Khan, with what we know he has already done, is still 
free. If somebody else in the world had done that, God knows 
what would have happened.
    Another top priority for the office is to ensure the 
success of the U.S./Russian MOX program that will dispose of 34 
tons of plutonium from each of the Russian and U.S. stockpiles. 
I am very pleased, Senators, to have been part of that. Senator 
Reid, you remember when I helped put it together and went to 
Russia with President Clinton, but I am very, very concerned 
about the lack of progress in these negotiations. How long ago 
did this start? 1998. U.S. negotiations to work with the 
Russians where we to try to find an acceptable solution so we 
can break ground on this project and we are hung up over what I 
think are trivial negotiating issues. I recently told the White 
House that maybe they ought to put some bigger people in the 
position of negotiating. How a little issue of indemnification 
can hold this up is beyond me. Now I find that indemnification 
has occurred between Russians and us and some other program 
where the liability potential might have been more severe than 
this, and the Russians came to the table. They would not have 
got that one done, if I would have had anything to do with it, 
until they get this one done. This is a way to get rid of a 
huge chunk of nuclear-grade plutonium.
    Admiral Bowman, thank you for your participation in what 
may be your last hearing before the subcommittee. I appreciate 
your steady hand. The Naval Reactors Program continues to serve 
as the world's gold standard for safe and reliable operations 
of nuclear power. I am interested to know how your office has 
been handed the responsibility of producing the next generation 
of space reactors. Traditionally this has fallen to the Office 
of Nuclear Energy, which has developed some expertise in these 
unique engineering systems. I surmise that part of the reason 
it went where it did is that you have more expertise than they 
had in the area.

                           PREPARED STATEMENT

    Dr. Beckner and Mr. Longsworth, I appreciate your 
participation and welcome your input.
    [The statement follows:]

             Prepared Statement of Senator Pete V. Domenici

    Good morning--this hearing will come to order.
    Today, the subcommittee will take testimony on the fiscal year 2005 
budget request for the National Nuclear Security Administration.
    We will receive testimony from Under Secretary and Administrator of 
the NNSA, Ambassador Linton Brooks; Deputy Administrator for Naval 
Reactors, Admiral Frank Bowman; Deputy Administrator for Defense 
Programs, Dr. Everet Beckner; and Deputy Administrator for Nuclear 
Nonproliferation, Paul Longsworth.
    You have all testified before this subcommittee before and it is a 
pleasure to have you here again. I look forward to your testimony 
today.
    For the NNSA, the President has requested $9 billion, an increase 
of 4.4 percent from the current year funding level of $8.6 billion. As 
a percentage, this is a considerable increase above the 1.2 percent 
growth in discretionary funding for Department of Energy.
    Ambassador Brooks, your responsibilities include the important job 
of maintaining our shrinking nuclear stockpile and to ensure that it 
serves its essential mission of deterrence. Funding priorities in this 
account include continuation of the stockpile refurbishment activities 
as well as conducting important stewardship activities to ensure safety 
and reliability--a vital necessity in the absence of underground 
testing.
    Your budget also continues to make the National Ignition Facility 
(NIF) a top priority. I am deeply concerned that the fiscal year 2005 
budget has slipped the target date for ignition back to 2014 as a 
result of numerous technical challenges, including the cryogenic 
targets. To date, we have spent $2.5 billion with another $4 billion 
that will be spent over the life of the program. I don't believe it is 
prudent to continue to throw good money after bad. I will do everything 
in my power to ensure that program managers deal with the most pressing 
technical issues before we allow the program to go any further. In 
addition, I will work to ensure there are clear and verifiable 
programmatic milestones.
    Like many of my colleagues, I was surprised to see in the budget 
request that nearly $500 million is provided for the Robust Nuclear 
Earth Penetrator (RNEP) in out-year funding. I want be absolutely 
clear, without a stockpile plan and a successful report that validates 
design feasibility and need; the Department should not assume such 
large sums in its budget without Congressional approval or direction.
    This budget also provides a $124 million increase (21 percent above 
current year funding) in the Safeguards and Security Account in order 
to respond to the new Design Basis Threat. The new security 
requirements are driving costs to such a high level, it is diverting 
limited resources from other cash-strapped programs within DOE. While, 
I recognize the need to protect this special nuclear material, I fear 
that there is not a plan to consolidate special nuclear material across 
the NNSA complex in order to lower our security costs and eliminate 
potential terrorist threats.
    Ambassador Brooks, I am disappointed that the administration has 
failed to provide the nuclear stockpile report that was required in the 
fiscal year 2004 Energy and Water bill. This is an important priority 
within this bill and I would appreciate it if you would take the 
message back to the Forrestal building and to the Pentagon that we are 
eagerly awaiting that report. Soon this subcommittee will begin 
developing our budget priorities. Failure to produce the stockpile 
report will have serious consequences for your funding priorities next 
year.
    Finally, I am discouraged with the funding cuts proposed for fiscal 
year 2005 for the MESA facility at Sandia and the CMR Replacement 
facility at Los Alamos. Serious budget shortfalls will delay these 
construction projects adding to the overall cost and limiting the labs 
ability to perform critical stockpile work.
    In addition to maintaining the nuclear stockpile, the NNSA also has 
the important challenge of preventing the spread of nuclear material, 
technology and expertise that could be used to develop and use weapons 
of mass destruction. The Office of Nuclear Nonproliferation works very 
hard to secure weapons-grade material and to prevent the sale of 
technology used by countries to develop nuclear weapons.
    Ambassador Brooks, I must compliment you, Mr. Longsworth and his 
staff for the role DoE played in disarming Libya as well as uncovering 
the proliferation activities operated by Pakistan's top nuclear weapons 
scientist Abdul Khan.
    Another top priority for that office is to ensure the success of 
the U.S./Russian MOX program that will dispose of 34 tons of excess 
plutonium from each of the Russian and U.S. stockpiles. This is an 
important project from a proliferation standpoint, but I am concerned 
about the lack of progress in negotiations. I have worked hard to push 
U.S. negotiators to work with the Russians to find an acceptable 
solution that will allow us to break ground on this important project 
and forever dispose of the plutonium.
    Admiral Bowman, thank you for your participation in what may be 
your last hearing before this subcommittee. I appreciate your steady 
hand on the rudder. The Naval Reactor program continues to serve as the 
world's gold standard for safe and reliable operations of nuclear 
power.
    Admiral, I am interested to know how your office has been handed 
the responsibility of producing the next generation of space reactors. 
Traditionally, this responsibility has fallen to the Office of Nuclear 
Energy, which has developed an expertise in designing these unique 
energy systems.
    Dr. Beckner and Mr. Longsworth, I appreciate your participation in 
this hearing and welcome your input.
    Now, I will yield to Senator Reid for any opening statement he 
would like to make.

    Senator Domenici. Now I yield to Senator Reid for comments 
and then we will proceed. Senator Reid.
    Senator Reid. Thank you very much, Mr. Chairman. I welcome 
you back after the recess. I hope your recess went well.
    Senator Domenici. Thank you. It did.

                    STATEMENT OF SENATOR HARRY REID

    Senator Reid. Ambassador Brooks, by and large I believe you 
and your team are doing a good job. I have met with you on 
occasion and you have always been forthcoming in spite of the 
rocky start that you and I had regarding your confirmation. I 
think you have been candid with me and I have tried to be with 
you. I have, as with Senator Domenici, a long tenure on this 
subcommittee; we go back to the days of Dr. Victor Reis where 
we were trying to come up with a stockpile stewardship program. 
And I think we came up with one to have a safe and reliable 
nuclear stockpile, clearly the safest and most secure of any in 
the world. And even though I fought Senator Domenici initially 
on establishing the entity which you lead, Senator Domenici was 
right; I think it has been a tremendous step forward. And 
General Gordon did such a remarkably good job, he has very 
large shoes to fill, as you know. He had a commanding 
personality and his great record, I think, added the prestige 
needed to get this new entity started.
    So, I have reviewed your testimony, budget request, and I 
will bet there is not a hearing that I have attended, or will 
attend during this budget cycle, that they would not love to 
have OMB sign off on what you have gotten. I do not know of an 
entity that has been treated better than yours that I have seen 
this whole year. Your problem is not an inadequate budget 
request, your problem is going to be holding on to what you 
already have. This subcommittee may be as much as $1.7 billion 
in the hole due to a combination of inadequate funding 
requests, especially the Corps of Engineers, budget gimmicks 
that certainly are just amateurish and the budget committees 
have chosen not to accept these gimmicks.
    Holding NNSA harmless may not be possible unless the 
subcommittee is given a sizeable increase in its allocation. I 
read an article during the recess that suggests, Mr. Chairman, 
you have secured a commitment from the Majority Leader and the 
Chairman of the Budget Committee that our subcommittee will 
remain healthy at the end of the budget process. I certainly 
hope so. It is not just this subcommittee, it is the entire 
Senate that benefits. And having said that, the entire country 
benefits from giving us a better budget mark than what we have. 
And if that is the case, Senator Domenici, you deserve every 
accolade that you can get, and I would be the leading 
cheerleader for this if your efforts are successful.
    Second, Ambassador Brooks, you are going to hear a lot, as 
you already have heard, from the chairman of this subcommittee 
about a number of things. One of the things I know he is 
frustrated about is the National Ignition Facility. And as we 
look back at the ability of that project to go forward, I have 
to say that project would not have gone forward but for Senator 
Domenici. I was ready to can that whole thing. But Senator 
Domenici and I try to work together on this subcommittee as 
much as we can and as a result of our working together we let 
this project go forward. And Senator Domenici, having been the 
lead person on this, I on a number of occasions will set aside 
my personal feelings about what is going on because of his 
initial involvement in this. So what I am saying is that I 
think you are going to have to take a closer look at NIF 
because Senator Domenici certainly is going to take a close 
look at it. We know there have been some problems in the latest 
snafu, and I think that this is something that we have to look 
at closely because I know the chairman is going to look at it 
closely. NIF has a large number and unless we get our budget 
allocation changed we are going to have to look there for some 
of the money to take care of other things.
    Third, you are requesting expanded funding for a number of 
very controversial items: Robust Nuclear Earth Penetrator, 
Modern Pit Facility, Advanced Nuclear Concepts Program. Last 
year, the House of Representatives, without a word of dissent 
to be heard anywhere in the House, slashed funding for these 
programs. The Senate bill fully funded them; there was an 
amendment offered on the Senate floor to cut the funding. It 
failed although it had support of most of the Democratic 
Caucus. The point I am making is that you need to tread very 
carefully here. Congressional support for these programs is not 
very strong and I would encourage you to be very candid on a 
regular basis with your plans and intentions for all these 
programs. The memo you sent the laboratories regarding the 
Advanced Concepts Program last year, the one that seemed to 
indicate that it was okay to move forward as planned regardless 
of Congressional guidance, concerns us all. I am willing to 
give you the benefit of the doubt that you are not encouraging 
your contractors to ignore our intent but I strongly suggest 
that you and your staff work very closely with us up here on 
these initiatives.
    I am a little concerned, maybe even put off, by the notion 
that you have included a half-a-billion dollars in your out-
year spending plan as what you call a ``placeholder'' for 
bunker busting pending White House and Congressional decisions. 
I am not sure that we can allow this to go forward. This is a 
large ``placeholder.'' Many of us remain unconvinced that this 
is an appropriate path.
    Finally, on the subject of working with us here in 
Congress, our Conference directed you to submit the Revised 
Stockpile Plan to us with fiscal year 2005 budget request. We 
carried these words because we were beyond being fed up with 
waiting for the Plan half-a-year ago. The budget request has 
been here for nearly 2 months and we still have no sign of the 
Revised Stockpile Plan. We set that date in consultation with 
your staff so we can use that document to assist our financial 
decision-making. I am not interested in the story about how 
complicated it is to get such an important document signed or 
how many people over at the White House or NNSA need to read 
it, polish it, refine or rewrite it; it is just way overdue and 
we need to get the document up here. I might even suggest that 
we write a bill that fences off every dollar above current year 
levels for NNSA until this is provided. And I hope this gets 
the White House's attention. And I am convinced, Ambassador, 
that this is not you personally holding this up and you need 
not comment on that. But sometimes we get a little put-off by 
someone who is a Secretary or an Administrator such as you are 
who comes here and says to us privately, well, I'm not the one 
holding this up. And you are the person that we look to.
    So, I want to thank each of your deputies for being here; 
Dr. Beckner, Admiral Bowman, Mr. Longsworth, we appreciate that 
very much.
    The chairman's not here so the acting chairman, Senator 
Bennett, I would ask permission of the chair to be able to 
submit questions in writing and would ask that you, the 
witnesses, get back to the subcommittee within 10 days. We have 
a little parliamentary problem on the floor that I am going to 
work on.
    Senator Bennett [presiding]. Without objection.
    Senator Reid. Thank you very much.

                 STATEMENT OF SENATOR ROBERT F. BENNETT

    Senator Bennett. Thank you, Senator Reid, very much.
    When the Chairman returns I will make it clear that I hope 
to have more than a single round of questioning because I have 
a number of concerns that I want to raise and a number of 
issues that I think have to be made very clear for the record.
    I assume you know the history of southern Utah with respect 
to nuclear testing in Nevada. It goes back to the 1950's and 
the 1960's, and Utahans were not only let down by their 
government, quite frankly, Utahans were lied to by their 
government. Things that were done in those periods in 
retrospect are incomprehensible. Students were let out of 
school and taken out to the schoolyard to stand in the open air 
and look for the flash of the above-ground test and then watch 
the cloud as it went over. And the incidence of cancer and 
other problems that occurred among people who lived down-wind 
from the Nevada testing site has been well documented and 
Congress has taken actions with it and I will not review all of 
that past. But I think if you are not familiar with that past 
you should be and therefore understand why the people of 
southern Utah, in particular, are very suspicious of anything 
the government says about nuclear testing, above-ground or 
below-ground, and for that reason, Mr. Chairman, I intend to 
use this opportunity to ask a number of questions, quite 
pointed. I expect that I will get direct answers so that they 
will be firmly on the record and there will be no ambiguity 
about some of this.
    Now, while I speak with that background as the Senator 
representing Utah, I want to make it clear that my concern for 
the safety of the people of Utah is not limited to Utah. I, as 
a Senator, must be concerned about the safety of all of the 
people who will be down-wind from any test that will occur, and 
that would include not only everybody in the United States but 
given the jet stream and the way we now understand the weather 
goes around the world, accidents or sloppiness in testing in 
Nevada can affect far more than just Utah. So while I speak 
here as the Senator for Utah I want to make it clear that I 
want to be sure that health and safety for everyone in America, 
and to the degree it gets beyond our shores, to the rest of the 
world becomes the primary concern. And I know that none of you 
were involved in the things that were done back in the 1950's 
and 1960's when the government lied to its citizens in that 
part of the world and that is fine.
    But that means that we must be even more circumspect and 
more penetrating in our attempts to make sure that this 
administration does not repeat, in any way, either 
inadvertently or deliberately, the things that have happened in 
the past. There is still a great deal of skepticism among those 
who live in southern Utah about any government pronouncement on 
this issue and that is why, Mr. Chairman, I intend to be fairly 
penetrating in the question period. And I said before you came 
I hope we will have more than one round so that I will have 
time to explore all of this properly.
    Senator Domenici [presiding]. Senator, if we do not finish 
and you need some more, we would turn the committee over to you 
and you can spend the whole afternoon.
    Shall we proceed? Do you need to make an opening statement, 
Senator?
    Senator Feinstein. I do, Mr. Chairman. I hate to tell you.
    Senator Domenici. Well, we were not going to have them but 
I got out of here and it got started. So we have got to let 
you.
    Senator Bennett. When you relinquished the gavel for 30 
seconds I took advantage of it.
    Senator Domenici. Go ahead.
    Senator Feinstein. Thank you very much.
    Senator Domenici. We want to be brief.

                 STATEMENT OF SENATOR DIANNE FEINSTEIN

    Senator Feinstein. I will try very hard to be brief but I 
think as Mr. Brooks knows I have very strong views on the 
proposed nuclear program and I wanted to make a couple of 
comments about it. Ambassador Brooks was nice enough to spend 
some time with me in my office, and I appreciate that very 
much, and went over his views of what the program is. The more 
I read about the program the more I believe it is something 
else and I would characterize that something else by saying it 
is a reopening of the nuclear door.
    Just where you sit last year Secretary Abraham sat. He said 
we have no intentions of proceeding with new nuclear weapons. 
Secretary of Defense, at a Defense Appropriations hearing, came 
before us and said that the Robust Nuclear Earth Penetrator is 
a study, it is nothing more and nothing less. And then, if you 
look to follow the money, I think you see that it is much more 
than that. This year's budget request includes the $27.5 
million for the Earth Penetrator, the $9 million for the so-
called Advanced Weapons Initiative, and the $30 million for the 
Modern Pit Facility to make up to 450 new pits, which as you 
know we discussed and you said there was no way of knowing 
whether we need this kind of improvement in the Pit Facility. 
And the Revised Stockpile Plan has not yet been presented to 
the best of my knowledge. But if you look at the Congressional 
Research Service, they now report that the administration's own 
long-term budget plan includes $485 million for the Robust 
Nuclear Earth Penetrator between 2005 and 2009. I think that 
number casts doubts on the contention that this is just a study 
and that all we are doing is just a study. Because I do not 
believe there can be a commitment of nearly $500 million for 
just a study. And I think it means that the administration is 
determined to develop and field a new generation of nuclear 
weapons. And this Senator is strongly opposed to that.
    I think by seeking to develop new nuclear weapons, and as 
indicated in the Nuclear Posture Review, a new doctrine that 
considers nuclear weapons in the same category as conventional 
weapons, the United States is sending a message that nuclear 
weapons have a future battlefield role and utility. And by 
doing so I believe we are going to make our Nation and our 
allies less secure, not more secure. And if the United States 
opens the door to the development, testing and deployment of 
new nuclear weapons. So I am just here to kind of follow this 
thing along and I am going to try to oppose it at every step of 
the road because I do not believe the American people want to 
support a new generation of nuclear weapons.

               PREPARED STATEMENT OF SENATOR LARRY CRAIG

    Senator Domenici. Senator Craig has also submitted a 
prepared statement which will be included in the record.
    [The statement follows:]
               Prepared Statement of Senator Larry Craig
    The DOE's nuclear weapons programs are of great interest to the 
Nation and to this subcommittee. DOE is a significant national security 
agency. Both the Chairman and Ranking Member of the subcommittee have 
parts of the nuclear weapons complex located in their States.
    Idaho has a stake in these programs, too. As Admiral Bowman is 
aware, there isn't a single element of nuclear fuel that gets 
discharged from a Naval reactor that does not end up in Idaho. The fuel 
is examined in Idaho and then stored there for the long term. This work 
is the reason why Navy cores now last ``the life of the ship.''
    Naval Reactors is now being tasked to provide this kind of 
expertise to space nuclear reactors. Idaho can bring much more to this 
enterprise than simply being the resting place for the Navy's spent 
fuel. I ask our witnesses to consider that, as they go about deciding 
how to approach this new space nuclear mission.
    DOE also has the job of stopping the proliferation of nuclear 
materials which is an important one in the world we face. I believe 
that DOE should more closely coordinate its nuclear nonproliferation 
missions with those of DOE's Office of Nuclear Energy. People around 
the world want cheap, abundant energy. They might decide nuclear energy 
is the way to get there. If they decide to build nuclear reactors, I am 
confident that this country can design reactors that do not cause the 
spread of enriched materials around the globe. Scientists at the Idaho 
National Lab can contribute to solving this challenge.
    Finally, I would ask all of our witnesses to consider the issue of 
economic security. A prosperous world will be more secure. A world 
where resources are scarce and people are in conflict will be a more 
dangerous world. Energy security is a key part of national security of 
global security. I challenge each of you to think more broadly about 
the role of energy technology in our national security. It is an 
essential element, and we need to devote the resources to it.
    Greater support for energy technology should be part of the 
appropriations bill we craft. For our national security, we also need 
to pass a comprehensive energy bill as soon as possible. The chairman 
of the subcommittee has worked diligently on that, as have I. We will 
continue to do so.

    Senator Domenici. Well, let me first say, so there is no 
misunderstanding, I do not favor a new round of the development 
of nuclear weapons. I think I am just as firm on that as is the 
distinguished Senator from California. But I do believe 
research is not static with reference to nuclear activity. And 
so we will go into this a little more and ask whether we can 
actually ask our great scientists to just close their minds to 
these issues and say they cannot study them even if they fall 
right before their face. So we will have our arguments. The 
California Senator can contend we are building new weapons; I 
will contend we are researching them. She can contend we are 
paying for $500 million worth; I will say we are going to vote 
for a small number and no more in the language of dollars, and 
the language will say what it is for and no more. So with that, 
I would like to proceed.
    What is your pleasure? Shall we start with the Ambassador? 
All right, Mr. Ambassador, please proceed.

                STATEMENT OF AMBASSADOR LINTON F. BROOKS

    Ambassador Brooks. Thank you, Mr. Chairman. I want to thank 
the Members for their support for our national security 
efforts. I have prepared some detailed written testimony I 
would like to submit for the record, and I would like to 
summarize that now. And I would like it if Admiral Bowman could 
follow me and talk about the Naval Reactors portion which I 
will not cover.
    Senator Domenici. On the record.
    Ambassador Brooks. As you said in your opening statement, 
the fiscal year 2005 request totals just over $9 billion, which 
is a 4 percent increase over 2004 and is consistent with the 
long-range plan presented to the Congress last year. For 
weapons activities we're seeking $6.5 billion. That will 
maintain the safety and reliability of the nuclear weapons 
stockpile, enhance stockpile surveillance in the engineering 
base, refurbish and extend the service life of warheads, 
maintain an R&D base and support the required facilities and 
infrastructure. I am pleased with the ability of the Stockpile 
Stewardship Program to certify the safety, security and 
reliability of our aging nuclear weapons and I'm pleased that 
we can do that without having to consider returning to 
underground nuclear testing. And, the cutting edge scientific 
and engineering tools that we are requesting in this budget 
will let us continue these certification efforts with the same 
kind of confidence.
    We are extending the life of several existing weapons; that 
life-extension program is proceeding well. This year, we will 
complete the life-extension for the W87 ICBM warhead and we 
expect to meet DOD schedules for the submarine launched 
ballistic missile W76, the B61 bomb and the W80 cruise missile. 
The National Ignition Facility will perform its first Stockpile 
Stewardship experiment this year using four of its eventual 192 
laser beams. We have recently devised a strategy that will 
ensure ignition experiments begin in 2010 as previously 
planned. During the question and answer period we can explain 
technically why that now appears feasible.
    Our Advanced Simulation Computing Program will deliver two 
new machines, one this year, one next year, which will be the 
fastest computers in the world and, more importantly, will help 
us provide important data on the health of the stockpile.
    The Nuclear Posture Review gave infrastructure equal 
priority with offensive and defensive forces. We have two 
accounts in the budget that are essential to our ability to 
maintain such an infrastructure. Readiness in Technical Base 
and Facilities provides the funding to operate and maintain our 
facilities over the long-term. In contrast, there's a 
Facilities and Infrastructure Recapitalization Program which is 
a get-well program the Congress authorized designed to 
eliminate maintenance backlogs this decade. We expect to meet 
our goal of eliminating those backlogs and have the so-called 
FIR-program go out of existence shortly after the end of the 
decade. These two programs are fixing the backlog and restoring 
the weapons complex. They're crucial and I urge the committee 
to fully support them.
    Now, these programs will allow us to maintain the stockpile 
for the next decade. Nuclear Posture Review recognized the need 
over the long-run to design and build a Modern Pit Facility. 
That's a poor term, it might better be called a Pit Rework 
Facility. It'll support the pit remanufacturing needs of the 
stockpile. It's important to understand we need this facility 
even if the United States never produces another nuclear weapon 
of any kind. All existing plutonium pits will ultimately need 
to be rebuilt due to aging effects caused by the radioactive 
decay of plutonium. Last year's conference requested that we 
delay issuing the Final Environmental Impact Statement in 
selecting a site for the Modern Pit Facility pending the 
submission of the Revised Stockpile Plan that was referred to 
in several of the Members' opening statements. This decision to 
delay site selection doesn't affect our very limited efforts at 
Los Alamos to manufacture a W88 pit nor to reestablish the 
capability that we've not had in almost 15 years. We're on 
schedule to produce a War Reserve pit for our Trident-2 missile 
by 2007.
    Now, I have no reason to doubt the ability of the Stockpile 
Stewardship Program to continue to ensure the safety, security 
and reliability of the enduring stockpile. But we must maintain 
our ability to carry out a nuclear weapons test in the event of 
some currently unforeseen problems that can't be resolved by 
other means. Our fiscal 2005 request allows us to meet the 
requirements of the Defense Authorization Act to achieve by 
October 2006, a readiness to conduct an underground test within 
18 months. The President has made it very clear we have no 
intention of resuming testing. Our plan is to improve test 
readiness posture, a prudent hedge against the possibility of a 
problem arising in the stockpile that can't be confirmed or 
fixed or certified without a nuclear test. I also want to make 
it clear that much of the money that we are requesting goes to 
ensure, through very detailed analysis, the absolute safety of 
any hypothetical future nuclear test. We are extremely 
conscious of our safety responsibilities and intend to ensure 
that if it ever becomes necessary to resume nuclear testing we 
can do so safely.

                           ADVANCED CONCEPTS

    The programs I have described let us maintain the stockpile 
and correct unforeseen problems. The Nuclear Posture Review 
also highlighted the importance of ensuring the weapons complex 
can adjust to changing requirements of nuclear deterrence in 
the coming decade. We're requesting $9 million, about one-tenth 
of 1 percent of our budget, for research on advanced concepts 
and we're requesting, as has been mentioned by several Members, 
$27 million to continue the Nuclear Earth Penetrator 
feasibility study.
    There's been a great deal of discussion on the implications 
of these programs and I'd like to comment on them in a little 
more detail. Some of the discussion has been based on a 
misunderstanding of our intent. In his opening statement, the 
Ranking Member specifically noted one reason for that, a poorly 
written memorandum that I sent in December. I'd be delighted to 
submit, for the record, that memorandum, a criticism of it by 
another committee and my response, in order to make it clear 
that what we have here is poor drafting and not an attempt to 
thwart the will of the Congress.
    We intend to use our Advanced Concepts funds to 
investigate----
    Senator Domenici. Are you going to make those a part of the 
record?
    Ambassador Brooks. Yes sir, if I may.
    Senator Domenici. Yes, please do.
    [The information follows:]

                              Department of Energy,
                  National Nuclear Security Administration,
                                  Washington, DC, December 5, 2003.
Pete Nanos,
Director, Los Alamos National Laboratory.
Michael Anastasio,
Director, Lawrence Livermore National Laboratory.
C. Paul Robinson,
President, Sandia National Laboratory.
    On November 24, 2003, President Bush signed the National Defense 
Authorization Act for fiscal year 2004. Section 3116 of this law 
repealed the 1994 law prohibiting the Secretary of Energy from 
conducting research and development that could lead to the production 
of a new, low-yield nuclear weapon (i.e., Section 3136 of Public Law 
103-160--the so-called PLYWD restriction). The administration had 
sought to remove this restriction because of the chilling effect it has 
had on nuclear weapons research and development.
    On behalf of the administration, I would like to thank you and your 
staff for helping to support this important effort, we are now free to 
explore a range of technical options that could strengthen our ability 
to deter, or respond to new or emerging threats without any concern 
that some ideas could inadvertently violate a vague and arbitrary 
limitation. (Of course, testing, acquisition or deployment of any 
nuclear weapon--low-yield or otherwise--or commencement of weapons 
engineering development or subsequent phases, requires authorization by 
Congress).
    Along these lines, I expect your design teams to engage fully with 
the Department of Defense to examine advanced concepts that could 
contribute to our nation's security. Potentially important areas of 
such research include agent defeat and reduced collateral damage.
    In addition, we must take advantage of this opportunity to ensure 
that we close any gaps that may have opened this past decade in our 
understanding of the possible military applications of atomic energy--
no novel nuclear weapons concept developed by any other nation should 
ever come as a technical surprise to us.
    Repeal of the PLYWD restriction on nuclear weapons research and 
development represents, in part, an endorsement by Congress of our 
efforts to begin to address the nuclear weapons stockpile in accordance 
with the recommendations of the administration's Nuclear Posture Review 
to meet the security needs of the 21st century. We should not fail to 
take advantage of this opportunity.

                                          Linton F. Brooks,
                                                     Administrator.
                                 ______
                                 
                 Congress of the United States,    
                          House of Representatives,
                               Committee on Appropriations,
                                  Washington, DC, January 22, 2004.
The Honorable Linton F. Brooks,
Administrator, National Nuclear Security Administration, 1000 
        Independence Avenue, S.W., Washington, DC 20585.
    Dear Ambassador Brooks: We are deeply concerned by the tenor and 
substance of your December 5, 2003, memorandum to the directors of the 
three National Nuclear Security Administration (NNSA) weapons 
laboratories. You are well aware of our reservations about embarking on 
significant new nuclear weapons design initiatives under the advanced 
concepts proposal, and this issue was a significant point of 
disagreement with the Senate during the Energy and Water Development 
conference negotiations last fall. These issues continue to command 
much of our attention and will do so in our consideration of the 
Department's fiscal year 2005 budget request.
    Therefore, we were troubled to read your guidance that the weapons 
laboratories are now ``free to explore a range of technical options 
that could strengthen our ability to deter, or respond to new or 
emerging threats, without any concern that some ideas could violate a 
vague and arbitrary limitation.'' Your memo also encourages your 
``design teams to engage fully with the Department of Defense'' and 
``to take advantage of this opportunity to ensure that we close any 
gaps that may have opened this past decades in our understanding of the 
possible military applications of atomic energy . . .''.
    You should be very well aware of our concerns about this advanced 
concepts work on new nuclear weapons, and of the language in the fiscal 
year 2004 conference report for Energy and Water Development 
Appropriations that fences two-thirds of the advanced concepts funding 
pending submission to Congress and Congressional review of a revised 
nuclear weapons stockpile report. However, your guidance memo to the 
weapons laboratories contained no mention of this funding restriction--
the only message conveyed to the weapons laboratories is that of 
unbridled enthusiasm for new weapons designs and for seeking new 
military missions for nuclear weapons.
    Having had several discussions with you on advanced concepts, we 
took you at your word that you were willing to redefine the scope of 
the Advanced Concepts work to address our concerns. Unfortunately, it 
is now apparent to us that those were hollow assurances and that the 
NNSA is determined to charge forward with unrestricted efforts on 
advanced nuclear weapons concepts. Nothing in your direction to the 
weapons researchers communicates any sense of the measured and 
thoughtful steps that must be taken by the NNSA before Congress is 
comfortable with the direction the Department is proposing. In 
addition, your memo also makes us question the sincerity of your 
commitment to address our concerns regarding the schedule and sizing of 
the proposed new Modern Pit Facility.
    Although we find your actions unhelpful, they are at least 
instructive in gauging the actual intent of the Advanced Concepts work 
proposed by the Administration; we will view future proposals from the 
Department with this memorandum in mind.
            Sincerely,
                                   Peter J. Visclosky,
                                           Ranking Minority Member.
                                   David L. Hobson,
            Chairman, Subcommittee on Energy and Water Development.
                                 ______
                                 
                              Department of Energy,
                  National Nuclear Security Administration,
                                  Washington, DC, January 27, 2004.
The Honorable Peter J. Visclosky,
Ranking Minority Member, Subcommittee on Energy and Water Development, 
        Committee on Appropriations, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Mr. Visclosky: Thank you for your letter of January 22, 2004, 
which expresses concerns over my December 5, 2003, memorandum to the 
Directors of the three National Nuclear Security Administration weapons 
laboratories. Your letter clearly conveys that, in your view, my 
memorandum fails to take into account the concerns of the Congress with 
regard to advanced concepts development.
    I have reviewed the memorandum in question and agree some of the 
wording could lead to misinterpretation of my intent. I regret any 
misunderstanding. The memorandum was sent to document the removal of 
the prohibition on conducting research and development that ``could'' 
lead to development of a new, low-yield nuclear weapon. As my 
memorandum stated, the removal of this provision in the fiscal year 
2004 Defense Authorization Act allows us to explore advanced concepts 
without an artificial constraint. Repeal of this restriction was 
strongly supported by the House Armed Services Committee.
    My memorandum did not direct the conduct of specific research aimed 
at developing new weapons. We intend to use the advanced concept money 
to investigate new ideas, not necessarily new weapons. For example, the 
first two million dollars of the fiscal year 2004 funding will be used 
for examining the feasibility of adapting an existing weapons carrier 
and existing nuclear warheads to achieve a delivery system with greater 
assurance that the intended nuclear mission could not be compromised by 
either component failure or adversary attack; i.e., greater reliability 
for nuclear missions. Because the remaining funds will not be available 
until we have submitted a revised nuclear weapons stockpile report and 
the Congress has had time to review that report, we have not yet 
determined how the remaining funds will be used. We will, as my 
December memorandum states, be engaging closely with the Department of 
Defense on how best to use these funds. Appropriate uses might include 
examining the feasibility of improving design margins of existing 
warheads in order to ensure still greater reliability in the absence of 
nuclear testing or examining other features to improve safety further.
    In your letter, you expressed two additional concerns. First, you 
noted that I did not indicate that two-thirds of the advanced concepts 
money is fenced until we submit a revised nuclear weapons stockpile 
report and the Congress has had time to review that report. I did not 
include that provision because I had personally delivered to each of 
the laboratory directors a copy of both the bill and the committee 
report and had highlighted that provision to them.
    You also expressed doubt about the Administration's plans with 
respect to the Modern Pit Facility. To remove any doubt on our plans, I 
have enclosed a draft press release for your consideration which will 
be released on Wednesday, January 28, 2004, indicating our intent to 
delay issuing the final Environmental Impact Statement and, thus, our 
intent to delay identifying a preferred site for the facility. At the 
same time, I respectfully repeat what I have said in previous 
conversations on this matter which is, if the United States never 
develops another nuclear weapon, a Modern Pit Facility will still be 
required. I would welcome the opportunity to review my reasoning with 
you or to arrange a briefing with your staff.
    Finally, I want to make it absolutely clear that it was not my 
intent to mislead the Committee, and I regret any inference you may 
have drawn that I have done so. You and other members of the 
Subcommittee have concerns with some of the approaches that the 
Administration is advocating. Such disagreements are inherent in the 
process of developing an overall U.S. position on these important 
issues. I strongly support the President's program for nuclear 
deterrence and believe that the proposals we have made in the nuclear 
area are overwhelmingly in the national interest. But, I also 
understand the importance of not misleading Congress. I regret that the 
wording of my December 5, 2003, memorandum may have led to the 
incorrect assumption that I had done so in this case. I have not. I 
appreciate your bringing this matter to my attention and will ensure 
that future correspondence does not lead to similar misunderstandings.
    I would be happy to discuss any of these points with you personally 
at your convenience. If you have any further questions, please feel 
free to contact me or C. Anson Franklin, Director of Congressional and 
Intergovernmental Affairs.
            Sincerely,
                                          Linton F. Brooks,
                                                     Administrator.

    Ambassador Brooks. We intend to use Advanced Concepts funds 
to investigate new ideas, not necessarily new weapons. For 
example, with that portion of the Advanced Concepts money which 
is not held in abeyance pending the Stockpile Plan, we will 
begin to examine the feasibility of adapting an existing 
nuclear weapon to provide a Cruise Missile capability that 
involves enhanced safety and use control. We are also looking 
at improving warhead design margins in order to ensure high 
confidence in warhead reliability. We're also in discussion 
with the Air Force on examining the utility of nuclear weapons 
against chemical and biological agents, although we've made no 
decisions to study this area. Specific uses of the proposed 
2005 funds will be determined jointly with the Department of 
Defense.
    Perhaps the single most contentious issue in our budget is 
continued funding for the Robust Nuclear Earth Penetrator 
study. The study is to determine whether existing warheads, 
either the B61 bomb or the B83 bomb, could be adapted without 
nuclear testing to improve our ability to hold at risk hardened 
and deeply buried facilities. I want to make several points 
about this effort.
    First, there's a clear military utility to this weapon. A 
classified Defense Department report was submitted to the 
Congress last year on this subject and remains valid.
    Secondly, despite this obvious utility to the capability, 
we will move beyond the study stage only if the President 
approves and if funds are authorized and appropriated by 
Congress. We included funds in our out-year projections only to 
preserve the President's option. There won't be any decision 
made until the study is completed. What we are asking the 
Congress to do this year is approve the continuation of the 
study. The law is extremely clear that beginning development 
and engineering requires Congressional approval and there's no 
one in the administration who has any doubt about that feature 
of the law.
    Finally, even if the study shows that it's feasible and the 
President decides to pursue it and the Congress decides to fund 
it, this weapon does not represent a change from our policy of 
deterrence. Deterrence requires that we be able to hold at risk 
something that an adversary values. Now, I refer you once again 
to the classified report where we and the Department of Defense 
speak in specific detail on the potential deterrent benefits of 
this weapon.
    As the Congress evaluates our request it's important to 
understand that while there have been press accounts of 
administration plans to develop low-yield weapons, there are no 
such plans. Further, nothing we will do is intended to lower 
the nuclear threshold or blur the distinction between nuclear 
and non-nuclear weapons. Indeed, the intent of the Nuclear 
Posture Review is to place greater emphasis on conventional 
weapons rather than nuclear weapons.
    I repeat, as I have said to this committee before, only the 
President can authorize the use of nuclear weapons and no 
President would make that decision except in the gravest of 
circumstances.

                    DEFENSE NUCLEAR NONPROLIFERATION

    Let me turn now to Defense Nuclear Nonproliferation. We're 
asking for $1.35 billion to support activities to reduce the 
global danger. We're not doing this alone; our G8 partners have 
committed to spend $10 billion to help decrease the global 
proliferation threat over the next 10 years. The largest 
program in this area involves the disposition of surplus U.S. 
and Russian plutonium. As you mentioned in your opening 
statement, Mr. Chairman, one of the key obstacles we 
encountered is a disagreement with Russia regarding liability 
protection for plutonium disposition work performed in that 
country. At the present time, this disagreement has resulted in 
a 10-month delay in the start of construction of the Mixed 
Oxide, or MOX, Fuel Facility in Russia as well as the facility 
in the United States. This issue is being worked at the highest 
levels of the administration; the President's 2005 budget 
request supports construction of both MOX facilities starting 
in May of next year and I am hopeful that we will resolve the 
liability issue shortly, as soon as the new Russian government 
is fully organized.
    Senator Domenici. Who is your negotiator?
    Ambassador Brooks. The Under Secretary of State for Arms 
Control, John Bolton, has been the primary lead; the Secretary 
of State has also been involved.
    In addition to disposing of existing stocks of surplus 
weapons-grade plutonium, we're working hard to stop more from 
being produced by shutting down the last three plutonium 
production reactors in Russia and replacing them with fossil 
fuel plants. That will result in halting annual production of 
about 1.2 metric tons of weapons-grade plutonium, roughly a 
bomb a day. We are preparing preliminary designs for the fossil 
fuel replacement plants, and validating cost estimates and we 
expect to complete these designs by the end of the calendar 
year, at which time we'll be able to provide the Congress with 
revised and firm cost estimates.
    Given recent threats to the United States, it has become 
increasingly clear that protecting and securing nuclear 
materials and detecting nuclear materials destined for the 
United States at foreign ports, airports, and border crossings 
is a high priority. Our budget request for material protection, 
control, and accounting, which includes our Second Line of 
Defense Program and our Mega-Ports Program, is $238 million. Of 
that, $15 million will go toward moving ahead with our Mega-
Ports Program to train law enforcement officials and equip key 
international ports with radiation detection equipment. We 
expect to complete work at ports in Greece and The Netherlands 
by late summer in 2004. In addition, also under Material 
Protection, we have made a number of improvements in the 
security of the Russian Nuclear Navy and are now focused on 
improving security at Strategic Rocket Forces sites.
    In fiscal year 2005, we will assume, NNSA will assume, 
responsibility for the Off-site Source Recovery Project. The 
requested program funding is $5.5 million, with a total cost of 
about $40 million to substantially reduce the risk of source 
materials within the United States being used for radiological 
dispersion devices. And, we're working closely with the U.S. 
Nuclear Regulatory Commission.
    Our budget reflects our continued support for the 
International Atomic Energy Agency and it reflects a renewed 
emphasis on retrieving material with weapons potential from 
research reactors worldwide. We've been working to secure 
materials in Russia and Eurasia for over a decade and our 
programs have now expanded worldwide. We've worked to return 
both U.S.- and Russian-origin highly enriched uranium to 
convert civilian reactor cores to use low-enriched uranium, 
which is of less proliferation concern, and to secure and 
remove vulnerable nuclear and radiological materials. Our 
efforts are paying off. By the end of this year almost half of 
the 98 targeted reactors will have been converted to use low-
enriched uranium fuel. In 2002, the Department assisted in the 
removal of vulnerable nuclear material from Yugoslavia. In 
2003, we helped return 17 kilograms of Russian-origin highly-
enriched uranium from Bulgaria, and 14 kilograms of Russian 
highly-enriched uranium from Romania. We're now working with 
Libya and have recently helped remove highly-enriched uranium 
from that country as well. In Iraq, the Department is securing 
and disposing of vulnerable radiological sources. To help 
coordinate all this, last year we established a Nuclear and 
Radiological Threat Reduction Task Force to combat the threat 
posed by so-called dirty bombs. This task force is identifying 
and securing high risk radiological materials and developing an 
action plan to mitigate these vulnerabilities overseas.
    Senator Domenici. Who will lead that committee?
    Ambassador Brooks. Mr. Longsworth will be in overall 
charge.
    In all this we have strengthened the security of our Nation 
and I believe we're making the world safer.
    Senator Domenici. Mr. Ambassador, I know you have a lot to 
say but you told us you were going to be brief.
    Ambassador Brooks. Yes sir, I've got two more points to 
make and then I'll quit, if I may.
    Senator Domenici. All right.
    Ambassador Brooks. I want to just mention safeguards and 
security. That's one of Secretary Abraham's and my highest 
priorities. Our request includes an increase over the past to 
deal with the safeguards and security consequences of the 
Design Basis Threat and I believe that we are well on track to 
meet the Secretary's guidance to have improvements in place by 
the end of next year.

                           PREPARED STATEMENT

    Finally, let me just say that our budget is consistent with 
the President's policy to reduce reliance on nuclear weapons. 
It supports continued progress in certifying our nuclear 
deterrent and reducing the danger from proliferation. And it 
will enable us to continue to maintain the safety and security 
of the stockpile through the 21st century.
    This concludes my statement. After you've heard from 
Admiral Bowman I'm ready for your questions, sir.
    [The statement follows:]

           Prepared Statement of Ambassador Linton F. Brooks

    Thank you for the opportunity to discuss the Fiscal Year 2005 
Budget Request for the National Nuclear Security Administration (NNSA). 
This is my second appearance before this committee as the Under 
Secretary for Nuclear Security, and I want to thank all of the Members 
for their strong support for our important national security 
responsibilities.

                                OVERVIEW

    The NNSA has four fundamental and unique responsibilities for U.S. 
national security:
  --Stewardship of the Nation's nuclear weapons stockpile,
  --Reducing the threat posed by the proliferation of weapons of mass 
        destruction,
  --Providing reliable and safe propulsion for the U.S. Navy,
  --Management of the national nuclear security complex, which includes 
        both security for our facilities and materials to protect our 
        employees and our neighbors, and sustaining the facilities 
        infrastructure.
    In the fourth year of this administration, with the strong support 
of the Congress, the NNSA programs have achieved a level of stability 
that is required for accomplishing our long-term missions. As the post-
Cold War era evolves, the NNSA is managing the Nation's nuclear 
warheads according to the guidance in the Nuclear Posture Review. The 
Department of Energy (DOE), through the NNSA, works to assure that the 
Nation's nuclear weapons stockpile remains safe, secure, reliable, and 
ready, and to extend the life of that stockpile in support of 
Department of Defense (DOD) military requirements. Our Nation will 
continue to benefit from the security that results from an effective 
nuclear deterrent, with confidence that the nuclear weapons complex is 
ready and prepared to respond rapidly and effectively if required.
    Stockpile Stewardship activities are carried out without the use of 
underground nuclear testing, continuing the moratorium initiated by the 
United States in 1992. I am pleased with the continuing ability of the 
Stockpile Stewardship Program to certify to the President, through the 
Annual Certification Assessment Report, the safety, security, and 
reliability of our nuclear weapons stockpile using science-based 
judgments using cutting edge scientific and engineering tools as well 
as extensive laboratory and flight tests. We are gaining a more 
complete understanding of the stockpile each year. Computer codes and 
platforms developed by our Advanced Simulation and Computing (ASCI) 
program are now used routinely to address three-dimensional issues in 
weapons performance, contributing to continuing certification, baseline 
studies, as well as supporting the upcoming refurbishment workload.
    The NNSA maintains a robust infrastructure of people, programs, and 
facilities to provide specialized scientific and technical capability 
for stewardship of the nuclear weapons stockpile. This past year, Los 
Alamos National Laboratory manufactured the first certifiable W88 pit 
since the closure of Rocky Flats in 1989. Los Alamos remains on-track 
to certify a war reserve W88 pit by 2007. Also, in the past year, we 
began the irradiation of Tritium Producing Burnable Absorber Rods in a 
TVA reactor, restoring a key nuclear manufacturing technology. We also 
continue our facilities recapitalization effort. There is a notable 
improvement across the nuclear weapons complex, and NNSA is delivering 
on our promise to the Congress to stabilize our deferred maintenance in 
fiscal year 2005.
    The Nation continues to benefit from advances in science, 
technology and engineering fostered by the national security program 
activities, including cutting edge research and development carried out 
in partnership with many of the Nation's colleges, universities, small 
businesses and minority educational institutions. The University of 
Rochester's Omega laser is a key facility in NNSA's Inertial 
Confinement Fusion program. It provides experimental capability for 
Stockpile Stewardship as well as a user facility for training 
tomorrow's scientists and engineers. Overall, the NNSA programs, 
including three national laboratories, the Nevada Test Site, and the 
production facilities across the United States employ nearly 2,300 
Federal employees and approximately 35,000 contractor employees to 
carry out this work.
    In June 2002, the United States championed a new, comprehensive 
nonproliferation effort known as the Global Partnership. World leaders 
committed to raise up to $20 billion over 10 years to fund 
nonproliferation programs in the former Soviet Union. The NNSA 
contributes directly to this effort by carrying out programs with the 
international community to reduce and prevent the proliferation of 
nuclear weapons, materials and expertise. The security of our Nation 
and the world are enhanced by NNSA's ongoing work to provide security 
upgrades for military and civilian nuclear sites and enhanced border 
security in Russia and the Former Soviet Union. In the past year, we 
have completed comprehensive materials protection control and 
accountability upgrades at 17 Russian nuclear facilities, and began 
efforts to install security upgrades at vulnerable Russian Federation 
Strategic Rocket Forces sites. With the support of the Congress, we are 
implementing an aggressive Megaports initiative to enhance global 
nuclear material detection at 15 major seaports shipping large volumes 
of container traffic to the United States. We are reducing the world's 
stocks of dangerous materials such as plutonium through NNSA-sponsored 
Fissile Materials Disposition programs in the United States and Russia 
as well as through elimination of Russian plutonium production.
    The Nation benefits from NNSA's work in partnership with the 
Department of Homeland Security to develop and demonstrate new 
detection technologies to improve security of our cities. Perhaps the 
most tangible benefits to the Nation following the 9/11 terrorist 
attacks are the ``first responder teams'' of highly specialized 
scientists and technical personnel from the NNSA sites who are deployed 
across the Nation to address threats of weapons of mass destruction. 
These teams work under the direction of the Department of Homeland 
Security and the Federal Bureau of Investigation to respond to nuclear 
emergencies in the United States and around the world. In the past 
year, these teams have provided support to such diverse groups and 
locations as New York City, Operation Iraqi Freedom, Olympic Planning 
in Athens, and the Government of Thailand. Our teams have participated 
in major training and exercise events in the United States and 
overseas. They have developed new capabilities, including Triage, that 
enables our first responders to rapidly determine if an item of 
interest includes special nuclear material in yield-producing 
quantities.
    The NNSA also works in partnership with the DOD to meet their needs 
for reliable and militarily effective nuclear propulsion for the U.S. 
Navy. In the past year, the Naval Reactors Program has completed 99 
percent of the reactor plant design for the VIRGINIA-class submarine, 
and supported ``safe steaming'' of another 2 million miles by our 
nuclear-powered ships. They have continued their unsurpassed record of 
``clean up as you go'', including remediating to ``green grass'' the 
former S1C prototype Site at Windsor, Connecticut, and completing a 
successful demonstration of the interim naval spent fuel dry storage 
capability in Idaho.

                                               NNSA BUDGET SUMMARY
                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                              Fiscal Year    Fiscal Year                 Fiscal Year
                                                  2003           2004      Fiscal Year       2004        Fiscal
                                               Comparable      Original        2004       Comparable   Year 2005
                                             Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator................          330            340            -3           337          334
Weapons Activities.........................        5,961          6,273           -39         6,234        6,568
Defense Nuclear Nonproliferation...........        1,224          1,328            +6         1,334        1,349
Naval Reactors.............................          702            766            -4           762          798
                                            --------------------------------------------------------------------
      Total, NNSA..........................        8,217          8,707           -40         8,667        9,049
----------------------------------------------------------------------------------------------------------------

    The fiscal year 2005 budget request totals $9.0 billion, an 
increase of $382 million or 4.4 percent. We are managing our program 
activities within a disciplined 5-year budget and planning envelope. We 
are doing it successfully enough to be able to address emerging new 
priorities and provide for needed funding increases in some of our 
programs within an overall modest growth rate--notably Safeguards and 
Security, Nuclear Weapons Incident Response, and Facilities and 
Infrastructure Recapitalization--by reallocating from other activities 
and projects that are concluded or winding down.
    The NNSA budget justification contains the required 3 years of 
budget and performance information, as well as similar information for 
5 years as required by Sec. 3253 of the NNSA Act, as amended (Title 
XXXII of the National Defense Authorization Act for fiscal year 2000, 
Public Law 106-65, 50 U.S.C. 2453). This section, entitled Future-Years 
Nuclear Security Program, requires NNSA to provide to Congress each 
year at the time the budget is submitted the estimated expenditures 
necessary to support the programs, projects and activities of the NNSA 
for a 5-fiscal-year period, in a level of detail comparable to that 
contained in the budget. Since the inception of NNSA, the Future Years 
Nuclear Security Program (FYNSP) has been provided as a separate 
document supporting the budget request. Starting with this budget, NNSA 
will meet this statutory requirement by including outyear budget and 
performance information as part of a fully integrated budget 
submission.

                                  FUTURE YEARS NUCLEAR SECURITY PROGRAM (FYNSP)
                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal   Fiscal   Fiscal   Fiscal   Fiscal
                                                              Year     Year     Year     Year     Year    Total
                                                              2005     2006     2007     2008     2009
----------------------------------------------------------------------------------------------------------------
Office of the Administrator...............................      334      340      347      353      360    1,734
Weapons Activities........................................    6,568    6,881    7,216    7,353    7,492   35,510
Defense Nuclear Nonproliferation..........................    1,349    1,381    1,410    1,441    1,465    7,046
Naval Reactors............................................      798      803      818      834      850    4,103
                                                           -----------------------------------------------------
      Total, NNSA.........................................    9,049    9,405    9,791    9,981   10,167   48,393
----------------------------------------------------------------------------------------------------------------

                     BUDGET AND PROGRAM HIGHLIGHTS

    There are three areas of the NNSA budget where mission priorities 
require us to request significant increases in funding for fiscal year 
2005.

              SAFEGUARDS AND SECURITY/DESIGN BASIS THREAT

    Protecting NNSA people, information, materials, and infrastructure 
from harm or compromise is one of our most serious responsibilities and 
highest priorities. The fiscal year 2005 budget request for NNSA's 
Safeguards and Security Program is $706.9 million, an increase of 21 
percent over the fiscal year 2004 enacted level, that is needed to 
implement a new Design Basis Threat (DBT) at all NNSA sites and 
facilities. The Secretary of Energy issued the new DST in May 2003, as 
a result of a post-September 11 analysis of the threats against which 
we must protect DOE sites and materials across the country. 
Implementation plans based on vulnerability assessments for each of the 
sites are in final preparation. These will delineate the upgrades and 
associated costs plan to upgrade service weaponry, extend explosive 
impact zones, consolidate nuclear material, and make additional 
improvements of a classified nature to bring NNSA facilities into full 
compliance with the new DBT by the year 2006. The fiscal year 2005 NNSA 
budget includes $107.9 million ($89.6 in Safeguards and Security and 
$18.3 million in Secure Transportation Asset) to address the new DBT. 
NNSA will shortly submit a request for fiscal year 2004 reprogramming 
and appropriation transfer to allow this important work to continue on 
schedule. The fiscal year 2006 funding request for DBT implementation 
will be addressed during this spring's programming process.
    In recent months we have had some highly publicized occurrences at 
some NNSA sites. In each instance, NNSA and DOE have taken immediate 
and aggressive actions to address these occurrences and to ensure that 
any potential vulnerability is mitigated as soon as possible and that 
longer term fixes are put into place as appropriate. Because of these 
problems, we have chartered two external review groups to provide an 
independent assessment of our management of security. While I am 
confident that there has been no compromise of classified material and 
that no nuclear material is at risk, I believe security can and should 
be improved. The Secretary and I have both made it clear that we will 
not tolerate any reduction, perceived or real, in our protective force 
readiness or in our ability to protect the complex. Funding for 
Safeguards and Security in NNSA has increased over 70 percent during 
this administration, which is strong indicator of the priority we place 
on this responsibility. The Secretary and I join together in making it 
well known that we will not tolerate any reduction, perceived or real, 
in our protective forces and our abilities to protect the complex.

             FACILITIES AND INFRASTRUCTURE RECAPITALIZATION

    The Facilities and Infrastructure Recapitalization Program (FIRP) 
is essential to NNSA's ability to maintain a responsive robust 
infrastructure. I am pleased to note that its mission and performance 
is commended in the recent preliminary assessment by the National 
Research Council on DOE's facility management. The fiscal year 2005 
budget request for FIRP is $316.2 million. This increase follows a 2-
year period of flat funding. The request restores the program to our 
previously requested FYNSP levels; it places the program back on our 
previously planned schedule and reflects our commitment to fulfill the 
direction of the Congress to end the program by 2011.

                   NUCLEAR WEAPONS INCIDENT RESPONSE

    The third growth area in the fiscal year 2005 budget request is the 
Nuclear Weapons Incident Response Programs. The fiscal year 2005 
request of $99.2 million reflects an increase of 11 percent over the 
fiscal year 2004 level, recognizing the greatly increased number of 
deployments of these assets within the United States and abroad. The 
long term sizing of this effort in terms of dollars and people 
continues to evolve along with its critical role in homeland security. 
We have relocated this account separately within the Weapons Activities 
appropriation to provide additional visibility into these programs and 
funding request.
    At this time, I would like to focus on the remainder of the 
President's budget request for NNSA Weapons Activities including 
Defense Programs, Defense Nuclear Nonproliferation, Naval Reactors, and 
the Office of the Administrator accounts.

                           WEAPONS ACTIVITIES

    The fiscal year 2005 budget request for the programs funded within 
the Weapons Activities appropriation is $6.568 billion, an increase of 
5.4 percent over fiscal year 2004 due largely to the increase in 
security and facilities infrastructure. Within Weapons Activities, the 
budget structure has been changed in response to Congressional concerns 
to align Directed Stockpile Work funding with individual weapon 
systems, and to highlight Nuclear Weapon Incident Response as a 
separate line.
    The Nuclear Posture Review (NPR) guidance directed that NNSA 
maintain a research and development and manufacturing base that ensures 
the long-term effectiveness of the Nation's stockpile; and, support the 
facilities and infrastructure that are responsive to new or emerging 
threats. The NPR also directed NNSA to begin a modest effort to examine 
concepts that could be deployed to further enhance the deterrent 
capabilities of the stockpile in response to the national security 
challenges of the 21st century.
    The United States is continuing work to refurbish and extend the 
life of the B61, W76 and W80 warheads in the stockpile. Within the 
fiscal year 2005 request of $1.4 billion for Directed Stockpile Work 
(DSW), funding for the life extension programs increases by 7 percent 
to $477.4 million. This reflects the expected ramp up in the three 
systems with First Production Units scheduled in fiscal year 2006-2009, 
and the completion of life extension activities for the W87. In fiscal 
year 2005, DSW funding will support research and development of 
advanced weapon concepts to meet emerging DOD needs that will enhance 
the nuclear deterrent, and to ensure a robust and capable NNSA for the 
Future. The NPR highlighted the importance of pursuing advanced 
concepts work to ensure that the weapons complex can provide nuclear 
deterrence for decades to come. In fiscal year 2005, $9.0 million is 
requested to support the modest research and development effort in the 
Advanced Concepts Initiatives (ACI) to meet emerging DOD needs and to 
train the next generation of nuclear weapons scientists and engineers. 
The Robust Nuclear Earth Penetrator (RNEP) is the most mature concept 
being studied in this program. Funds for the RNEP study are included in 
the fiscal year 2005 budget as a separate line item from the rest of 
the advanced concepts study activity. A request for $27.6 million is 
also included for the continuing RNEP feasibility, design definition 
and cost study. The RNEP study was requested by the Nuclear Weapons 
Council in January 2002.
    The RNEP study is to determine whether either of two existing 
warheads--the B61 or the B83--can be adapted without resuming nuclear 
testing to improve our ability to hold at risk hardened, deeply buried 
facilities that may be important to a future adversary. The request for 
advanced concepts funding is to investigate new ideas, not necessarily 
new weapons. For example, we are currently examining the feasibility of 
adapting an existing weapons carrier and existing nuclear warheads to 
achieve a delivery system with greater assurance that the intended 
nuclear mission could not be compromised by either component failure or 
adversary attack, thus giving greater reliability for nuclear missions. 
Appropriate uses for additional work in advanced concepts might include 
examining the feasibility of warheads with improved design margins, 
easier manufacturing, greater longevity and improved safety. Any of 
these ideas would only be pursued for future development if directed to 
do so by the President and the Congress.
    Progress in other parts of the Stockpile Stewardship Program 
continues. The fiscal year 2005 request for Campaigns is $2.4 billion, 
essentially level with fiscal year 2004. This request funds a variety 
of Campaigns, experimental facilities and activities that continue to 
enhance NNSA's confidence in moving to ``science-based'' judgments for 
stockpile stewardship, and provide cutting edge technologies for 
stockpile certification and maintenance.
    While there is no reason to doubt the ability of the Stockpile 
Stewardship Program to continue to ensure the safety, security, and 
reliability of the nuclear deterrent, the Nation must maintain the 
ability to carry out a nuclear weapons test in the event of some 
currently unforeseen problems that cannot be resolved by other means. 
Within the guidance provided by the Congress, we are beginning to 
improve our readiness posture from the current ability to test within 
24 to 36 months to an ability to test within approximately 18 months. 
The fiscal year 2005 budget request of $30 million supports achieving 
an 18-month readiness by September 2005. But let me be clear, there are 
no plans to test.
    National Ignition Facility at Lawrence Livermore National 
Laboratory (LLNL) remains on budget and schedule. The fiscal year 2005 
request of $130.0 million continues construction installation and 
commissioning of laser beams. Once complete in 2008, the 192-laser beam 
facility will be capable of achieving temperatures and pressures found 
only on the surface of the sun and in exploding nuclear weapons. We are 
anticipating the first Stockpile Stewardship experiments in 2004 using 
four laser beams. As a result of recent technical advances in capsule 
design, target fabrication and computer simulations, we expect to begin 
the fusion ignition campaign in fiscal year 2009 with a goal of 
achieving fusion ignition in fiscal year 2010. The Advanced Simulation 
and Computing Campaign request for fiscal year 2005 is $741.3 million, 
an increase of nearly 3 percent over fiscal year 2004. Working with IBM 
and Cray Research, the program expects delivery of Red Storm in fiscal 
year 2004 and Purple in fiscal year 2005. These will be the world's 
fastest machines, operating at 40 and 100 Teraops, respectively, and 
they will continue to revolutionize supercomputer capabilities and 
three-dimensional modeling. Having these machines on-line will begin to 
redress the capacity and capability issues raised in the September 2003 
JASONs report required by the Congress.
    The NPR recognized a need, over the long run, for a Modern Pit 
Facility (MPF) to support the pit manufacturing needs of the entire 
stockpile. NNSA's fiscal year 2005 request for the Pit Manufacturing 
Campaign is $336.5 million, an increase of 13 percent over fiscal year 
2004, but with some changes since the last budget request. We delayed 
the final environmental impact statement (EIS) for the MPF in order to 
address Congressional concerns that it is premature to pursue further 
decisions on an MPF at this time. The decision to delay the final EIS 
also delays identification of a preferred site for constructing the 
MPF.
    This decision will in no way affect the W88 pit manufacturing and 
recertification program underway at Los Alamos, which is reestablishing 
the technological base to manufacture pits and which thereby will 
inform many of the technology decisions which will be contained in the 
eventual MPF design.
    Readiness Campaigns are requested at $280.1 million in fiscal year 
2005, a decrease of about 14 percent. The decrease is attributable 
mainly to continuing progress in construction of the Tritium Extraction 
Facility that is funded within this account.
    NNSA's Readiness in Technical Base and Facilities activities 
operate and maintain current facilities and ensure the long-term 
vitality of the NNSA complex through a multi-year program of 
infrastructure construction. About $1.5 billion is requested for these 
efforts, a slight decrease from fiscal year 2004 that is attributable 
to a 20 percent decline in funding needed to support line-item 
construction project schedules. Three new construction starts are 
requested.
    In fiscal year 2005 the President's budget provides a total of 
$201.3 million for the Office of Secure Transportation, which is 
responsible for meeting the Department's transportation requirements 
for nuclear weapons, components, special nuclear materials and waste 
shipments.
    The remainder of the Weapons Activities appropriation funding is 
for Nuclear Weapons Incident Response, Facilities and Infrastructure 
Recapitalization, and Safeguards and Security, discussed earlier in 
this statement.

                    DEFENSE NUCLEAR NONPROLIFERATION
 
   The Defense Nuclear Nonproliferation Program works to prevent the 
spread of nuclear weapons and materials to terrorist organizations and 
rogue states. The administration is requesting $1.35 billion to support 
activities to reduce the global weapons of mass destruction 
proliferation threat, about a 1 percent increase over comparable fiscal 
year 2004 activities. This reflects a leveling off of growth in these 
important programs that have increased over 60 percent in the past 4 
years.
    Given recent threats to the United States, it has become 
increasingly clear that protecting and securing nuclear materials and 
detecting nuclear and radioactive material at foreign ports, airports, 
and border crossings is a very high priority. The administration's 
leadership in the Global Partnership is one way that we are trying to 
address these issues. The fiscal year 2005 request for programs 
supporting the Partnership is $439 million. This includes a fiscal year 
2005 request of $238 million for the International Nuclear Material 
Protection and Cooperation (MPC&A) Program, which supports Second Line 
of Defense activities and the Mega-ports Program. The Mega-ports 
Program was jump-started with $99 million appropriated in fiscal year 
2003. Progress is continuing, and with the $15 million requested in 
fiscal year 2005, we will have work underway or complete at 9 of the 15 
planned international ports. The $15 million in fiscal year 2005 is 
requested to train law enforcement officials and equip key 
international ports with radiation detection equipment to detect, 
deter, and interdict illicit trafficking of nuclear and other 
radioactive materials. We are scheduled to complete work at ports in 
Greece and the Netherlands by the summer of 2004. We have made a number 
of security improvements to Nuclear Navy sites in Russia and we are now 
focusing resources on securing Strategic Rocket Forces sites. In 
addition to this work, we are also pursuing a dialogue with countries 
we believe are of particular concern. We hope that these activities 
will lead to broader MPC&A cooperation in the coming years.
    The largest activity funded by this appropriation is the Fissile 
Materials Disposition program. We are working to design and build 
facilities to dispose of inventories of surplus U.S. weapons-grade 
plutonium and highly-enriched uranium, and supporting concurrent 
efforts in Russia to obtain reciprocal disposition of similar 
materials.
    One of the key obstacles encountered this year is a disagreement 
with Russia regarding liability protection for plutonium disposition 
work performed in that country. This has resulted in a 10-month delay 
in the planned start of construction of a MOX Facility in Russia as 
well as a similar facility in the United States. The liability issue is 
being worked at high levels of the administration. The President's 
fiscal year 2005 budget request seeks $649 million for this program to 
begin construction of both the U.S. and Russian MOX facilities in May 
2005, as we work to resolve the liability issue by this spring. Our 
outyear funding profiles reflect the administration's full commitment 
for proceeding with plutonium disposition.
    Not only are we pursuing the disposition of weapons-grade plutonium 
but also we are working hard to stop more from being produced. NNSA has 
assumed the responsibility from the DOD for shutting down the last 
three plutonium production reactors in Russia and replacing them with 
fossil fuel plants by 2008 and 2011. This will result in the cessation 
of the annual production of 1.2 metric tons of weapons-grade plutonium. 
Under the Elimination of Weapons-Grade Plutonium Production Program, we 
have selected the Washington Group International and Raytheon Technical 
Services to provide oversight for Russian contractors who will actually 
be performing the work. The fiscal year 2005 request for this effort is 
$50.1 million.
    In fiscal year 2005, NNSA assumes responsibility for the Off-site 
Source Recovery Project from the Office of Environmental Management. 
The requested program funding is $5.6 million, with a projected cost of 
about $40 million over the next 5 years to substantially reduce the 
risk of these source materials being used for radiological dispersion 
devices. The program works closely with the U.S. Nuclear Regulatory 
Commission to prioritize source recovery.
    The Russian reactor safety efforts under the International Nuclear 
Safety Program were completed successfully in 2003. The remaining $4 
million for emergency management and cooperation efforts was shifted to 
the Nonproliferation and International Security Program. These funds 
provide for the orderly shutdown of the BN 350 reactor in Kazakhstan 
($1.5 million) and continue activities to strengthen international 
emergency cooperation and communications ($2.5 million). The 
Accelerated Materials Disposition initiative was not supported by the 
Congress in fiscal year 2004 and in consideration of overall NNSA 
priorities, is not requested in the fiscal year 2005 budget or 
outyears.

                             NAVAL REACTORS

    The NNSA is requesting $798 million for the Naval Reactors Program 
in fiscal year 2005, an increase of about 4 percent. This program 
continues to be a prime example of how to manage unforgiving and 
complex technology. The Naval Reactors Program provides safe and 
reliable nuclear reactors to power the Navy's warships. It is 
responsible for all naval nuclear propulsion work, beginning with 
technology development, through reactor operations, and ultimately to 
reactor plant disposal. The budget increase will support 70 percent 
completion of the design of the next generation nuclear reactor on an 
aircraft carrier, and continue work on the Transformational Technology 
Core, which will deliver a significant energy increase to future 
submarines, resulting in greater operational ability and flexibility. 
The request includes $6.2 million for a new construction start, the 
Materials Development Facility Building, in Schenectady, NY. The TTC 
facility is estimated at $20.4 million, and it is expected to be 
completed in 2008.

                      OFFICE OF THE ADMINISTRATOR

    NNSA is in the final implementation phase of a re-engineering 
effort that follows the principles of the President's Management Agenda 
to modernize, integrate, and streamline operations. As a result, at the 
end of fiscal year 2004, NNSA will achieve its goal of a 15 percent 
reduction in Federal personnel since fiscal year 2002. It is likely 
that the Congress will receive a request for reprogramming in fiscal 
year 2004 to fund the remainder of these realignment and reengineering 
activities.
    The fiscal year 2005 budget request of $333.7 million is about 1 
percent below the fiscal year 2004 appropriation. This reflects cost 
avoidance due to reduction of about 300 positions since 2002, and no 
further request for incremental funding needed to accomplish re-
engineering in NNSA HQ and field organizations. The budget request 
assumes that personnel reductions are achieved, restructuring finished, 
and associated employee transfers are complete at the end of fiscal 
year 2004.
    The Defense Nuclear Nonproliferation (NN) and Nuclear Weapons 
Incident Response programs have been excluded from staff reductions due 
to increased program requirements in those areas. NNSA is not 
requesting a separate funding control for the Office of Defense Nuclear 
Nonproliferation because it is no longer necessary to assure that 
Federal hiring goals are met for these activities that are experiencing 
rapid mission growth. Based on hiring to date in fiscal year 2004, it 
is projected that this organization will meet or exceed its managed 
staffing plan goal of 244 by fiscal year 2005. A single funding control 
for the appropriation is necessary to facilitate NNSA's corporate 
efforts to rebalance the NN's office transition from reliance on 
support service contractors to permanent Federal staff.

                           MANAGEMENT ISSUES

    I would like to conclude by discussing some of NNSA's management 
challenges and successes. We are all aware of the management 
difficulties that beset the weapons laboratories last year. The 
contractors and NNSA/DOE have made many changes to the laboratories' 
management and reporting/oversight requirements in response to the 
problems. Soon their contracts are coming up for renewal. Secretary 
Abraham has outlined the Department's strategy for competing the 
Management and Operating contracts for our nuclear design labs in 
accordance with Section 301 of the Energy and Water Development 
Appropriations Act, Fiscal Year 2004 (Public Law 108-137). On April 30, 
2003, the Secretary announced that we intend to compete the Los Alamos 
National Laboratory contract on a full and open basis to have a 
contract in place by September 30, 2005, when the old contract expires.
    On January 21, 2004, the Secretary reiterated his decision 
concerning Los Alamos National Laboratory. At that time, he also 
announced his decision to compete the Lawrence Livermore National 
Laboratory contract, as well as three other DOE laboratories, but 
indicated that the precise timing and form of these competitions were 
under consideration.
    NNSA, with the concurrence of the Secretary, is establishing a 
Source Evaluation Board (SEB) for the Los Alamos competition. I have 
named Tyler Przybylek as the Chairman of that SEB and he is in the 
process of identifying members and advisers to the SEB. We see no 
obstacle to meeting the Secretary's schedule for competing and awarding 
a new contract or managing Los Alamos.
    On the ``success'' side, I am proud that the Department of Energy 
was ranked first among cabinet-level agencies in the most recent 
scorecard to assess implementation of the President's Management 
Agenda. The scorecard, which evaluates agency performance in the areas 
of human capital, competitive sourcing, financial management, e-
Government, and budget/performance integration, was issued by OMB. We 
at NNSA take very seriously the responsibility to manage the resources 
of the American people effectively and I am glad that our management 
efforts are achieving such results.

                               CONCLUSION

    In conclusion, I am confident that we are headed in the right 
direction. Our budget request will support continuing our progress in 
protecting and certifying our nuclear deterrent, reducing the global 
danger from proliferation and weapons of mass destruction, and 
enhancing the force projection capabilities of the U.S. nuclear Navy. 
It will enable us to continue to maintain the safety and security of 
our people, information, materials, and infrastructure. Above all, it 
will meet the national security needs of the United States of the 21st 
century.
    Mr. Chairman, this concludes my statement. A statistical appendix 
follows that contains the budget figures supporting our request. My 
colleagues and I would be pleased to answer any questions on the 
justification for the requested budget.

                   NATIONAL NUCLEAR SECURITY ADMINISTRATION APPROPRIATION AND PROGRAM SUMMARY
                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                             Fiscal Year    Fiscal Year                 Fiscal Year
                                                 2003           2004      Fiscal Year       2004        Fiscal
                                              Comparable      Original        2004       Comparable    Year 2005
                                            Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator...............           330            340            -3           337          334
Weapons Activities........................         5,961          6,273           -39         6,234        6,568
Defense Nuclear Nonproliferation..........         1,224          1,328            +6         1,334        1,349
Naval Reactors............................           702            766            -4           762          798
                                           ---------------------------------------------------------------------
      Total, NNSA.........................         8,217          8,707           -40         8,667        9,049
----------------------------------------------------------------------------------------------------------------


                             FUTURE YEARS NUCLEAR SECURITY PROGRAM (FYNSP) SCHEDULE
                                            [In Millions of Dollars]
----------------------------------------------------------------------------------------------------------------
                                                             Fiscal   Fiscal   Fiscal   Fiscal   Fiscal
                                                              Year     Year     Year     Year     Year    Total
                                                              2005     2006     2007     2008     2009
----------------------------------------------------------------------------------------------------------------
Office of the Administrator...............................      334      340      347      353      360    1,734
Weapons Activities........................................    6,568    6,881    7,216    7,353    7,492   35,510
Defense Nuclear Nonproliferation..........................    1,349    1,381    1,410    1,441    1,465    7,046
Naval Reactors............................................      798      803      818      834      850    4,103
                                                           -----------------------------------------------------
      Total, NNSA.........................................    9,049    9,405    9,791    9,981   10,167   48,393
----------------------------------------------------------------------------------------------------------------


                                        WEAPONS ACTIVITIES APPROPRIATION
                                            [In Thousands of Dollars]
----------------------------------------------------------------------------------------------------------------
                                            Fiscal Year    Fiscal Year                 Fiscal Year
                                                2003           2004      Fiscal Year       2004      Fiscal Year
                                             Comparable      Original        2004       Comparable       2005
                                           Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Weapons Activities:
    Directed Stockpile Work..............     1,259,136      1,340,286       -13,630     1,326,656     1,406,435
    Science Campaign.....................       260,867        250,548       +23,300       273,848       300,962
    Engineering Campaign.................       270,502        344,387       -79,472       264,915       242,984
    Inertial Confinement Fusion and High        499,230        517,269        -3,018       514,251       492,034
     Yield Campaign......................
    Advanced Simulation and Computing           674,453        725,626        -4,250       721,376       741,260
     Campaign............................
    Pit Manufacturing and Certification         261,807        298,528        -1,738       296,790       336,473
     Campaign............................
    Readiness Campaign...................       270,147        247,097       +81,819       328,916       280,127
    Readiness in Technical Base and           1,480,872      1,664,235      -123,590     1,540,645     1,474,454
     Facilities..........................
    Secure Transportation Asset..........       168,548        162,400          -948       161,452       201,300
    Nuclear Weapons Incident Response....        81,114              0       +89,167        89,167        99,209
    Facilities and Infrastructure               235,474        240,123        -1,368       238,755       316,224
     Recapitalization Program............
    Safeguards & Security................       558,161        585,750        -3,280       582,470       706,991
                                          ----------------------------------------------------------------------
      Subtotal, Weapons Activities.......     6,020,311      6,376,249       -37,008     6,339,241     6,598,453
    Use of Prior Year Balances...........       -29,981        -74,753        -2,000       -76,753             0
    Security Charge for Reimbursable Work       -28,985        -28,985            +0       -28,985       -30,000
                                          ----------------------------------------------------------------------
      Total, Weapons Activities..........     5,961,345      6,272,511       -39,008     6,233,503     6,568,453
----------------------------------------------------------------------------------------------------------------


                                 DEFENSE NUCLEAR NONPROLIFERATION APPROPRIATION
                                            [In Thousands of Dollars]
----------------------------------------------------------------------------------------------------------------
                                              Fiscal Year    Fiscal Year                 Fiscal Year
                                                  2003           2004      Fiscal Year       2004        Fiscal
                                               Comparable      Original        2004       Comparable   Year 2005
                                             Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Defense Nuclear Nonproliferation:
    Nonproliferation and Verification            256,092        231,997             0       231,997      220,000
     Research and Development..............
    Nonproliferation and International           130,873        110,107        +3,977       114,084      124,000
     Security..............................
    International Nuclear Materials              333,029        258,487             0       258,487      238,000
     Protection and Cooperation............
    Russian Transition Initiatives.........       39,081         39,764             0        39,764       41,000
    HEU Transparency Implementation........       17,118         17,894             0        17,894       20,950
    International Nuclear Safety...........       33,570          3,977        -3,977             0            0
    Elimination of Weapons-Grade Plutonium        49,221         49,735       +15,300        65,035       50,097
     Production............................
    Accelerated Material Disposition.......          894              0             0             0            0
    Fissile Materials Disposition..........      445,528        652,818             0       652,818      649,000
    Offsite Source Recovery Project........        2,172              0        +1,961         1,961        5,600
                                            --------------------------------------------------------------------
      Subtotal, Defense Nuclear                1,307,578      1,364,779       +17,261     1,382,040    1,348,647
       Nonproliferation....................
    Use of Prior Year Balances.............      -84,125        -45,000        -3,000       -48,000    .........
                                            --------------------------------------------------------------------
      Total, Defense Nuclear                   1,223,453      1,319,779       +14,261     1,334,040    1,348,647
       Nonproliferation....................
----------------------------------------------------------------------------------------------------------------


                                          NAVAL REACTORS APPROPRIATION
                                            [In Thousands of Dollars]
----------------------------------------------------------------------------------------------------------------
                                              Fiscal Year    Fiscal Year                 Fiscal Year
                                                  2003           2004      Fiscal Year       2004        Fiscal
                                               Comparable      Original        2004       Comparable   Year 2005
                                             Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Naval Reactors Development (NRD):
    Operations and Maintenance.............      666,927        723,100        -4,264       718,836      761,211
    Program Direction......................       24,043         26,700          -148        26,552       29,500
    Construction...........................       11,226         18,600          -110        18,490        7,189
                                            --------------------------------------------------------------------
      Subtotal, Naval Reactors Development.      702,196        768,400        -4,522       763,878      797,900
    Less Use of prior year balances........            0         -2,000    ...........       -2,000            0
    Subtotal Adjustments...................            0              0             0             0            0
                                            --------------------------------------------------------------------
      Total, Naval Reactors................      702,196        766,400        -4,522       761,878      797,900
----------------------------------------------------------------------------------------------------------------


                                    OFFICE OF THE ADMINISTRATOR APPROPRIATION
                                            [In Thousands of Dollars]
----------------------------------------------------------------------------------------------------------------
                                              Fiscal Year    Fiscal Year                 Fiscal Year
                                                  2003           2004      Fiscal Year       2004        Fiscal
                                               Comparable      Original        2004       Comparable   Year 2005
                                             Appropriation  Appropriation  Adjustments  Appropriation    Request
----------------------------------------------------------------------------------------------------------------
Office of the Administrator Program              330,314        339,980        -3,154       336,826      333,700
 Direction.................................
----------------------------------------------------------------------------------------------------------------


                                                                 FUNDING BY GENERAL GOAL
                                                                  [Dollars in Millions]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                             Fiscal      Fiscal      Fiscal                  Percent     Fiscal    Fiscal Year  Fiscal Year  Fiscal Year
                                            Year 2003   Year 2004   Year 2005   $ Change     Change     Year 2006      2007         2008         2009
--------------------------------------------------------------------------------------------------------------------------------------------------------
General Goal 1, Nuclear Weapons
 Stewardship:
    Directed Stockpile Work..............      $1,259      $1,327      $1,406        +$79        +6.0      $1,521       $1,648       $1,778       $1,812
    Science Campaign.....................         261         274         301         +27        +9.9         301          308          328          341
    Engineering Campaign.................         271         265         243         -22        -8.3         268          226          284          237
    ICF and High Yield Campaign..........         499         514         492         -22        -4.3         521          535          437          441
    Advanced Simulation and Computing             674         721         741         +20        +2.8         782          826          834          848
     Campaign............................
    Pit Manufacturing and Certification           262         297         336         +39       +13.1         324          314          155          158
     Campaign............................
    Readiness Campaign...................         270         329         280         -49       -14.9         331          307          357          376
    Readiness in Technical Base and             1,481       1,541       1,474         -67        -4.3       1,600        1,753        1,839        1,916
     Facilities..........................
    Nuclear Weapons Incident Response....          81          89          99         +10       +11.2         100          101           98          101
    Secure Transportation Asset..........         169         161         201         +40       +24.8         185          186          190          195
    Facilities and Infrastructure                 235         239         316         +77       +32.2         373          426          472          476
     Recapitalization Program............
    Safeguards and Security..............         529         553         677        +124       +22.4         575          586          580          591
    Office of the Administrator..........         279         283         277          -6        -2.1         282          288          293          299
    Use of PY Balances...................         -30         -77           0           0           0           0            0            0            0
                                          --------------------------------------------------------------------------------------------------------------
      Total Goal 1, Nuclear Weapons             6,237       6,513       6,845        +332        +5.1       7,163        7,504        7,646        7,791
       Stewardship.......................
                                          ==============================================================================================================
General Goal 2, Control of Weapons of
 Mass Destruction:
    Nonproliferation and Verification             256         232         220         -12        -5.2         229          235          246          248
     Research & Development..............
    Nonproliferation and International            131         114         124         +10        +8.8         119          120          120          120
     Security............................
    International Nuclear Material                333         258         238         -20        -7.8         244          250          258          260
     Protection and Cooperation..........
    Russian Transition Initiative........          39          40          41          +1        +2.5          42           43           43           44
    HEU Transparency Implementation......          17          18          21          +3       +16.7          21           21           20           20
    International Nuclear Safety.........          34           0           0           0           0           0            0            0            0
    Elimination of Weapons-Grade                   49          65          50         -15       -23.1          56           59           60           67
     Plutonium Production................
    Accelerated Materials Disposition....           1           0           0           0           0           0            0            0            0
    Fissile Materials Disposition........         382         653         649          -4        -0.6         661          673          685          697
    Offsite Source Recovery Project......           2           2           6          +4      +200.0           9            9            9            9
    Office of the Administrator..........          54          57          57           0           0          58           59           60           61
    Use of PY Balances...................         -20         -48           0  ..........  ..........           0            0            0            0
                                          --------------------------------------------------------------------------------------------------------------
      Total Goal 2, Control of Weapons of       1,278       1,391       1,406         +15        +1.0       1,439        1,469        1,501        1,526
       Mass Destruction..................
                                          ==============================================================================================================
Goal 3, Defense Nuclear Power (Naval              702         762         798         +36        +4.7         803          818          834          850
 Reactors)...............................
                                          ==============================================================================================================
      Total, NNSA........................       8,217       8,667       9,049        +382        +4.4       9,405        9,791        9,981       10,167
--------------------------------------------------------------------------------------------------------------------------------------------------------
NNSA Program Direction expenditures funded in the Office of the Administrator appropriation have been allocated in support of Goals 1 and 2. Goal 1
  allocation includes Federal support for programs funded by the Weapons Activities appropriation, as well as NNSA corporate support, including Federal
  staffing at the site offices. Goal 2 allocation includes Federal support for all Nuclear Nonproliferation programs. Program Direction expenditures for
  Naval Reactors, supporting Goal 3, are funded within the Naval Reactors appropriation.


                                                                 FUNDING SUMMARY BY SITE
                                                                [In Millions of Dollars]
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                         Fiscal Year               Fiscal Year
                                                               Fiscal Year  Fiscal Year  2005 Office  Fiscal Year      2005     Fiscal Year     Total
                                                                   2003         2004        of the    2005 Weapon    Nuclear     2005 Naval  Fiscal Year
                                                                                            Admin      Activities   Nonprolif      React         2005
--------------------------------------------------------------------------------------------------------------------------------------------------------
Chicago Operations Office:
    Ames Laboratory..........................................          0.2          0.2  ...........  ...........          0.2  ...........          0.2
    Argonne Nat. Laboratory..................................         24.7         19.2  ...........          1.9         20.5  ...........         22.4
    Brookhaven National Laboratory...........................         25.4         44.5  ...........          1.6         33.3  ...........         34.9
    Chicago Operations Office................................        209.5        428.4  ...........         25.2        446.3  ...........        471.5
    New Brunswick Laboratory.................................          1.5          1.1  ...........  ...........          1.1  ...........          1.1
Idaho Operations Office:
    Idaho National Laboratory................................         59.5         58.0  ...........  ...........          2.0         56.0         58.0
    Idaho Operations Office..................................          1.4          1.1  ...........          1.4  ...........  ...........          1.4
Kansas City Site Office:
    Kansas City Plant........................................        390.3        403.8  ...........        378.0          1.4  ...........        379.5
    Kansas City Site Office..................................          6.2          6.2          6.0  ...........  ...........  ...........          6.0
Livermore Site Office:
    Lawrence Livermore National Laboratory...................      1,048.7      1,004.1  ...........        963.3         70.4  ...........      1,033.7
    Livermore Site Office....................................         12.8         16.1         16.5  ...........  ...........  ...........         16.5
Los Alamos Site Office:
    Los Alamos National Laboratory...........................      1,410.0      1,415.6  ...........      1,395.6        123.6  ...........      1,519.2
    Los Alamos Site Office...................................         12.0         14.6         15.9  ...........  ...........  ...........         15.9
National Engineering Technology Laboratory...................          1.7          0.0  ...........  ...........  ...........  ...........          0.0
NNSA Service Center:
    Atomic Energy of Canada, Ltd.............................          2.4          1.2  ...........  ...........          1.2  ...........          1.2
    General Atomics..........................................         10.8         11.0  ...........         13.1          0.2  ...........         13.3
    Lawrence Berkeley National Laboratory....................          5.2          4.0  ...........  ...........          4.1  ...........          4.1
    Naval Research Laboratory................................         22.3         13.3  ...........         11.0  ...........  ...........         11.0
    NNSA Service Center (all other sites)....................        487.8        467.2         98.7        232.2         83.4  ...........        414.4
    Nonproliferation and National Security Institute.........          0.1  ...........  ...........  ...........  ...........  ...........  ...........
    University of Rochester/LLE..............................         46.8         62.6  ...........         45.5  ...........  ...........         45.5
Nevada Site Office:
    Nevada Site Office.......................................        104.1         92.5         17.5         45.7          7.4  ...........         70.6
    Nevada Test Site.........................................        247.7        285.4  ...........        282.9          1.0  ...........        283.9
Oak Ridge Operations Office:
    Oak Ridge Institute for Science and Engineering..........          7.8          8.8  ...........          7.1  ...........  ...........          7.1
    Oak Ridge National Laboratory............................        110.6         95.8  ...........          7.5        136.9  ...........        144.4
    Office of Science and Technical Information..............          0.1          0.1  ...........          0.1  ...........  ...........          0.1
    Y-12 Site Office.........................................          9.6         16.3         11.7  ...........  ...........  ...........         11.7
    Y-12 National Security Complex...........................        734.3        728.2  ...........        727.0         61.0  ...........        788.0
Pantex Site Office:
    Pantex Plant.............................................        413.0        431.1  ...........        463.5         10.3  ...........        473.8
    Pantex Site Office.......................................          9.9         10.8         11.6  ...........  ...........  ...........         11.6
Pittsburgh Naval Reactors Office:
    Bettis Atomic Power Laboratory...........................        351.6        396.2  ...........  ...........  ...........        401.2        401.2
    Pittsburgh Naval Reactors Office.........................          7.8          8.2  ...........  ...........  ...........          8.7          8.7
Richland Operations Office:
    Richland Operations Office...............................          0.4          0.8  ...........          1.3  ...........  ...........          1.3
    Pacific Northwest National Laboratory....................        132.5         85.6  ...........          4.4         70.1  ...........         74.5
Sandia Site Office:
    Sandia National Laboratories.............................      1,306.8      1,376.7  ...........      1,167.7        144.3  ...........      1,312.0
    Sandia Site Office.......................................          8.6         12.1         12.5  ...........  ...........  ...........         12.5
Savannah River Operations Office:
    Savannah River Operations Office.........................         14.0         26.5  ...........  ...........         32.4  ...........         32.4
    Savannah River Site Office...............................          3.5          3.1          2.9  ...........  ...........  ...........          2.9
    Savannah River Site......................................        305.3        303.3  ...........        238.9         55.5  ...........        294.4
Schenectady Naval Reactors Office:
    Knolls Atomic Power Laboratory...........................        269.5        282.0  ...........  ...........  ...........        308.2        308.2
    Schenectady Naval Reactors Office........................          6.3          6.7  ...........  ...........  ...........          7.0          7.0
Washington DC Headquarters...................................        501.3        688.2        137.9        577.5         41.9         13.8        771.1
Other........................................................          5.7          7.0          2.4  ...........  ...........          3.0          5.4
                                                              ------------------------------------------------------------------------------------------
      Subtotal, NNSA.........................................      8,360.4      8,842.0        333.7      6,598.5      1,348.6        768.4      9,078.7
Adjustments..................................................       -143.5       -176.2          0.0        -30.0          0.0          0.0        -30.0
                                                              ------------------------------------------------------------------------------------------
      Total, NNSA............................................      8,216.9      8,665.8        333.7      6,568.5      1,348.6        768.4      9,048.7
--------------------------------------------------------------------------------------------------------------------------------------------------------

                  STATEMENT OF ADMIRAL FRANK L. BOWMAN

    Senator Domenici. Thank you very much. Are you next, 
Admiral?
    Admiral Bowman. Yes sir.
    Senator Domenici. Please proceed.
    Admiral Bowman. Mr. Chairman and members of the committee, 
thank you very much for the opportunity to testify, as you 
said, Mr. Chairman, maybe one last time before this committee 
in my last 8 years as Director of Naval Reactors.
    Sir, with your permission I would like to submit a detailed 
statement for the record.
    Senator Domenici. Please do.
    Admiral Bowman. And also the normal environmental, 
radiation and occupational safety health reports.
    [Clerk's Note.--The reports referenced above will be 
retained in committee files.]
    Admiral Bowman. Let me begin by thanking you and the 
committee for the support you've continued to provide the Naval 
Nuclear Propulsion Program, and Senator Domenici, especially, 
on a personal note, your support of me and my program for these 
years. Many of the impressive capabilities of our nuclear-
powered ships were developed with funding that was supported by 
you. As you know, nuclear propulsion provides the mobility, the 
flexibility and the endurance that today's Navy needs to meet a 
growing number of important missions with fewer and fewer 
ships.
    Today our 10 nuclear-powered aircraft carriers continue to 
be the centerpiece of U.S. military presence worldwide in 
support of our interests and commitments. In war they deliver 
strike sorties, protect friendly forces and engage in sustained 
combat operations.
    Our 54 operational attack submarines are the envy of navies 
around the world. Because of their stealth, endurance, 
mobility, firepower and multi-mission flexibility they 
guarantee access to the world's oceans and littorals, monitor 
those who may act counter to our interests and conduct 
reconnaissance in preparation for conflict. In the event of 
hostilities they conduct Tomahawk strike missions, deploy and 
support special operations forces, and destroy enemy ships and 
diesel submarines.
    Our 14 Trident ballistic missile submarines, down from 18 
as a result of the last NPR, are the most survivable and 
efficient leg of our strategic deterrent arsenal and continue 
to represent a cornerstone of our national security.
    And then finally, the deep-diving, nuclear-powered research 
submarine, NR-1, provides unique military mission support to 
the Navy and valuable oceanographic research to the scientific 
community.
    When I testified before this committee last year, Mr. 
Chairman, our Armed Forces had been engaged in Operation Iraqi 
Freedom for 3 weeks. I reported then that our nuclear-powered 
warships were playing a leading role in combat operations. My 
written, detailed statement reports more details of the superb 
performance of our ships and their crews. Today our nuclear-
powered fleet is deployed around the world, protecting our 
interests, deterring aggression and continuing to fight 
terrorism. At the center of this new surge Navy, our nuclear-
powered warships are ready for any and all missions our 
Nation's leaders may direct.
    As we look to the near future, the first of the Virginia-
class attack submarines will be delivered this summer, 
remarkably close to the schedule established over a decade ago. 
You recall that the operational requirements document for that 
Virginia-class was approved some 4 years after the fall of the 
Berlin Wall. As such, the Virginia-class is the first submarine 
designed specifically for post-Cold War missions. It's designed 
to prevail in both the littorals and the open ocean.
    Our work also continues on the design of the nuclear 
propulsion plant for the CVN-21, the next generation class of 
aircraft carriers. The modern technologies of this design will 
enable increased war fighting capability and operational 
availability with lower life cycle costs.
    We're also continuing work on the Transformational 
Technology Core (TTC). It will use new core materials, new 
reactor materials, to achieve a greater energy density, more 
energy in the reactor without increasing the size, weight or 
space and at a reasonable cost for future Virginia-class 
submarines. That TTC core is a direct outgrowth of the Programs 
advanced reactor technology work, funded by this committee. It 
will also be a stepping stone for future reactor development.
    Though new designs are important, Naval Reactors' number 
one priority is ensuring that the men and women at sea 
defending our Nation are operating safe, effective and reliable 
nuclear propulsion plants. Most of Naval Reactors' funding is 
devoted to this.
    With your vital support, I'm confident we will continue to 
build on our success. Naval Reactors' fiscal year 2005 DOE 
budget request is for about $798 million, an increase of 3 
percent after inflation compared to fiscal year 2004. The 
funding increase mainly supports the continued development of 
the Transformational Technology Core.

                           PREPARED STATEMENT

    Mr. Chairman, as the Director of Naval Reactors for the 
last 7\1/2\ years, I can assure you that the ongoing support of 
your committee is one of the most important factors in our 
success story. The unique capabilities inherent in nuclear 
power have played a vital role in our Nation's defense over the 
past 50 years. This legacy is as strong and vibrant today as 
ever. Our Navy continues to face a growing need for power 
projection and forward presence far from home, which places 
even greater demands on our nuclear fleet. With your continued 
support Naval Reactors' success will continue far into the 
future. Our record is strong, the work is important, and the 
funding needs have been very carefully scrubbed by me 
personally.
    Mr. Chairman, other members of the committee, I thank you 
very much for your continued support.
    [The statement follows:]

             Prepared Statement of Admiral Frank L. Bowman

    Thank you for inviting me to testify today on Naval Reactors' 
Fiscal Year 2005 Department of Energy/National Nuclear Security 
Administration budget request in what will be my last of 8 years as 
Director, Naval Reactors.
    Let me also thank you for the faith you continue to demonstrate in 
the Naval Reactors Program. Through your steadfast support, our nuclear 
fleet remains deployed around the world today, prosecuting the Global 
War on Terrorism while protecting our interests and deterring 
aggression. Nuclear propulsion continues to prove itself essential by 
providing the flexibility, speed, endurance, and multimission 
capability required for the United States Navy to meet its global 
commitments. The nuclear propulsion plants, developed with funding 
supported by this subcommittee, enable many of the impressive 
capabilities our nuclear-powered ships possess. Let me begin by 
discussing the capabilities and accomplishments of the nuclear-powered 
Fleet--the Program's principal product.

                     TODAY'S NUCLEAR-POWERED FLEET

    Our nuclear fleet includes 10 of our Nation's 12 aircraft carriers, 
each of them providing 4\1/2\ acres of sovereign U.S. territory from 
which we can rapidly begin and sustain continuous combat operations, 
without having to negotiate basing rights on--and overflight rights 
across--foreign soil. Nuclear power enhances the capability of these 
warships to surge and to sprint where needed and arrive on station 
ready for round-the-clock power projection and other combat operations. 
Sustained high-speed capability enables a rapid response to world 
circumstances, giving the Combatant Commanders the ability to surge 
these ships from one crisis to the next without dependence on slower 
fleet tankers.
    Our 54 operational attack submarines (SSN's) possess the inherent 
characteristics of stealth, endurance, mobility, firepower, and 
multimission flexibility. They provide guaranteed access to the world's 
oceans and littorals, monitor those who may act counter to our 
interests, and conduct reconnaissance in preparation for conflict. Our 
SSN's can covertly monitor an adversary's actions without the risk of 
political or military escalation--a particularly valuable capability 
since adversaries understand and can sometimes avoid other methods of 
reconnaissance. If tensions escalate, these SSN's can provide Tomahawk 
strikes or deliver special operations forces from their undisclosed 
locations without warning, inside an adversary's defensive umbrella. 
Our ``high-tech'' SSN's make our Navy the envy of other navies 
throughout the world.
    This summer, the Navy will deliver the first-of-the-class USS 
VIRGINIA to the Fleet, close to the shipyard's schedule that was 
established over a decade ago. Float-off and christening occurred in 
August 2003 and the reactor was taken critical for the first time on 
January 27, 2004. Final construction work is being completed, and 
shipboard acceptance testing is ongoing. When the reactor went critical 
for the first time, the actual control rod position was virtually the 
same as predicted by our analysis over 6 years ago--within 0.2 percent.
    The VIRGINIA Class Operational Requirements Document, approved in 
September 1993, called for the ship to be the first nuclear-powered 
submarine designed for post-Cold War missions. Specifically, VIRGINIA 
is built to dominate the littorals without sacrificing undersea 
dominance in the open ocean. In a single platform, the VIRGINIA class 
will combine a unique mix of stealth, endurance, agility, and firepower 
to fulfill vital national security roles, even in areas denied to other 
U.S. assets. There are nine follow-on VIRGINIA-class submarines under 
contract, five of which are in the multiyear contract authorized by 
Congress last year.
    The remaining ships in the nuclear fleet include 14 strategic 
ballistic missile submarines (SSBN's), four former SSBN's being 
converted to guided missile/multimission submarines (SSGN's), and one 
deep submergence vehicle (NR-1). Our 14 TRIDENT ballistic missile 
submarines are the survivable leg of our strategic deterrent arsenal 
and therefore provide the cornerstones of our national security at the 
lowest cost. The four TRIDENT submarines now undergoing conversion to 
SSGN's will exploit the submarine's tremendous mission volume and 22 
large interfaces with the sea to deploy futuristic payloads and special 
operations forces. These multi-mission stealth platforms will provide 
the combatant commanders with littoral warfare and land-attack 
capabilities that will be truly transformational. The deep-diving, 
nuclear-powered research submarine NR-1 provides unique military 
mission support to the Navy and valuable oceanographic research to the 
scientific community.
    Now I'd like to discuss our work in a little more detail. Naval 
Reactors' No. 1 priority has always been and continues to be providing 
safe, effective, and reliable nuclear propulsion to the men and women 
who are at sea, defending our national interests. Most of our funding 
goes to that purpose.
    Today, Naval Reactors supports 104 reactor plants (one more than 
the number of commercial reactors in the United States) in 83 nuclear-
powered warships, the NR-1, and 4 training and test reactor plants. The 
ships are welcomed in more than 150 ports of call in more than 50 
countries. In all, we have operated safely for more than 5,500 reactor 
years and steamed over 130 million miles.
    Naval Reactors' technical support for these ships is more important 
than ever. Today, the average age of a nuclear-powered warship in our 
Navy is 18 years, but it will increase to more than 24 by 2012. As 
these ships age, the technical work necessary to maintain their 
performance places a greater demand on Naval Reactors' DOE budgets. 
This challenge is my primary concern. As I said earlier, your support 
remains vital, and I am confident we will continue to build on our 
successes.
    On March 8 of this year, the Secretary of Energy assigned to Naval 
Reactors a project to develop, design, deliver, and operationally 
support a civilian nuclear reactor for space exploration missions under 
NASA's Project Prometheus. Since this work is exclusive of our core 
naval nuclear propulsion work and is assigned as a DOE civilian project 
to NR, NASA will budget for and fund this work throughout the effort. 
Our initial work will begin this year to establish a working 
relationship with our new partners at NASA and to define the elements 
of the reactor design.

          FISCAL YEAR 2005 DEPARTMENT OF ENERGY BUDGET REQUEST

    Naval Reactors' fiscal year 2005 DOE budget request is $797.9 
million, an increase of about 3 percent (after inflation) compared to 
fiscal year 2004. One of the major activities enabled by this modest 
increase is continued development of the Transformational Technology 
Core. Additionally, this increase supports continuing development of a 
production-line system for the preparation of dry storage of spent 
nuclear fuel. This production-line system is needed to meet a court-
ordered obligation to move all spent fuel stored in Idaho into dry 
storage by 2023 and to be among the early shipments of fuel to the 
national spent fuel repository. Finally, this increase supports ongoing 
facility upgrades at Program sites.
    The majority of the Naval Reactors fiscal year 2005 DOE budget 
request funds our work in sustaining 104 operational reactors. This 
work involves continual testing, analysis, and monitoring of plant and 
core performance especially as these plants age. The nature of our 
business demands a careful, measured approach to developing and 
verifying nuclear technology; designing needed components, systems, and 
processes; and implementing them in existing and future plant designs. 
Demanding engineering challenges and long lead times to fabricate the 
massive, complex components require many years of effort before 
technological advances can be introduced into the Fleet.
    Most of this work is accomplished at Naval Reactors' DOE 
laboratories. These laboratories have made significant advancements in 
extending core lifetime, developing robust materials and components, 
and creating an array of predictive capabilities. These advancements 
allowed the Navy to extend the service life and intervals between major 
maintenance periods for nuclear-powered warships to reduce ship offline 
time for maintenance. Increasing ship availability also increases the 
Navy's warfighting capabilities and supports the Navy's ability to 
surge when needed.
    For example, a recent Navy decision to delay a major overhaul and 
refueling of the aircraft carrier, USS CARL VINSON (CVN 70), was made 
possible in part by our continual monitoring of core performance and 
subsequent analysis to establish that the ship had sufficient nuclear 
fuel remaining to safely operate during this extended period. This 
decision enabled the Navy to fund nearer term priorities without 
adversely impacting the Fleet.
    New plant development work at the Program's DOE laboratories is 
focused on continuing the reactor design for the CVN-21 aircraft 
carrier. Design for the CVN-21 nuclear propulsion plant is well 
underway. CVN-21 is the first new aircraft carrier designed since the 
1960's NIMITZ class. The CVN-21 reactor plant will build on technology 
developed for the three generations of submarines designed since 
NIMITZ. Compared to the NIMITZ-class propulsion plant, the CVN-21 
propulsion plant will provide three times the electrical generation and 
distribution capacity, and will require about 50 percent fewer Reactor 
Department personnel. This modern technology will enable increased 
warfighting capability and operational availability, while lowering 
life-cycle costs.
    Another aspect of DOE laboratories' development work is the 
Transformational Technology Core (TTC). The TTC is a direct outgrowth 
of the Program's advanced reactor technology work. The TTC will use new 
core materials to achieve a significant increase in core energy density 
(that is, more energy in the core without increasing reactor size, 
weight, or space). The TTC will be forward-fitted into the VIRGINIA-
class submarines, which will be the mainstay of the submarine fleet for 
future decades, without the need to redesign the ship. The importance 
of TTC is becoming more evident as we depend on our SSN's more in the 
current national security environment. The goal is to achieve at least 
a 30 percent increase in energy.
    We are also prudent stewards of the environment. The four prototype 
reactors at the Naval Reactors Facility (NRF) in Idaho are defueled and 
in an environmentally benign, safe layup condition; site and reactor 
plant dismantlement work is planned for future years. The two shutdown 
prototype reactors at the Kesselring site in New York have been 
inactivated and defueled, and major dismantlement work was completed in 
fiscal year 2003. Other dismantlement work at Kesselring Site is 
continuing. Dismantlement work and unrestricted radiological release at 
the Windsor site in Connecticut are complete, and approval from the EPA 
and the State for chemical release for unrestricted future use and 
property transfer is expected later this year.

   NAVAL REACTORS FISCAL YEAR 2005 DEPARTMENT OF ENERGY BUDGET DETAIL

    Naval Reactors' technical budget request is categorized into four 
areas of technology: Reactor Technology and Analysis; Plant Technology; 
Materials Development and Verification; and Evaluation and Servicing. 
This approach supports the integrated and generic nature of our DOE 
research and development work. The results of Naval Reactors' DOE-
funded research, development, and design work in the following 
technology areas will be incorporated into future ships and retrofitted 
into existing ships.
  --The $232.1 million requested for Reactor Technology and Analysis 
        will continue work on the design for the new reactor for CVN-
        21. These efforts also support a portion of the design of the 
        TTC, a new high-energy core that is a direct outgrowth of the 
        Program's advanced reactor technology work. TTC will support 
        national security demands by providing additional energy for 
        one or a combination of:
    --Extended ship life,
    --More operating hours per operating year,
    --Higher ship transit speed,
    --Increased available energy to enable future innovations, such as 
            the ability to recharge off-board undersea and air 
            autonomous vehicles, or any other use for energy yet to be 
            conceived.
      The increasing average age of our existing reactor plants, along 
        with future extended service lives and reduced maintenance 
        periods, place a greater emphasis on our work in thermal-
        hydraulics, structural mechanics, fluid mechanics, and 
        vibration analysis. These factors, along with longer-life 
        cores, mean that for years to come, both the reactor plants and 
        the reactor cores will be operating beyond our previously 
        proven experience base. To counter this, our improved analysis 
        tools and understanding of basic nuclear data will allow us to 
        predict performance more accurately and thereby better ensure 
        safety and reliability throughout the extended life.
  --The $155.5 million requested for Plant Technology provides funding 
        to develop, test, and analyze components and systems that 
        transfer, convert, control, and measure reactor power in a 
        ship's power plant. Reactor plant performance, reliability, and 
        safety are maintained through a full understanding of component 
        performance and system condition over the life of each ship. 
        The request supports both the goal of enhancing steam generator 
        performance and the goal of reducing lifecycle costs by 
        eliminating the need for expensive inspection and maintenance. 
        In addition, development work for improving VIRGINIA steam 
        generator performance is needed for the plant to exploit the 
        additional energy available from the TTC. Naval Reactors is 
        developing components to address known limitations or to 
        improve reliability of instrumentation and power distribution 
        equipment by replacing obsolete equipment that is increasingly 
        difficult to support. Additional technology development in the 
        areas of chemistry, energy conversion, plant arrangement, and 
        plant components will continue to improve reactor performance 
        and support Fleet operational requirements.
  --The $150.8 million requested for Materials Development and 
        Verification funds material analyses and testing to provide the 
        high-performance materials necessary to ensure that naval 
        nuclear propulsion plants meet Navy goals for extended warship 
        operation and greater power capability. More explicitly, 
        materials in the reactor core and reactor plant must perform 
        safely and reliably for the extended life of the ship. Testing 
        and analyses are performed on the fuel, poison, and cladding 
        materials to verify acceptable performance, as well as to 
        develop materials with increased corrosion resistance and 
        lifetime capability. Testing and development of reactor plant 
        materials also leads to improvements such as more resilient 
        materials that we are incorporating into our newest designs.
      Funds in this category also support a portion of Naval Reactors' 
        work at the Advanced Test Reactor (ATR), a specialized 
        materials testing facility operated by the DOE Office of 
        Nuclear Energy, Science, and Technology that we use to test 
        reactor core and plant materials specimen. The specimen are 
        subsequently examined at the Expended Core Facility (ECF) at 
        NRF or the Radioactive Materials Laboratory at Knolls Atomic 
        Power Laboratory to obtain data used to support both core and 
        plant materials development. This enhanced knowledge of 
        materials performance has been key to technical breakthroughs 
        in extending core life. Although Naval Reactors is not 
        responsible for ATR, it is important to our continued efforts 
        to understand material behavior. ATR is more than 35 years old 
        now, and I understand that the Department of Energy's Office of 
        Nuclear Science and Technology has identified a need for 
        increased funding to keep it viable for years to come. I 
        support this funding.
  --The $172.0 million requested for Evaluation and Servicing sustains 
        the operation, maintenance, and servicing of land-based test 
        reactor plants and part of Naval Reactors' share of ATR 
        operations. Reactor core and reactor plant materials, 
        components, and systems in these plants provide important 
        research and development data and experience under actual 
        operating conditions. These data aid in predicting and 
        subsequently preventing problems that could develop in Fleet 
        reactors. With proper maintenance, upgrades, and servicing, the 
        two operating test reactor plants and the ATR will continue to 
        meet testing needs for quite some time.
      Evaluation and Servicing funds also support the implementation of 
        a dry spent fuel storage production-line that will allow us to 
        put naval spent fuel currently stored in water pits at the 
        Idaho Nuclear Technology and Engineering Center and at ECF into 
        dry storage. Additionally, these funds support ongoing cleanup 
        of facilities at all Naval Reactors sites to minimize hazards 
        to personnel and reduce potential liabilities due to aging 
        facilities or changing conditions.
         program infrastructure and administrative requirements
    In addition to the budget request for the important technical work 
discussed above, infrastructure and administrative funding is required 
for continued support of the Program's operation and infrastructure. 
Specifically, the fiscal year 2005 budget request includes:
    Facility Operations.--Fifty-point-eight million dollars are 
requested to maintain and modernize the Program's facilities, including 
the Bettis and Knolls laboratories and ECF, through Capital Equipment 
purchases and General Plant Project upgrades.
    Construction.--Seven-point-two million dollars are requested to 
refurbish and replace Program facilities. This includes funding for the 
construction of the ECF Dry Cell project in Idaho, a project that will 
significantly improve Naval Reactors' ability to process naval spent 
fuel for dry storage. The requested funding also supports construction 
of a replacement industrial facility building at the Knolls Atomic 
Power Laboratory to consolidate non-irradiated material development 
fabrication and characterization (i.e., determining material 
properties) activities, which are currently located in five separate, 
aging buildings.
    Program Direction.--Twenty-nine-point-five million dollars are 
requested to fund Naval Reactors' DOE personnel at Headquarters and the 
Program's field offices, including salaries, benefits, travel, and 
other expenses. This staff maintains oversight of the Program's 
extensive day-to-day technical and administrative operations, while 
continuing to ensure compliance with environmental, safety, and other 
regulatory requirements--all of which, notwithstanding our excellent 
record, necessitate substantial effort.

          PERFORMANCE MEASUREMENTS, GOALS, AND ACCOMPLISHMENTS

    Naval Reactors has a long history of operating with the highest 
levels of integrity and operational accountability. The Naval Reactors 
Program has always been dedicated to continual improvement. We use 
semiannual reviews of short and long-range plans to adjust and refine 
work priorities. Work is broken up into thousands of discrete 
``deliverables,'' each assigned to an individual responsible for 
completion of the task on schedule. Monthly financial reports from 
contractors are used to compare actual performance against projected 
performance. Additionally, Naval Reactors Headquarters closely oversees 
its management and operating contractors through periodic reviews, 
formal audits, performance appraisals, and close integration with our 
resident field offices.
    For the fiscal year 2003 end-of-year performance results, my 
Program met or exceeded all major performance targets. We ensured the 
safety, performance, reliability, and service life of operating 
reactors for uninterrupted support of the Fleet. We exceeded 90 percent 
utilization availability for our training and test reactor plants. As 
of today, U.S. nuclear-powered warships have safely steamed over 130 
million miles. Naval Reactors developed new technologies, methods, and 
materials to support reactor plant design, which included attaining the 
fiscal year 2003 goal of 99 percent design completion of the next-
generation submarine reactor. We continued design of the propulsion 
plant for the next-generation aircraft carrier, which is on schedule to 
meet the planned ship construction start in fiscal year 2007. 
Additionally, Naval Reactors maintained its outstanding radiation 
protection program and its environmental performance: no Program 
personnel have ever exceeded the applicable annual or lifetime Federal 
limits for radiation exposure, and Program operations had no adverse 
impact on health or on the quality of the environment.
    Naval Reactors has met or expects to meet or exceed all fiscal year 
2004 performance targets, which are to achieve 90 percent utilization 
availability for operation of our training and test reactor plants; to 
safely steam on nuclear power about 2 million more miles; to complete 
the next-generation submarine reactor design deliverables (design is 
complete); to complete 60 percent of the CVN-21 reactor plant design; 
to have no personnel exceed the annual Federal limit for radiation 
exposure; and to have no adverse impact on human health or the quality 
of the environment.

                               CONCLUSION

    The ongoing support of the Senate Appropriations Committee 
Subcommittee on Energy and Water Development is one of the most 
important factors in our success story. The subcommittee has recognized 
the requirements and demands the Program confronts daily: a continuing 
need for power projection and forward presence far from home, which 
strains our limited number of nuclear ships; an aging nuclear fleet; 
and the funding required to meet these commitments today and in the 
future.
    The unique capabilities inherent in nuclear power have played a 
vital role in our Nation's defense over the past 50 years. With your 
support, this legacy will continue far into the future as the Nation 
meets each new threat with strength and resolve. Naval Reactors' record 
is strong, the work important, the funding needs modest.
    Thank you for your support.

    Senator Domenici. Well Admiral, I'll just tell you the 
truth. We serve around here as elected officials and we meet 
people who give their lives to the government and do services 
for our people. And sometimes we run into some that we do not 
know what to tell them in terms of how much we appreciate them. 
We use the typical words but they are not enough. But we really 
think the United States Navy's use of nuclear power is one of 
the most fantastic achievements of mankind. And when they have 
done it since Nautilus without one single nuclear mistake and 
have had as high as 123, I think, nuclear reactors floating 
around the oceans of the world, it is tremendous. And you are 
in charge of that and you made it go along just like it had 
been, or better. We do not need any accolades or thanks from 
you because they all run the other direction.
    Admiral Bowman. Thank you, sir.
    Senator Domenici. Now, who is next? The other two do not 
need to testify?
    Ambassador Brooks. No sir, that's why I was so long, I was 
doing for all three of us.
    Senator Domenici. All right. Well, I am going to ask a few 
questions and yield to you two Senators and if we do not finish 
we will submit the rest of them.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Mr. Brooks, I do not have this question written up but I 
would like you to do something again for me. I have been a 
budgeteer, until this year, part of the budget process for 28 
years, Chairman 10 times, maybe. Now, you are asking us to 
approve how much money for the research on the penetrating 
warhead?
    Ambassador Brooks. Twenty-seven-point-five million dollars.
    Senator Domenici. Now, the Senator from California says 
that you have $500 and some million.
    Senator Feinstein. Four-hundred-and-eighty-four.
    Senator Domenici. Four-hundred-and-eighty-four million 
dollars that you are going to spend and she says that is why 
she will not vote for it, among the reasons, because that is 
what you are going to spend, that is what you are going to do. 
Tell me why that number is in there at all.
    Ambassador Brooks. One of the things we tried to do 
starting 3 years ago was to get to true 5-year budgeting so 
that when we submitted a budget to the Congress we submitted a 
5-year plan that really meant something. That's important for 
the Congress and it was also important for us because otherwise 
you would start things that you couldn't finish. When we 
prepared this 5-year plan we had no idea, and we don't know 
now, whether the research will show this is feasible or whether 
the President will decide to pick it up. But if he does, we 
wanted to have the wedge to support the funding in the out-
years. So we put the money in there because it was our 
interpretation of the right thing to do in terms of making sure 
the Congress knew the implication of the research that we were 
doing and making sure that if the President did so choose, 
after the completion of the study, that we had preserved his 
options financially. It was not intended to suggest that we 
made a decision, let alone that we think that you've made a 
decision.
    Senator Domenici. Well I'll tell you, Mr. Ambassador, you 
get hit both ways. If you leave it out somebody says you are 
underselling the program and it costs a lot more than 27 or 24. 
And if you put it in as the outside you get beat over the head 
because that is what you are going to spend. But we have to 
figure out a way, in the next 5 or 6 weeks, 7, to make the case 
that putting that number in does nothing with reference to this 
program in terms of its future, that its future is capsulized 
in the funding as described to be used that you ask for right 
now. I am willing, in this bill, to fight it out. If we lose, 
we lose, if we win, I am willing to put any kind of language in 
that says that is it. There is no other expenditure. You do it 
and no more. And before you do anymore you must get 
concurrence. Now, that is all right with you, right?
    Ambassador Brooks. Yes sir. That's completely what the law 
says.

                                  NIF

    Senator Domenici. Okay. Now, let me move to Dr. Beckner. I 
understand, Dr. Beckner, that NIF is still at least 6 years and 
$1 billion away from completion of this project. Is it accurate 
to say that NIF is both the largest laser and the most 
expensive diagnostic tool in the NNSA stockpile? When we 
develop any technology, we need to ask ourselves, is this 
outcome worth the cost? Right?
    Dr. Beckner. A fair question.
    Senator Domenici. If you do not achieve ignition, the 
American people have purchased a laser that is 25 times more 
expensive than the Z Machine, which proved its worth 1 year too 
late. It came into existence one year after we started funding 
NIF. It is proceeding along as a much cheaper machine but I 
think we need to understand that the project is viable before 
we spend billions more on the life of this program.
    So my question to you, how much money are you willing to 
spend above ignition? Excuse me, how much money are you willing 
to spend to achieve ignition and at what point do you say, we 
have spent too much?
    Dr. Beckner. Our present plan shows the expenditures out 
through the year 2010 in the budget that we've submitted, and 
it's close to a billion dollars, as you've said. I believe we 
need to get to that point in order to, in any sense, have a 
chance at achieving ignition. You can't do it with a smaller 
laser, based on everything that we know today. That's only part 
of the answer, however. The second part really is that absent 
ignition, we require this laser for a large number of 
applications that are specific to the sustenance and the study 
of phenomena associated with nuclear weapons themselves. In 
other words, it is a very significant element of Stockpile 
Stewardship. Ignition, of course, is important, make no mistake 
about it, and we will use it aggressively to achieve that goal. 
But we do have this additional reason to need NIF. And I don't 
want us to forget that.
    Senator Domenici. Do you mean for the Stockpile 
Stewardship?
    Dr. Beckner. Yes sir.
    Senator Domenici. Well of course, that is why we put it in 
there.
    Dr. Beckner. Yes sir.
    Senator Domenici. But if it does not work it does not 
matter where we put it, right?
    Dr. Beckner. Well, there are many things you can do with a 
laser without achieving ignition, that's my point. We will use 
it for those other things.
    Senator Domenici. But will those help with Stockpile 
Stewardship?
    Dr. Beckner. Yes sir.
    Senator Domenici. And would we need $5 or $6 billion to 
achieve that?
    Dr. Beckner. No, I think we would not have embarked upon 
this mission if we did not believe we had a reasonable 
opportunity to achieve ignition.
    Senator Domenici. Ignition.
    Dr. Beckner. Yes sir.
    Senator Domenici. So let me go on. If the 2005 budget 
specifies that NIF ignition has been delayed until 2014, that 
gives me great concern regarding the project. Delaying the 
ignition start date is contrary to news that the project is 
ahead of schedule. I understand that the laser installation is 
18 months ahead of schedule and the beam light infrastructure 
was achieved nearly 3 years ahead of schedule. As a result of 
these conflicting statements, I am very skeptical as to the 
actual status of NIF. To date, $2.5 billion has been spent and 
another billion required before we know whether or not this 
project will work. I do not share this all or nothing attitude 
because the costs are very high and the budget is very slim. So 
I believe we need a more measured approach to address the 
significant technical measures and technical challenges that 
lie ahead.
    George Miller, the NIF Associate Director, is he here 
today?
    Dr. Beckner. Not to my knowledge.
    Senator Domenici. Is he still doing this job?
    Dr. Beckner. Yes he is.
    Senator Domenici. Did he move out there?
    Dr. Beckner. Yes. George is an employee of Lawrence 
Livermore National Laboratory.
    Senator Domenici. Well, whoever sees him, give him my 
regards. Thank you.
    Dr. Beckner. I'll do that.
    Senator Domenici. Terrific guy. He is the Associate 
Director, he stated that the most significant technical 
challenge he has is the full ignition of the lasers. I believe 
the first cluster, which is 48 lasers, or one-quarter of the 
total, would certainly give a clear indication of whether 
ignition is feasible. Is that what you think?
    Dr. Beckner. I believe it's more complicated than that.
    Senator Domenici. You what?
    Dr. Beckner. It's more complicated than that.
    Senator Domenici. Okay.
    Dr. Beckner. Let me back up to your earlier statement. 
First of all, I've met with the staff of this committee as well 
as the other three committees to clarify our recent decisions 
to change course on some of the milestones in order to pull 
back the ignition target to 2010, as opposed to 2014. And we've 
done that because of our realization that this committee and 
the other committees as well have a very strong view that we 
must maintain that schedule. We had allowed it to move out 
because of priorities in other elements of the program and 
without the full understanding that this was unacceptable. So 
we have changed that plan and we've done it also because we've 
had some technical progress in target design which makes it now 
possible to do that. So we are very much aware of the 
committee's determination that we stay on target with ignition. 
That's the first part.
    Secondly, we agree with you that we need more milestones 
for this committee and the other committees of the Congress to 
track. We're going to put those in place; we will provide them 
to you annually; and we'll report to you at regular intervals 
to be sure that you are satisfied with the progress of the 
program.
    Now, the third part of your question regarding 
demonstration of significant events at the time we have one 
cluster operational, I think is not likely to be--we would not 
want to see that as an end point. That's my concern. We 
certainly see that as a very important target in program 
progress and we have that as a goal.
    Senator Domenici. Well, I am going to yield here shortly 
because I understand these Senators have more interest than 
just NIF. But I am not finished with you, even if we have to do 
it another day. I have two questions. First, I want everybody 
here to know that I know him very well; he worked in my State 
and, you know, I have been with him many times when he was not 
in such a hard position. And he smiles no matter what, when he 
was doing the other work or this so, I guess it does not really 
matter. He has got a good brain.
    Dr. Beckner, I would like you to put together a budget and 
a schedule that will accelerate the installation and testing of 
the first cluster in fiscal year 2005. Can you do that?

                                NIF PLAN

    Dr. Beckner. I can certainly put together the plan. I don't 
know the results of your instructions but we'll certainly be 
responsive to your request.
    [The information follows:]

    It is not possible to complete the first cluster milestone in 
fiscal year 2005 without a significant increase in the Total Project 
Cost. Procurement logistics and lead times limit our ability to 
complete the scope of work required to accelerate the first cluster 
into fiscal year 2005. The ability does exist to marginally accelerate 
the first cluster and project completion dates if the funding profile 
is changed without increasing the Total Project Cost (TPC).
    The first cluster milestone is currently scheduled for completion 
in June 2006 with Project completion in September 2008. We believe it 
is possible to accelerate these dates by modifying the funding profile 
for the project beginning in fiscal year 2005. The first cluster 
milestone could be accelerated by 1 to 3 months, and the project 
completion date could be accelerated by 3 to 5 months, by moving $59 
million from fiscal year 2007 to fiscal year 2005 and fiscal year 2006. 
Of the $59 million total, $27 million would be required in fiscal year 
2005 and $32 million required in fiscal year 2006.
    Please let me know if you would support such a change in the 
funding profile in order to achieve the schedule acceleration 
described. This would allow the ignition campaign to begin sooner and 
support the goal of ignition in fiscal year 2010. I ask you to 
recognize that if we must achieve the change within the FYNSP plans, it 
will likely be at the expense of other activities which are vital to 
the Stewardship mission. We will not proceed with additional planning 
until we receive your input.

    Senator Domenici. Now, I want to state, and then I yield 
and will come back for a number of questions. I want to say, 
you know how I feel right now, Dr. Beckner, is that I have been 
hoodwinked. And not a little hoodwink, a big one. Because I 
think what we are going to get out of this is a big civilian 
tool that can be used at that laboratory for a lot of research. 
And we are going to run around saying that is the best research 
laser facility the world has ever seen. And I tell you, if I 
see that coming, they better not be asking me for any money 
because I would close it down. Because that is not fair. We 
never intended to spend $5 to $6 billion to build a laser 
facility for a laboratory that would provide civilian research 
and visitations from around the world. So I know you all look 
at this and say well, it is going to do something. And it is 
sure going to be extraordinary. But that is not why I agreed to 
pay for it.
    Dr. Beckner. I understand.
    Senator Domenici. I agreed in a very, very highly debated, 
that this was going to reach ignition and that would be the 
best part of science-based stewardship. Think of that. The best 
part. Now right now we are moving with Z also.
    Dr. Beckner. Yes sir.
    Senator Domenici. And we are.
    Dr. Beckner. Yes sir.
    Senator Domenici. And nobody is going to stop us from doing 
that. It may do three-quarters of the work but it is a little 
tiny weeny $100 million project and it may do three-quarters of 
your work, or more. So, in any event, we will make sure that 
everybody understands that.
    Now, Senator Bennett, you are next. We are going on time of 
arrival, and then the Senator from California.

                            NUCLEAR TESTING

    Senator Bennett. Thank you very much, Mr. Chairman. 
Ambassador Brooks, I think I heard the answers to my questions 
in your statement but let us go over them again so that they 
are very clear.
    There is a moratorium currently in place. Is that correct?
    Ambassador Brooks. Yes sir.
    Senator Bennett. And testing is not imminent, is that 
correct?
    Ambassador Brooks. That's correct.
    Senator Bennett. You said that there is no anticipation of 
testing at any foreseeable time in the future. Is that correct?
    Ambassador Brooks. Yes.
    Senator Bennett. None that you can now foresee?
    Ambassador Brooks. That's correct.
    Senator Bennett. And that the testing will not happen 
unless the President makes a very public finding and the 
Congress acts in funding that finding. Is that correct?
    Ambassador Brooks. That's correct.
    Senator Bennett. So the newspaper stories, I think I heard 
you say, are not correct? That say that nuclear testing is now 
imminent as a result of the vote we took last year?
    Ambassador Brooks. I haven't seen stories that blamed me 
for that one, but in any event, if there are such stories 
they're not correct.
    Senator Bennett. Not you, they blame us. So there is no 
testing pending at the present time?
    Ambassador Brooks. No sir.
    Senator Bennett. Or in the future circumstances that you 
currently can see?
    Ambassador Brooks. No sir.
    Senator Bennett. All right.
    Ambassador Brooks. But I don't want to mislead the 
committee. If I find a problem that can only be verified 
through testing I would not hesitate to recommend to the 
Secretary and he would not hesitate to recommend to the 
President that we test. I have no reason to believe I'm going 
to find that problem, but it is a hedge against the possibility 
of finding that problem that we've asked for the money to 
ensure that we are ready if that contingency occurs. We have no 
reason to believe it's going to occur.
    Senator Bennett. All right. Here is a postcard that is 
currently circulating. I am sure you have seen it. I get copies 
of it. I cannot respond to most of them because they do not put 
return addresses on them, they just send them in. And it says, 
for those that are not familiar with it, ``This is an 
underground nuclear test.'' And it shows an obvious spew into 
the atmosphere. Would you comment on that, because it has great 
currency right now.
    Ambassador Brooks. Yes sir. The United States started doing 
only underground tests following the Limited Test Ban Treaty in 
1963. In 1970, a test called Baneberry vented. That is to say, 
although we thought it would all be contained, it was not. 
Radioactivity was spread off the test site to an area north and 
west of the site, all within Nevada; there was no radioactivity 
above background levels detected in Utah, although there had, 
obviously been fallout in Utah and indeed worldwide and from 
the atmospheric tests of the 1950's and 1960's. After 
Baneberry, we took a 6-month moratorium on underground tests. 
Now, in the context of today, when we haven't tested for over 
10 years, that doesn't sound like much but in the 1970's when 
we had a very robust test program that was a significant step. 
We made a number of both analytic and technical corrections. 
What had happened was, there was a fissure, a crack in the 
Earth that we had not detected. So first, we required that for 
future tests we drill more exploratory holes to make sure we 
find fissures. We put together an evaluation panel that 
included both testing experts and geologic experts to evaluate 
the containment design of each test and then we required that 
those findings be peer-reviewed, in accordance with standard 
scientific procedures. We set up a series of environmental 
monitoring stations and those networks operated continuously.
    Now, that was a long time ago. But we have not had a repeat 
of Baneberry. We had some far less significant events, three I 
believe, in the 20-some odd years following that, two of which 
resulted in nothing leaving the test site. We are confident 
that with the combination of the corrective actions we put in 
place then and the greater scientific understanding that we 
have now of geology and hydrology, and the greater formality 
that we build into all aspects of nuclear safety, and the 
funding that the Congress has given us in the last 2 years to 
make sure we do careful safety analysis, that if, at some 
future date, the President decides we need to do an underground 
test there will be a policy debate, but there won't be any 
public health issue because we are confident that we will make 
sure that we do not have a repeat of that 1970 event.
    Senator Bennett. So just to summarize what you have told 
me, since this occurred in 1970, for the intervening quarter of 
a century, there has never been a reoccurrence of something 
like this postcard?
    Ambassador Brooks. There certainly has been nothing like 
that. As I said previously there has been minor venting, but 
nothing like Baneberry.
    Senator Bennett. How many tests are we talking about? If we 
had three occasions, is that three out of thirty or?
    Ambassador Brooks. Between 1970, in 22 years, oh, I don't 
know. I'd have to give you that for the record, a couple 
hundred.
    Senator Bennett. Couple hundred?
    Ambassador Brooks. Yes sir. Let me supply that for the 
record to make sure I'm giving you the right answer.

                     NUCLEAR TESTS SINCE BANEBERRY

    Senator Bennett. I would appreciate knowing that, for the 
record, so that, we are within 1 percent?
    Ambassador Brooks. I think so sir, yes sir.
    Senator Bennett. And I would like to know the date of the 
last one.
    Ambassador Brooks. Yes sir. I'd be more than happy to 
supply that.
    [The information follows:]

    There were 384 underground nuclear tests at the Nevada Test Site 
since the 1970 Baneberry test.
    The last underground nuclear test was conducted at the Nevada Test 
Site on September 23, 1992.

    Senator Bennett. So that if it was 15 years ago there is a 
little bit higher sense of confidence than if it was 5 years 
ago, when the last leak.
    Ambassador Brooks. Yes sir.
    Senator Bennett. I would appreciate it.
    Ambassador Brooks. It was more than 11 years ago because 
we've done no testing in the last 11 years.

                            NUCLEAR RESEARCH

    Senator Bennett. Okay. You say you want to do research, 
that there is no pressing indication now that that research 
would lead to testing, indeed, there is nothing you have in 
your mind that would suggest that it would lead to testing. But 
you want to do the research anyway. Are you aware of research 
that is being done outside of the United States that you feel 
you want to catch up with? Is that part of the impetus here?
    Ambassador Brooks. There are multiple impetuses. We don't 
want to be surprised by developments outside of the United 
States. That's one reason for looking at advanced concepts and 
making sure that you understand what the laws of physics will 
allow. But I think we also want to make sure that we are paying 
attention to maintaining the safety and reliability of the 
existing stockpile. So I think there are multiple reasons why 
we want to look. I don't rule out that someday the President 
will want us to have a capability that we don't have. Nuclear 
Earth Penetrator, in my view, both as a matter of practice and 
as a matter of law, is a capability we sort of have now, we're 
just trying to make it better. So that's a somewhat special 
case. But the principle reason for advanced concepts and the 
projects that we have looked at are primarily, I think, 
motivated by making sure we're not overlooking an opportunity 
to improve safety, security and reliability. There's a 
secondary motivation to make sure that we are not subject to 
technological surprise by someone outside this country. We know 
that there is a vigorous program in Russia. We don't understand 
everything we'd like to and I can't, in an open hearing go into 
what we do understand. Some of the things they're doing we 
don't completely understand so it would be useful to make sure 
we understood the technology. But I think we're more motivated 
by safety, security, and reliability than by sort of a 
technological keeping up with others.
    Senator Bennett. All right. But I want to get back to one 
of the things you said when you outlined the reasons for 
looking at existing warheads to see if they can be adapted. 
Clear military utility would move only if the President 
approves and Congress funds. And number three caught my 
attention because I have not seen it before. Maybe I have not 
been paying attention. When you say this is not a change in our 
policy, that this is deterrence.
    Ambassador Brooks. Yes sir.
    Senator Bennett. If that is the case, that means, for 
example, this would not have been used in Iraq. Let's assume 
there was a circumstance where this particular weapon that you 
are researching, or this adaptation, let me get the words 
right, that this adaptation of a weapon that you are 
researching, might strike the Joint Chiefs as being a good 
weapon to use in Iraq. Under no circumstances would that be 
considered a deterrent to anyone else who might attack us. So 
you are saying it is the position of this administration that 
the weapon would not be used in that circumstance, even if it 
were available.
    Ambassador Brooks. We have, as a matter of policy, in every 
administration I am familiar with, been very careful not to 
make dogmatic statements about what a President will or will 
not do in support of national security. And I don't want to be 
the one to break that tradition. Let me explain what I did 
mean.
    Senator Bennett. Okay. I will accept that. You do not need 
to go any farther than that.
    Ambassador Brooks. Okay.
    Senator Bennett. But, just to make the comment, that if 
indeed this President or some future President, we are going to 
decide who is going to be President, come November, this 
President or some future President were to come to Congress 
while I was sitting in Congress and say, okay, we have done the 
research, we think this is a viable weapon, we want now to fund 
it and we are going to use it in a situation quite like Iraq, 
this Senator would not vote in favor of that. My view of a 
deterrent and the use of the nuclear stockpile through the Cold 
War, is that it is never used unless the other side puts you in 
a position where you do it. You never use it as an offensive 
weapon, you never use it in order to project American power. 
You use it held in reserve as part of the deterrent capacity of 
the United States of America, which is the Polaris submarines 
and their nuclear weapons and all of the rest of them. The 
Polaris submarine has never fired a nuclear weapon in an 
offensive way and it is there to say to a potential aggressor, 
if you proceed with your aggression, this is what awaits you.
    Ambassador Brooks. That's correct.
    Senator Bennett. And just for the record, that is how I 
would view, if such a weapon at some point by some future 
President were ever proposed. In the context of what you have 
said I would view that as having to have that same kind of 
restriction that I currently see on Polaris weapons, Polaris 
missiles and so on. I will not put you into that box. I 
understand that you cannot make that firm statement because you 
are a member of the administration. But I can make that 
statement because I am answerable to the people of Utah, all of 
whom have a very great concern, which I most thoroughly share, 
that we do not want to disarm this country, we do not want to 
do anything that will harm our national security. But in the 
end we want to make sure that as we move down the road to 
protect our national security we do not, in any way, endanger 
the health and safety of any of our citizens, regardless of the 
state in which they live. I am assuming you could support that.
    Ambassador Brooks. I'm confident I can speak for the 
President on this one. We agree with that. We have no interest 
in harming the health and safety of anybody, sir.
    Senator Bennett. We just may give you a little help 
legislatively at some future point. I have not made up my mind 
firmly as to what I might do in terms of legislation that I 
will offer. But I appreciate your assurance and we want to do 
everything we can on this side to make sure that that assurance 
is not forgotten by whomever replaces you in whatever kind of 
administration that might come along.
    Ambassador Brooks. Yes sir.
    Senator Bennett. Thank you, Mr. Chairman.
    Senator Domenici. Thank you, Senator. I do not know how 
long you are going to stick around but I have some different 
views than you. I am not going to make them until it is my 
turn. Senator?

                    ROBUST NUCLEAR EARTH PENETRATOR

    Senator Feinstein. Thank you very much, Mr. Chairman. 
Ambassador Brooks, I just want to get some of the figures. I 
think we have anticipated that the Nuclear Earth Penetrator 
figure, 5-year figure, is $484 million. Does that take us up to 
phase 6.3?
    Ambassador Brooks. Actually I think it takes us beyond 6.3. 
So those numbers assume decisions we can't make without your 
permission.
    Senator Feinstein. Okay, at 6.3, according to the Defense 
Authorization Bill, the Earth Penetrator needs authorization 
from Congress?
    Ambassador Brooks. Yes ma'am.

              FUNDING SCHEDULE FOR DIRECTED STOCKPILE WORK

    Senator Feinstein. So it is somewhere, I would like to know 
for the record, how much will be spent up to that point. What 
is the 5-year figure on the battlefield low-yield nuclear 
weapons?
    Ambassador Brooks. Senator.
    Senator Feinstein. Well, give me the advance concepts.
    Ambassador Brooks. Do you remember? Is it $9 million a 
year?
    Senator Feinstein. Number for 5 years?
    Dr. Beckner. I think it actually goes a bit beyond that.
    Ambassador Brooks. I'll get it for the record, Senator.
    [The information follows:]

                                          FUNDING SCHEDULE BY ACTIVITY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year
                                                                       2003            2004            2005
----------------------------------------------------------------------------------------------------------------
Directed Stockpile Work:
    Stockpile Services Advanced Concepts........................  ..............           6,000           9,000
    Stockpile Services Robust Nuclear Earth Penetrator..........          14,577           7,435          27,557
----------------------------------------------------------------------------------------------------------------


                                                 FYNSP SCHEDULE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     FYNSP
                                                Year 2005  Year 2006  Year 2007  Year 2008  Year 2009    Total
----------------------------------------------------------------------------------------------------------------
Stockpile Services Advanced Concepts..........      9,000     14,425     14,874     14,595     29,472     82,366
Stockpile Services Robust Nuclear Earth            27,557     94,955    145,371    128,431     88,416    484,730
 Penetrator Research and Development..........
----------------------------------------------------------------------------------------------------------------

   FUNDING SCHEDULE FOR PIT MANUFACTURING AND CERTIFICATION CAMPAIGN

    Senator Feinstein. Okay. And the 5-year figure for the pit 
facilities.
    Ambassador Brooks. Yes ma'am. May I get that for the record 
as well? Although I may have that here.
    [The information follows:]

                                          FUNDING SCHEDULE BY ACTIVITY
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                    Fiscal Year     Fiscal Year     Fiscal Year
                                                                       2003            2004            2005
----------------------------------------------------------------------------------------------------------------
Pit Manufacturing and Certification Campaign Modern Pit Facility           4,242          10,810          29,800
----------------------------------------------------------------------------------------------------------------


                                                 FYNSP SCHEDULE
                                            [In thousands of dollars]
----------------------------------------------------------------------------------------------------------------
                                                  Fiscal     Fiscal     Fiscal     Fiscal     Fiscal     FYNSP
                                                Year 2005  Year 2006  Year 2007  Year 2008  Year 2009    Total
----------------------------------------------------------------------------------------------------------------
Pit Manufacturing and Certification Campaign       29,800     43,291     94,570    101,434    105,168    374,263
 Modern Pit Facility..........................
----------------------------------------------------------------------------------------------------------------

    Senator Feinstein. Okay. Now, as I understand it, the 
Advanced Weapons Concept will not require Congressional 
approval prior to going into the engineering phase. Is that 
correct?
    Ambassador Brooks. I'm always reluctant to give away 
prerogatives but I didn't think so.
    Senator Feinstein. Defense Authorization Bill, page 855.
    Ambassador Brooks. I mean.
    Senator Feinstein. And it is just the, unfortunately, just 
the Robust Nuclear Earth Penetrator.
    Ambassador Brooks. The Advanced Concepts work is really 
less far along. I mean, as a practical matter for us to take 
something that came out of an Advanced Concept and do something 
significant with it, at a minimum we would require 
Congressional line-item funding. Whether we would need, I mean, 
you're correct that the National Defense authorization bill 
speaks specifically of 6.3, other legislation speaks of 
production. That unambiguously requires a separate decision by 
Congress. If you're asking a technical, legal question I'd like 
to get back to you for the record. If you're asking a practical 
question, of course nothing that we do in Advanced Concepts can 
move into any sort of meaningful program without the Congress 
because we have to come back to you for money.
    Senator Feinstein. I am trying to find out is how much are 
we going to spend, up to the point of engineering build on 
these programs. What is the total 5-year cost up to that point 
of these three programs, RNEP, Advanced Concepts, Pit?
    Ambassador Brooks. All right. May I provide that for the 
record to make sure I'm precise?
    [Clerk's Note.--See preceding tables.]
    Senator Feinstein. I would appreciate it. Now, we have 
discussed this and----
    Senator Domenici. Senator, would you yield for a moment?
    Senator Feinstein. Of course.
    Senator Domenici. First step, I would like to make the 
point and seek your thoughts, Senator. Here we have the 
Penetrator and whatever we are doing with reference to its 
research, and we are going to look carefully at building a 
plant to make pits. If this idea had never been invented we 
would still be doing this.
    Senator Feinstein. You mean the pit?
    Senator Domenici. Yes.
    Senator Feinstein. Yes.
    Senator Domenici. It has nothing to do with it.
    Senator Feinstein. To field old warheads that are in stock, 
right.
    Senator Domenici. Yes. So, you know, when we talk about and 
add them up, the public assumes that they are in some way 
related so that all this money that we're spending for the Pit 
is related to this work for the Penetrator, they are unrelated. 
I mean, you are out there thinking about how many more years 
can we not have a Pit, right? It has nothing to do with whether 
we build Penetrators, right?
    Ambassador Brooks. That's correct.
    Senator Feinstein. You are correct, Mr. Chairman, as 
always. However, there is one thing. The money for the Pit is 
huge. And it is based on 450.
    Senator Domenici. Correct. It might be too much.
    Senator Feinstein. And it may well be very much too much 
because a study has not been completed yet to let us know 
whether it is 30 or 40 years or whatever we would need the Pit.
    Ambassador Brooks. May I make a correction?
    Senator Feinstein. Of course, please.
    Ambassador Brooks. We are required, under the National 
Environmental Policy Act, and we do an analysis, we have to be 
able to look everybody in the eye and say there's no plausible 
alternative that has been excluded. So, the Environmental 
Impact Statement that we've now suspended work on, analyzes 
between a capability of 125 pits a year and 450 pits a year. I 
think it would be, I don't want to prejudge decisions that 
haven't been made, but it's very hard for me to see, based on 
what we know, that we're going to be anywhere near that upper 
limit. But I've got to make sure that the analysis is broad 
enough, because if there's an option that's outside this 
analysis, I'm in violation of the law because I haven't 
examined all analyses. So I would urge you not to look at the 
upper limit of what we're analyzing under the National 
Environmental Policy Act and assume that that's a program. The 
lower level is probably roughly right. I could explain why now 
but it would be easier if you'd let me send you a paper.
    Senator Feinstein. I would appreciate that. For somebody 
like me, when you indicate a capacity of 450 pits, you send a 
major signal that a whole major new program is going into 
place. At 125, it may be a servicing unit, you know, based on 
what you need to do to replenish and fix old stock. But I am 
very suspicious. I think I know where you are going and I think 
it is a wolf in sheep's clothing. I think to spend all this 
money on the Nuclear Earth Penetrator, which as I understand it 
will produce 1.5 million tons of radioactive debris that is 
going to spew out with no present way of controlling it is 
beyond sanity. I mean, I do not know why anyone would even want 
to do that.

                                FALLOUT

    Let me ask you this: is there any known way, from a physics 
point of view, because I have spent some time now, with Dr. 
Drell, of containing the radioactive fallout from 100 kiloton 
nuclear bunker buster?
    Ambassador Brooks. There's no way that I know of. I don't 
know of anyone in the administration who advocates that and 
nothing in our proposal for the Earth Penetrator or for the 
previous B61-11, which was the previous administration's less 
robust penetrator, was ever intended to suggest that you can 
contain fallout; you can't. I have no idea how you would do 
that. And, as I think you and I have discussed before, if I 
have said or anyone in this administration has said, anything 
that suggests that we believe that nuclear use is anything 
other than absolutely horrible and a decision a President would 
only take in the most severe circumstances, then we have 
misspoken. The issue that we have is, there are facilities in 
the world that are beyond our ability to threaten except with 
nuclear weapons. We think it is possible that the country may 
decide it wants to threaten those facilities anyhow. We think 
we ought to spend some money to find out if this country can 
have that option by finding out whether I can take an existing 
weapon and threaten those facilities.
    Senator Feinstein. All right. Just for the sake. But you 
know you cannot contain the fallout.
    Ambassador Brooks. That's correct.
    Senator Feinstein. And you know how big you have got to get 
to get down deep enough let alone have the sufficient casing to 
enable the weapon to go down that deep. Therefore you are going 
to have tremendous radioactivity.
    Ambassador Brooks. Yes ma'am.
    Senator Feinstein. So why does it become even a viable 
option? If used in North Korea you jeopardize Japan, you 
jeopardize South Korea. Who in their right mind would ever do 
this?
    Senator Domenici. Senator, would you yield?
    Senator Feinstein. Of course.
    Senator Domenici. Senator, the problem with the argument 
is, I have heard you here and I do not think you are for 
disarmament, are you, of our nuclear weapons? Do you want to 
get rid of them all?
    Senator Feinstein. Well, I will tell you, I am for no first 
use.
    Senator Domenici. That is not my question. Do you want us 
to have some or not have some?
    Senator Feinstein. I am not for the Nuclear Posture Review. 
You asked a question.
    Senator Domenici. Yes.
    Senator Feinstein. That cites seven nations against whom we 
would countenance a first use of nuclear weapons. I am not for 
that.
    Senator Domenici. I understand.
    Senator Feinstein. Therefore, when we are going to spend a 
half-a-billion dollars up to engineering to develop a 100-
kiloton nuclear bunker buster, which you cannot contain the 
radiation, I have got to wonder well, who is smoking something? 
Why are we doing this if you cannot contain the radiation?
    Senator Domenici. Senator, I do not know who is smoking it, 
but let me tell you. There is more radiation exposure, 
uncontrollable, from existing nuclear weapons than from the 
underground bunker possibility. So the logic is, we should not 
have any of those because there is no way to control a nuclear 
explosion, the radioactivity, from the hydrogen bombs we have. 
And I do not know today how many we have but down from many 
thousands to a controllable number. But the issue is not an 
issue of damaging the world. Because if that is the issue, we 
have got to get rid of all of our nuclear weapons in the event 
that we are saying we do not want to harm anything. They are 
there so that nobody will ever use them. That is why they are 
there.
    Senator Feinstein. But that is not the issue. The issue is, 
these are new classes of nuclear weapons.
    Senator Domenici. But the argument that they are going to 
pollute the world more than the weapons we have is not a valid 
argument. The rest of your arguments are valid but not the 
pollution argument.

                           NUCLEAR DETERRENCE

    Senator Feinstein. You were out of the room when Senator 
Bennett made a very interesting point, and the point was one of 
deterrence, and what is, in effect, a deterrent. And a nuclear 
arsenal of missiles may well be some form of deterrent. A 
nuclear Earth Bunker Buster, I do not see as a deterrent. And 
if we are going to build tactical battlefield nuclear weapons, 
God help our sons and daughters that go on that battlefield. So 
I become very upset. And Ambassador, you say the included out-
year funds are only to preserve a President's option. And then, 
if you think about the option, how would a President ever, ever 
say, use a 100-kiloton--Hiroshima was 15 kilotons--use a 100-
kiloton nuclear Earth Penetrator and have no way to control the 
nuclear fallout, the radioactive fallout?
    Ambassador Brooks. May I try it?
    Senator Feinstein. Of course.
    Ambassador Brooks. First of all, part of the problem in 
open hearings is that we can't talk about specific yields. But 
let me just make the technical point that if there is a bunker 
that you want to hold at risk, it takes far more energy if it 
bursts in the air to hold that at risk than it does if you can 
get it just a little way into the ground. So it is quite 
possible that a penetrator can be of lower yields. But the more 
general point, I think, is the problem we've always had with 
nuclear deterrence, Senator. On the one hand, nobody can think 
of a situation in which a rational human being would want to 
use nuclear weapons. On the other hand, in order to deter, we 
have to tell people who think differently than we that if they 
did something that was so serious that it would warrant 
retaliation, we're capable of doing it. It is the case that 
increasingly, we believe, facilities can be put where we cannot 
reach them with existing nuclear or conventional capabilities. 
It is the case, we believe, that at least some dictators--I 
don't want to suggest any country, I would simply point out 
that the popular countries to talk about lately are countries 
in which it's clear the leadership, whatever else they value, 
doesn't care about the suffering of their people. And their 
people are, in fact, victims. So we need to be able to tell 
those leaders there is nothing you can do that is beyond the 
reach of American power. And, a whole different Department is 
spending a whole different set of money on working to improve 
that. My job is to say, suppose conventional doesn't work, can 
we do something with a nuclear weapon and then, if we can, then 
there's the question is it worth both the financial and the 
policy cost? It's a perfectly fair debate but I guess I don't 
accept the view that it's only worth spending this money if 
we're prepared, as soon as we have this, to go out and start 
using it casually. I think this is an example of improving the 
deterrent, just like the various things, many of them 
contentious at the time, that we did during the Cold War, as an 
example, of improving deterrent.
    Senator Feinstein. I will not belabor it. I appreciate the 
time. I profoundly differ with you.
    Senator Domenici. You what?
    Senator Feinstein. I profoundly differ. I think morally, 
ethically, to create weapon systems that are so bizarre and so 
catastrophic goes beyond the moral code. I really do.
    Ambassador Brooks. Yes ma'am, with the greatest respect, 
and I think to have only the ability to destroy cities and kill 
people has its own set of problems.
    Senator Domenici. Let us proceed. Let us make sure we 
understand here where some of us are. But I am profoundly 
concerned if we have nuclear weapons at all. I wish we could 
get rid of them all. I wish we could find a way that we do not 
need them and that we could prove that nobody else would ever 
have them, which is going to be the issue, so that we could get 
rid of them. I am terribly concerned that the damage that one 
of them might do, that we do have, and I am not supporting 
anything, ever, that says we should have more nuclear weapons 
in our arsenal. I should not say ever but right now we are 
building them down, not upward. In fact, we are having a 
terrible time building them down as fast as we can because we 
cannot get rid of the pollution that is coming out of them. I 
mean, we cannot get rid of plutonium fast enough as we destroy 
Russian nuclear weapons. We cannot find a way to do it. You are 
in charge of one now, we cannot even get them to agree on 
something so we can get rid of them, right?

                                  MOX

    I am going to just close by saying the biggest change in 
American policy, overruling policy since President Carter said 
we will build a MOX refinery in America. And we had said no, 
never, never. He said, we will build it if the Russians will 
build it because we will both get rid of plutonium that way. 
Right?
    Ambassador Brooks. Yes sir.
    Senator Domenici. So we made a profound change in our 
policy. I would have never been against the MOX but I mean, the 
President's decided against it, I would give you the reasons, I 
think you would not agree that his reasons were right. The 
reason was to build MOX you enhanced the production of fissile 
material to produce bombs. Turned out nobody in the world ever 
did it, so probably the fear was not there. So here we come 
along and what changes it? The Russians change it because they 
are going to do it, we say we will do it. Now we cannot get it 
done because we cannot get an agreement, right? That is a tough 
one for you.
    Ambassador Brooks. That's right, sir.
    Senator Domenici. Okay. So, I am on the side of trying to 
get rid of this stuff. I do not want them to use it again, I do 
not want us running around, leaking around, being transferred 
around. So, my record is pretty good on that.
    Now, I want to just be parochial and I want to tell you 
that I do not like the idea of the Los Alamos schools being 
treated differently all of a sudden than they have been for a 
long time. If you want to treat them differently, Mr. 
Ambassador, then we ought to start treating them differently 
and give them an opportunity to be treated differently over a 
long period of time. Either buy them out or something be done 
elsewhere but just say this year they do not get funded and so 
you did not put it in the budget, you know I have to find it 
somewhere so I will. But I am just telling you I do not think 
it is the right way to do it. And you have to get a team and 
let us get started finding out how do we solve this problem, 
not just the budget issue.

                               Z MACHINE

    The Z Machine, very quickly, I just want to make sure that 
I am correct, that it is being maintained and the little bit of 
money that is needed for it is going to be there and that is 
moving ahead?
    Dr. Beckner. Yes sir.
    Ambassador Brooks. Yes sir.
    Senator Domenici. And everybody is satisfied with its 
performance?
    Dr. Beckner. Yes sir.
    Senator Domenici. Is it a good piece of equipment for the 
price?
    Dr. Beckner. Yes sir.
    Senator Domenici. Will not take the place of what we 
expected NIF to do, right?
    Dr. Beckner. No sir. It is not of adequate size to do that.
    Senator Domenici. But if NIF fails it may do what a failed 
NIF will do?
    Dr. Beckner. That's a possibility and we certainly intend 
to continue to support that program and to have milestones in 
that program so that we can measure its progress.

                        NUCLEAR NONPROLIFERATION

    Senator Domenici. Mr. Longsworth, have you read the ``Wall 
Street Journal'' article, how the Pakistani nuclear ring 
managed to skirt export laws?
    Mr. Longsworth. Yes, I have.
    Senator Domenici. Are you receiving adequate international 
cooperation in stopping the activities outlined in this 
article?
    Mr. Longsworth. We are working very diligently on that. In 
fact, we've asked for an increase in our budget this year to 
address those kinds of issues.
    Senator Domenici. You haven't got everything you need yet?
    Mr. Longsworth. Well, we hope to if we get this increase 
we've asked for in our budget, yes sir.
    Senator Domenici. Mr. Ambassador, what is the likelihood 
that the liability issue will be resolved in a timely fashion 
so we can move ahead with construction so we can get rid of 
some of that plutonium that is sitting around in Russia and 
America?
    Ambassador Brooks. I am hopeful that we will get it 
resolved soon but the last 12 years have told me predicting 
Russia is risky. And I just don't know. The problem is not in 
this country; the problem is in the Russian Federation.
    Senator Domenici. Okay. So it is high enough that we ought 
to encourage our President, if we can, to ask the Kremlin to 
get with it on this one?
    Ambassador Brooks. Yes sir.
    Senator Domenici. This Libya situation. We added $5 
million, I think, in the Senate to initiatives focused on 
removing nuclear weapons useable material from volatile sites 
around the world. I understand your office was able to make use 
of this earmark to quickly respond in the Libyan situation?
    Mr. Longsworth. Yes sir. Let me just say, we would not have 
been able to respond quickly without that authorization.
    Senator Domenici. I am glad we did it. The role your office 
and the Department played in removing the nuclear materials, 
can you explain that in a minute or two?
    Mr. Longsworth. Yes sir. We had three missions into and out 
of Libya. The first mission was using the money you just 
referred to to immediately remove the core of their nuclear 
weapons capability; their nuclear fuel cycle capability. We 
removed key components, not all of the components, but the 
components that would, if we had not been invited back, have 
posed the most serious proliferation concern. The second 
shipment was a fairly large shipment which has just arrived 
back in the United States of the remaining centrifuge parts. 
The third shipment was to remove the HEU fuel, fresh fuel, from 
the Tajura reactor. That was sent back to the Russian 
Federation. That material was under IAEA safeguards, so it was 
accounted for and they were legally allowed to have it, but 
they agreed to remove it at our request and it went back to 
Russia. It will be recycled back into civilian low-enriched 
fuel.
    Senator Domenici. Good. Well, Senator, do you have any 
other questions?
    Senator Feinstein. I have one quick question. When we 
discussed, and I will just put it in a general category, the 
warhead redesign, the general fixing that may have to be done, 
does that come out of any of these programs' budget? The 
Advanced Concepts, the Pit, the Earth Penetrator?
    Mr. Longsworth. If we look at problems with fixing an 
existing warhead that's usually done as part of the Life 
Extension Program, which is a separate line item.
    Senator Feinstein. That is in another?
    Mr. Longsworth. Yes ma'am.
    Senator Feinstein. So nothing in this goes for that?
    Mr. Longsworth. In general that's correct, ma'am.
    Senator Feinstein. Thank you.
    Senator Domenici. Thank you, Senator.
    Senator Feinstein. Thank you.
    Senator Domenici. That is a very good hearing because you 
came. Thank you.
    Senator Feinstein. Thank you.
    Senator Domenici. We will have another big fight, huh?
    Senator Feinstein. Oh, I welcome it.
    Senator Domenici. The thing is, we get a second round, they 
may win it before.
    Senator Feinstein. You never know, you never know.
    Senator Domenici. See and then ours might not be terribly 
relevant because they already won in Armed Services. If they 
lose----
    Senator Feinstein. Well, we will try with the House.
    Senator Domenici. We lose in Armed Services we are in 
terrible shape. You will win.

                        NUCLEAR STOCKPILE REPORT

    Nuclear Stockpile Report.
    Ambassador Brooks. Yes sir.
    Senator Domenici. Mr. Ambassador, I noted in the opening 
statement that you talked about it and I am very disappointed 
that the Departments of Defense and Energy have not produced 
the Stockpile Report as requested. I think the distinguished 
Senator who is here because of what she worries about, ought to 
be very concerned that we do not have that report. Priorities 
of the future seem to be very much dependent upon it. So, Mr. 
Ambassador, it is the fault of the government of the United 
States that we do not have it, right?
    Ambassador Brooks. Yes sir.
    Senator Domenici. Should have been done.
    Ambassador Brooks. Yes sir.
    Senator Domenici. Will it be done?
    Ambassador Brooks. Yes sir.
    Senator Domenici. When?
    Ambassador Brooks. I don't know.
    Senator Domenici. Well, that is not good enough.
    Ambassador Brooks. I don't want to make promises to the 
Senator that I can't keep.
    Senator Domenici. Okay. But give me some talk. Are you 
working on it? Who is holding it up?
    Ambassador Brooks. The Secretary of Defense said it would 
be submitted in the spring. Spring started 2 days ago. It is 
being worked on, literally, as we speak, but because of the 
importance I think this will have to be personally approved by 
the President and I can't predict how long that will take.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Domenici. Okay. I am going to wrap up the hearing 
in just a minute. And Senators that are here or not here that 
want to submit questions, please do so. Thank you.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]

            Questions Submitted by Senator Pete V. Domenici

                     REVISED NUCLEAR STOCKPILE PLAN

    Question. I noted in my opening statement, I am disappointed that 
the Department of Defense and Department of Energy have not produced 
the stockpile report requested in the fiscal year 2004 Energy and Water 
Development bill. I believe this report is critical in establishing the 
priorities of the administration. This report was requested to be 
delivered with the President's budget. However, that deadline has come 
and gone and we still don't have our report. When do you expect that 
this committee will receive a copy of this report?
    Answer. The Departments of Defense and Energy understand the 
importance of completing this plan promptly and providing it to the 
Congress. Both departments are working together to complete this 
complex task. I anticipate that the plan will be forwarded to the Hill 
in the Spring.
    Question. We are beginning to put together our budget priorities 
and the failure to produce the report will have significant 
consequences for your budget priorities. Will you convey that message 
back to the Department?
    Answer. Yes, sir. I have already done so.

                    ROBUST NUCLEAR EARTH PENETRATOR

    Question. I was surprised to see in the budget request that nearly 
$500 million is provided for the Robust Nuclear Earth Penetrator (RNEP) 
in out-year funding. I believe many members are concerned that you have 
already made a decision on the need for this type of weapon without any 
input from Congress. Would you like to clarify what the President's 
budget provides for this project and outline the role Congress will 
play in the future development of this weapon?
    Answer. We have not decided whether to proceed with the Robust 
Nuclear Earth Penetrator beyond the 6.2/2A study that is currently 
underway. Our fiscal year 2006-2009 funding estimates are only 
placeholders within the FYNSP, based on predecisional data and in no 
way represent a signal that we intend to proceed with the RNEP. That 
study will be competed by the end of fiscal year 2006, and will cost an 
estimated $71 million from fiscal year 2003 through fiscal year 2006.
    Consistent with section 3143 of the fiscal year 2003 National 
Defense Authorization Act, Public Law 108-314, and section 3117 of the 
fiscal year 2004 National Defense Authorization Act, Public Law 108-
136, the administration may request congressional approval to proceed 
with phase 6.3 (engineering development) in the first quarter of fiscal 
year 2007. This request is contingent on the identification of a 
feasible and affordable design using either the B61 or B83; the 
determination by the Department of Defense that the design meets 
military requirements; and the approval of the joint DOD/DOE Nuclear 
Weapons Council.

                        SAFEGUARDS AND SECURITY

    Question. Ambassador Brooks the new Design Basis Threat has 
elevated the security requirements at DOE and NNSA sites. The 
President's budget requests a $106.9 million increase (8.6 percent) in 
the Safeguards and Security budget. As a result of the increased 
security requirements, we are able to spend less on important research. 
TA-18 in Los Alamos is a good example of the need for the NNSA to 
consolidate the special nuclear material in safer, better defended 
areas. I would like the NNSA to undertake a study that will be the 
basis for a plan to develop a clear understanding of our future 
security needs and the benefit of consolidating the special nuclear 
material across the complex. Can you do this study and report to me on 
your findings?
    Answer. We have already begun the study you requested on the 
benefits of consolidating nuclear materials with a focus on security. 
This effort is being conducted jointly by the NNSA and the Office of 
the Under Secretary for Energy, Science, and Environment and should be 
completed in Fall 2004. I will provide you with the report of this 
effort by December 31, 2004. We're also not waiting for the results of 
the reports to take action to consolidate nuclear materials as we 
identify opportunities to do so for increased security, on efficiency 
of security arrangements.
    Question. How are you planning to handle the transfer of TA-18 at 
Los Alamos?
    Answer. The Secretary has directed the NNSA to begin a near term 
shipping campaign that will move approximately 50 percent of the Los 
Alamos National Laboratory Technical Area (TA-18) Category I and II 
Special Nuclear Material to Nevada. This campaign will begin in 
September and last approximately 18 months. NNSA will immediately start 
preparing the Device Assembly Facility (DAF) to support storage of 
these nuclear materials while scheduling packaging and transportation 
resources. The movement of these materials will be handled by NNSA's 
Office of Secure Transportation. In parallel, the design modifications 
to DAF to assume program responsibilities will continue, and the 
modifications will be made in the next several years to receive the 
additional material to support the associated missions.
    Question. What is the timetable for this decision?
    Answer. We will begin the shipping campaign this September. Between 
now and then Los Alamos National Laboratory, the Office of Secure 
Transportation and Nevada personnel will identify, characterize and 
pack materials in approved shipping containers for transfer to the 
Device Assembly Facility in Nevada.
    Question. If TA-18 is moved from Los Alamos, will Los Alamos still 
maintain the mission associated with this facility?
    Answer. Yes, Los Alamos will continue to perform the vital Category 
I and II mission work associated with TA-18 at the Device Assembly 
Facility at the Nevada Test Site. LANL will retain security Category 
III and IV missions at Los Alamos and TA-18 program personnel will 
remain on-site. These people will relocate to DAF, as necessary to 
conduct experiments with Category I and II materials. Experiments with 
Category III and IV will occur at another LANL location. NNSA and LANL 
are working to identify locations for these activities and will issue a 
separate ROD pending completion of this assessment.

                           LOS ALAMOS SCHOOLS

    Question. I would like an answer as to why the budget has failed to 
provide the necessary and authorized funding for the Los Alamos School 
system. You may be interested to know that the $8 million that has been 
included in previous budgets makes up a third of the total school 
budget. I would also point that many of the scientists who support your 
stewardship programs also have strong views about the education of 
their children. If you hope to continue to recruit top people to this 
Lab, this funding will help achieve your goal. What was the 
justification for not funding the Los Alamos Schools or the Los Alamos 
Foundation?
    Answer. I understand and appreciate the importance that a high 
quality education system provides for the recruitment and retention of 
quality scientists and engineers at Los Alamos National Laboratory. The 
administration however doesn't feel that the President's budget for 
stockpile stewardship activities is the proper funding vehicle for this 
activity. NNSA recently submitted a report to the Congress on Los 
Alamos schools and funding options that could take the place of the 
annual authorization and appropriations approach. Option 1 would rely 
on the State of New Mexico and the citizens of Los Alamos County to 
ensure that adequate funding is available for the schools. Option 2 
would reestablish a charitable foundation funded by annual 
appropriations for a limited period of time so that Los Alamos Schools 
would receive approximately $8 million annually from the endowment. 
Finally, Option 3 would allow the M&O contractor for LANL to support 
the school system by modifying the provisions in Appendix N of the 
contract. Currently under Appendix N, Los Alamos provides a few million 
dollars to the school systems in the vicinity of Los Alamos County.

                 RUSSIAN HIGHLY ENRICHED URANIUM (HEU)

    Question. Mr. Longsworth, the administration has consistently 
identified the need to reduce the hundreds of metric tons of Highly 
Enriched Uranium stocks in the Russian Federation as a critical part of 
our non-proliferation efforts. In fiscal year 2003, the committee 
provided $14 million for the Accelerated Materials Disposition (AMD) 
Program to meet those commitments. However, no progress has been made 
since that appropriation and your fiscal year 2005 request eliminates 
funding for the AMD Program. Therefore, the only current U.S./Russian 
program to address the dangerous stockpiles of HEU is the existing HEU 
agreement and the research reactor initiatives. This later projects 
result in the equivalent of one-tenth of a metric ton per year. 
Unfortunately, this will not have the address the long-term strategic 
objectives of HEU disposition. Has the administration abandoned its 
efforts to accelerate reduction in Russian HEU stockpiles beyond what 
is covered in the HEU deal?
    Answer. No, the administration has not abandoned its efforts to 
accelerate the reduction of Russian HEU stockpiles. Several initiatives 
were identified by the Experts Group on Nuclear Materials, with two 
initiatives approved for immediate action that are being pursued: (1) 
Purchase of low enriched uranium (LEU) derived from HEU to be used as a 
U.S. strategic LEU reserve, and (2) Purchase of HEU for use in U.S. 
research reactors. We have been pursuing these initiatives with varied 
success, and some progress has been made.
    For the first initiative, we have been advocating expansion of the 
HEU disposition from Russia by blending down additional HEU to LEU and 
then using this LEU to establish a U.S. Strategic LEU Reserve so as not 
to adversely affect the current enrichment market. Because of House 
budget concerns regarding the up-front cost of the strategic reserve 
approach, Congress did not fund this initiative in fiscal year 2004. 
Following the guidance of the Appropriations Committee, the funding for 
these initiatives has been subsumed into the base program for Reactor 
Fuel return. Concurrently, in order to address Congressional concerns, 
DOE is developing a more comprehensive approach that would make these 
initiatives acceptable as separate line items. As part of this 
development, we are also addressing the long-term strategic objective 
that Ambassador Brooks has requested that includes both a follow-on 
strategy for negotiating the extension of the HEU purchase agreement 
beyond 2013 as well as interim strategies for expanding beyond the 500 
MTs included in the current agreement.
    With respect to the second initiative, the contract with the 
Russians for the purchase of HEU for the research reactor initiative 
has been negotiated with only two points of contention remaining: (1) 
the price to be paid for the HEU material; and (2) transportation 
method. The price problem exits because there is no commercial market 
basis for HEU sales that can be used to establish a fair price. 
Currently negotiations are underway to establish a fair price. The 
transportation concerns should be resolved without much delay once 
price is agreed upon.
    In addition to the specific purchase contract for HEU for U.S. 
research reactors, we are still engaging the Russians in developing the 
framework for accelerated disposition of HEU in the form of a 
Memorandum of Understanding that would act as an umbrella agreement for 
additional purchases or other initiatives. It should be noted that, in 
addition to our direct actions on these initiatives, we are also 
cooperating with and providing appropriate support to other 
organizations to engage the Russians in identifying other options that 
are acceptable both to the Russian Federation and the United States.
    As you can see, we have not abandoned our efforts to accelerate 
reduction of Russian HEU stockpiles, but we have encountered obstacles 
associated with the economics of these approaches that we are working 
to resolve. We appreciate the continued support of Congress in these 
endeavors.
    In addition to the two programs you have mentioned, my office also 
includes the Material Consolidation and Conversion (MCC) Project, which 
supports the conversion of HEU, which is not from weapons, to LEU. This 
HEU is excess to the needs of the sites where it is currently located 
and is transferred to one of two down blending sites in Russia for 
conversion to LEU. The MCC Project began in fiscal year 1999 and to 
date has supported the down blending of almost 5 metric tons of HEU. We 
are currently engaging the Russian Federation in discussions to 
increase the rate of conversion under the MCC Project.
    Question. Could more be done to remove more HEU material from 
poorly defended facilities in Russia?
    Answer. Yes, more can be done to remove additional HEU material 
from poorly defended facilities in Russia. One part of this effort 
would be to attempt to purchase more material. This aspect was 
discussed in the previous question.
    The MPC&A and MCC programs are other avenues that could be 
followed. The MCC Project was designed to support the transfer of HEU 
from less secure sites in Russia to more secure sites and to down blend 
that material to LEU. We are actively engaged with the Russian 
Federation to try to accelerate that process.

                              MOX PROGRAM

    Question. I am deeply concerned about the future of the Russian/
U.S. MOX program that will remove 34 metric tons of plutonium from the 
respective stockpiles. I have personally contacted Secretary Powell to 
urge the State Department to find an acceptable resolution in order to 
keep this program on track.
    It is my understanding that negotiations regarding the liability 
concerns have yet to be resolved. What is the likelihood that the 
liability issue will be resolved in a timely fashion allowing the 
construction of the Russian and U.S. facilities to go forward in the 
near future?
    Answer. The United States and Russia have yet to resolve liability 
protections that will be needed for the U.S. Government and its 
contractors for plutonium disposition work in Russia. If this issue 
cannot be resolved in the near future, the start of construction of the 
Russian MOX program will be further delayed. Because the United States 
and Russian programs are to proceed in parallel, any further delays in 
the Russian effort will mean additional delays in the U.S. program as 
well. However, this would in no way indicate a lessening of the 
administration commitment to this effort.
    Question. How will the recent reelection of President Putin affect 
these negotiations?
    Answer. Given that President Putin will not fully stand-up his new 
government until May 7, it is too early to comment definitively on how 
the reorganization of the Russian Government will affect these 
negotiations.
    Question. Ambassador Brooks, are you aware of any changes within 
the administration including the State Department or within the White 
House that might indicate a change in policy or a reluctance to 
finalize this deal?
    Answer. I believe that the administration is committed to moving 
forward with this important nonproliferation program. The liability 
issue is being addressed at the highest levels of the government.

                        LOWER LIABILITY STANDARD

    Question. I understand that Russia has signed a liability agreement 
with our G-8 partners that does not provide the same level of 
protection as the United States is seeking as part of the Cooperative 
Threat Reduction plan. How is this affecting the negotiations?
    Answer. Russia and some of our G-8 partners have accepted, in 
another context, a less comprehensive liability provision than what the 
United States has under the Cooperative Threat Reduction plan. 
Specifically, this provision does not cover the liability of an 
individual who intentionally causes a nuclear accident or the liability 
resulting from a non-nuclear accident. Russia has been insisting on a 
similar reduced scope for the liability provisions for the MOX program.

                       EMERGING THREAT--PAKISTAN

    Question. The Nonproliferation budget seems to assume a general 
status quo in future funding. It reflects an expectation that our 
primary nonproliferation concern will remain Russia and its former 
republics. However, in light of the news over the past several months 
regarding Libya, Iran and Pakistan, are you concerned that this budget 
places too great a focus on Russian stockpiles and doesn't adequately 
fund efforts to address proliferation in other countries?
    Answer. The budget appropriately focuses on Russia where most of 
the weapons-usable material of proliferation concern is located. 
However, it also includes funds for activities in other countries. As 
those latter activities develop we will revisit the appropriate balance 
between work in Russia and work outside of the former Soviet Union 
(FSU).
    Question. Does this budget adequately provide for this new reality 
and how will your office respond to these threats?
    Answer. We are working very carefully to develop prudent and 
effective activities that address proliferation concerns outside of the 
FSU, and will carefully monitor these activities to ensure that they 
are adequately funded.
    Question. Would additional resources accelerate your ability to 
contain the emerging proliferation threats?
    Answer. As our work outside of the FSU develops, we will certainly 
keep you informed about its progress and whether additional funding 
would be helpful. We will continue to work with the administration and 
Congress to assess priorities and develop budgets.
    Question. Mr. Longsworth, on the front page of the Wall Street 
Journal this morning is an article that explains how Pakistani 
officials were able to avoid export laws that prohibit the sale of 
material and technology that can be used in the development of nuclear 
weapons. This article details a very complicated scheme that took 
advantage of weak export controls in various countries to avoid 
detection. It is obvious from this article your job of tracking and 
preventing the proliferation of technology and material is a terrific 
challenge.
    Mr. Longsworth, have you read this article and do you agree with 
the characterization of the Pakistani efforts?
    Answer. Yes. It is a fair characterization of what occurred, as far 
as we know it. Though it's clear that A.Q. Khan was deeply involved 
with the procurement and supply effort, it is not known if his actions 
were in some way associated with his official duties or if he was 
abusing his official position, knowledge, and connections for personal 
benefit only. In any event, the United States and Pakistan are now 
dismantling the A.Q. Khan network responsible for proliferating nuclear 
weapons-related technologies, and we are working with our interagency 
colleagues and Pakistan on steps to bring its export control system in 
line with international standards.
    Question. Also, are you receiving adequate international 
cooperation in stopping the activities outlined in this article?
    Answer. Yes. We have underway an increasingly coordinated 
international effort to detect and destroy these proliferation 
networks. We are working in the Nuclear Suppliers Group to tighten up 
controls on sensitive materials and technologies. We are also working 
on enhanced targeting techniques and more in-depth training of 
inspection and enforcement personnel and conducting more industry 
outreach to sensitize the private sector on the importance of some of 
these technologies.
    In addition, we have recently started export control assistance to 
the government of Pakistan.

                                 LIBYA

    Question. Last year the Senate added $5 million for initiatives 
focused on removing nuclear weapons-usable material from vulnerable 
sites around the world. I understand that your office was able to make 
use of this earmark to quickly respond to Libya's decision to open 
their weapons program to outside review. Please explain the role your 
office and the Department of Energy played in removing the nuclear 
threat from Libya.
    Answer. The Department of Energy (DOE)/National Nuclear Security 
Administration (NNSA) is participating in an interagency effort to 
remove materials and equipment from Libya and assist the Libyan 
government with its efforts to eliminate its weapons of mass 
destruction programs. We have been involved in three removal missions 
to date. For the first two missions, a U.S. team composed of 
representatives from DOE/NNSA headquarters staff, our National 
Laboratories, and the interagency community helped remove nuclear 
materials, equipment (such as finished components for centrifuges, 
specialized materials and manufacturing equipment for centrifuge 
construction, as well as components for a uranium conversion facility), 
and highly sensitive nuclear weapons design documents from Libya.
    The third mission in Libya repatriated to Russia approximately 17kg 
of unirradiated highly enriched uranium (HEU) fuel from a research 
reactor in Libya. Coordinated with the Russian Federation and the 
International Atomic Energy Agency (IAEA) under the Russian Research 
Reactor Fuel Return program, this effort has been, and continues to be, 
a crucial part of our efforts to secure at-risk weapons usable nuclear 
materials around the world.
    The funding Congress provided to NNSA was critical for our work in 
Libya. It gave my organization the flexibility and capability needed to 
support the mission to assist Libya in its effort to rid itself of 
weapons of mass destruction and the ability to create them. We continue 
to need authority and flexibility to carry out our mission outside the 
former Soviet Union and not constrain our ability to address the 
threats at targets of opportunity.
    This swift movement suggests the seriousness with which the U.S. 
Government treats proliferation threats. Congressional support is 
fundamental to the success of these efforts. The expedited removal of 
this material from Libya certainly advanced the U.S. national security 
goals and represents a tremendous success for our nonproliferation 
efforts.

                RUSSIA--UNCOSTED BALANCE & ACCESS ISSUES

    Question. It appears from your budget that there remain large 
amounts of uncosted balances associated with the Russian programs. I 
assume that these balances remain due to the fact that your Russian 
counterparts are unenthusiastic about allowing U.S. teams in to either 
dispose of or secure their precious nuclear stockpile. A GAO report 
from last year noted that DOE was having better luck than DOD in 
gaining access to sites that contain special nuclear material. Has 
there been any improvement with relations that will allow you to secure 
Russian material?
    Answer. We have made significant progress with the Russian Ministry 
of Atomic Energy (MinAtom), especially at ``civilian'' facilities with 
less stringent access restrictions imposed by MinAtom. Barring any 
unanticipated delays, we expect to complete the security upgrade phase 
of our cooperation at four sites within the next 16 months Novosibirsk 
Chemical Concentrates Plant (NCCP), Institute of Physics and Power 
Engineering (IPPE), Research Institute for Atomic Reactors (RIAR), 
Lytkarino. This will mark a significant step forward for our program.
    We are making progress at some of these sites--contracts for 
upgrades have and will continue to be signed at places like Tomsk, 
Krasnoyarsk-26, and Mayak. We will continue to focus our efforts on 
providing upgrades to sites containing materials of concern to which we 
have access in order to reduce the threat as quickly as possible, while 
we negotiate access to or a suitable alternative assurance for the 
remaining weapons sites. Additionally, we are working on a pilot 
project that could improve our access to sensitive MinAtom facilities.
    With the Ministry of Defense, we have signed comprehensive 
contracts for the last two Navy warhead sites, which finish the major 
contracts upgrading 50 Navy-related sites--39 warhead sites and 11 fuel 
sites. We are cooperating with the Strategic Rocket Forces to upgrade 
the security of a total of 17 approved nuclear sites located at 11 
different Intercontinental Ballistic Missile (ICBM) bases. Currently, 
we have contracts in place (varying from vulnerability assessments to 
rapid upgrades) for the first 13 sites. We have had fewer access issues 
with the Ministry of Defense and cooperation continues to be very good.
    These improvements in our relations with the Russians are allowing 
our work to proceed and begin a drawdown of our uncosted balances as 
security upgrades to the Ministry of Defense and MinAtom facilities are 
completed over the next several years.
    Question. How and when do you expect to commit the available 
appropriated balances?
    Answer. As a result of a number of recent successful contractual 
negotiations, we expect to commit the majority of International Nuclear 
Materials Protection and Cooperation (MPC&A) non-Megaport appropriated 
balances by the end of this fiscal year. With the Russian Ministry of 
Defense, we have signed comprehensive contracts for the last two Navy 
warhead sites, which finish the major contracts upgrading 50 Navy-
related sites--39 warhead sites and 11 fuel sites. We are cooperating 
with the Russian Strategic Rocket Forces to upgrade the security of a 
total of 17 approved nuclear sites located at 11 different ICBM bases. 
Work at sensitive MinAtom facilities continues, but the pace is limited 
mostly by the need to negotiate access to facilities. We are making 
progress at some of these sites. Contracts for upgrades have and will 
continue to be signed at places such as Tomsk, Krasnoyarsk-26, and 
Mayak. Agreement has been reached with Greece and we are nearing 
agreement with Kazakhstan to implement a Second Line of Defense program 
in those countries. In Kazakhstan alone we expect to complete 
installations of radiation detection equipment at approximately 20 
sites over the next year.
    The ability to commit funds for the Megaports program has so far 
been limited by the pace of successful negotiations with host 
countries. We are currently negotiating with several countries and 
expect those negotiations to result in a number of agreements, which 
will allow us to commit funds for the installation of radiation 
detection equipment at these ports.
    As of March 31 the current total funding for the MPC&A program with 
carryover, is $655 million. This consists of Start of Year uncosted 
balances of $378 million plus Year to Date Approved Funding Profile of 
$277 million. Of the $655 million in MPC&A, $124 million is allocated 
to the Megaports program and $75 million to the Radiological Threat 
Reduction (RTR) Program (Radiological Dispersion Devices and MPC&A 
Activities in Iraq). Both Megaports and the RTR programs are less than 
2 years old, and are working feverishly to ramp up.
    We consider that the real measure of funding is commitments to 
contractors, that is, signed contracts should be considered ``costed'' 
as the U.S. Government has ``committed'' to provide funding for 
deliverables that are underway. Given the length of time it takes to 
complete sensitive nonproliferation work in foreign countries, we have 
begun to track funds that have been committed but not yet costed as a 
more accurate measure of true requirements. We have made changes to the 
DOE accounting system to track these obligations and expect our first 
preliminary report of uncosted commitments in coming weeks. We expect 
that the April 2004 report to Congress on uncosted ``commitments'' will 
show that our true uncosted balances are under control.
    Question. Are there alternatives that the Russians have suggested, 
other than providing full access to sensitive facilities, which may 
accomplish U.S. objectives?
    Answer. We are currently working with the Russians on a pilot 
project that could improve our access to sensitive MinAtom facilities. 
This project incorporates a new strategy for access that was negotiated 
by the MPC&A acceleration working group, convened by Secretary Abraham 
and Minister Rumyantsev last year. If this pilot effort is successful, 
it is anticipated that this will allow MPC&A upgrades to be carried out 
at Russian sites that were previously too sensitive to support 
cooperative work with the Department of Energy to improve nuclear 
material security. The first site visit of this project has been 
completed and contracts have been signed. A second visit will take 
place early this summer.

               COOPERATION WITH OFFICE OF NUCLEAR ENERGY

    Question. The current light water reactor fuel cycle in widespread 
use was developed prior to today's emphasis on safeguards to prevent 
proliferation from the civil nuclear energy cycle. The International 
Atomic Energy Agency (IAEA) has been forced to establish new safeguards 
into an existing cycle and into the existing facilities. The AFCI 
program is exploring new options for fuel cycles that would reduce 
waste, enhance more efficient use of nuclear fuel and reduce 
proliferation concerns.
    Do you concur that review of proliferation aspects of new fuel 
cycles should be coordinated among the Department of Energy's (DOE) 
Office of Nuclear Energy and the National Nuclear Security 
Administration's (NNSA) Nuclear Nonproliferation?
    Answer. Yes, in fact we are coordinating just such an effort 
between Office of Nuclear Energy, Science and Technology, and the 
National Nuclear Security Administration. Our joint Proliferation 
Resistance and Physical Protection (PRPP) Working Group is an excellent 
example of our coordination. Under PRPP, we are bringing together 
experts from all facets of the nuclear fuel cycle. Beyond the 
safeguards and physical protection experts, we also are engaging the 
engineers who design all the components and processes of the entire 
fuel cycle. Such an approach will ensure that the ideas to enhance PRPP 
actually will be applied and used to reduce proliferation concerns.

          REMOVAL OF ADDITIONAL HIGHLY ENRICHED URANIUM (HEU)

    Question. There are a number of programs within your office 
including the Reduced Enrichment Research and Test Reactor Program 
charged with developing technologies to reduce the threat of 
proliferation and increase the amount of low enriched uranium that is 
used in research reactors worldwide. What barriers exist to more rapid 
progress on removing HEU from research reactors?
    Answer. The Reduced Enrichment Research and Test Reactor (RERTR) 
Program has a number of technological and political limitations that 
slow the speed by which progress can be accelerated, regardless of the 
amount of funding provided for the program. The development of low 
enriched uranium (LEU) fuels suitable for conversion of reactors 
requires the following steps, which comprise the primary challenges 
facing the program: analyses of the performance and safety 
characteristics of research reactors undergoing conversion; 
determination of the detailed technical specifications of the LEU fuel 
assemblies for each reactor; and regulatory approval of the 
conversions.
    Once LEU conversions are determined to be technically feasible, 
adequate incentives need to be identified to make the conversions 
happen. Countries that have HEU fuel stockpiles are often aware that 
they have a ``valuable'' commodity and it can be difficult to persuade 
them to release the fuel. Incentives are often case-dependent and could 
include, for instance, removal of spent fuel, supply of fresh LEU fuel, 
or facility upgrades. Negotiated government-to-government agreements 
may be required to implement the incentives.
    Question. Are you resource constrained?
    Answer. Yes, in that the facilities, equipment, and trained 
personnel that can perform the necessary fuel development are limited. 
We are actively addressing this situation through international 
collaboration to study the characteristics of the new LEU fuels to 
determine if there are any limitations to the use of the proposed fuel.

                  RESEARCH & DEVELOPMENT (R&D) FUNDING

    Question. The Proliferation and Verification R&D account has been 
reduced by $11 million. This account performs a critical role in 
developing nuclear detection technologies, including space-based 
surveillance. Our ability to detect, monitor and verify the transfer, 
production or testing of special nuclear material will be critical to 
preventing proliferation of weapons of mass destruction and putting 
U.S. citizens at risk. Why has this account been reduced and will this 
budget cut allow for the research, testing and deployment of new 
detection technology?
    Answer. Our budget request for the Nonproliferation and 
Verification R&D Program is, in fact, $16 million higher than our 
request in fiscal year 2004. This reflects, in particular, the need to 
begin the development of new space-based nuclear explosion monitoring 
sensors to replace the capability on the Defense Support Program 
satellites which are due to be retired before the end of the decade.
    In the appropriation for fiscal year 2004, the Congress added $29.5 
million to our request for the R&D program for critical research in 
nuclear and radiological national security and for particular projects 
important to the members. Our fiscal year 2005 budget request was 
formulated last fall, before we knew the details of the Congressional 
action on our fiscal year 2004 request. Consequently, that result did 
not figure into the baseline level for fiscal year 2005 funding 
request. We appreciate the confidence expressed by the Congress in the 
importance of our R&D program.
    Question. If this account received level funding at the fiscal year 
2004 level, how would you spend the additional funding and how would it 
assist in detection?
    Answer. We agree that the need to improve the Nation's ability to 
detect proliferation and testing of nuclear weapons and materials is 
becoming ever more important in the world today given the proliferation 
challenges facing us. If the level appropriated by the Congress for our 
R&D program in fiscal year 2004 were continued, we would be able to 
pursue further demonstration of new detection methods and begin to 
realign our program to address the expanding proliferation threat. We 
would focus our research to develop methods to more confidently detect 
and characterize enrichment of uranium and reprocessing of plutonium in 
areas of concern around the world. We would also increase our effort to 
provide the scientific basis for attributing the source of any detected 
nuclear materials.
    We would also seek to accelerate our nuclear explosion monitoring 
R&D program by achieving our goals to calibrate new seismic monitoring 
stations sooner and enable our partnering agencies to meet their 
monitoring requirements. We also anticipate a change to those 
requirements in the near future, to achieve a much lower threshold of 
yield to detect any nuclear explosions. At this time, this challenge 
would be addressed only at a lower level of effort until the seismic 
calibration program is completed.

                   INTERNATIONAL NUCLEAR FUEL MARKETS

    Question. There are a number of utilities that are concerned about 
the amount of available nuclear fuel there is in the international 
market. Recently, several companies have found their contracts with 
Russian suppliers are not being honored and they are forced to find 
other sources to meet their fuel needs. As a result of this tight 
market, fuel prices are rising and there are few opportunities to 
increase production. In fact, the limited number of nuclear fuel 
vendors makes OPEC look like a free and open market. Are you familiar 
with these concerns and, if so, are there any opportunities in either 
the U.S. or Russian stockpiles of HEU that would provide an opportunity 
to down blend in order to add more supply to the market?
    Answer. We are familiar with these concerns and have been 
monitoring the situation closely. I believe the question should address 
the supply situation for natural uranium, not fuel-grade low enriched 
uranium, of which there is no shortage. Tight supplies of natural 
uranium feed are responsible for the price increases. The connection is 
that utilities must provide natural uranium feed to the fuel supplier 
in order to get fuel.
    Supplies into the natural uranium market were interrupted when the 
Russian supplier Techsnabexport (Tenex) cut off supplies of natural 
uranium to Globe Nuclear Services and Supply (GNSS) as of January 1, 
2004. The problem was not only the cut-off of supply to GNSS but the 
short notice provided by Tenex. Tenex notified the world on November 3, 
2003, just 2 months prior to the cutoff, that supplies under contract 
to GNSS would not be honored. As a result, beginning in January 2004 
GNSS has been unable to supply natural uranium under contracts to U.S. 
utilities.
    The Department of Energy and the U.S. Government have communicated 
to Russia our concern on the possible supply shortfalls to U.S. 
utilities. In that regard, Secretary of Energy Abraham was informed by 
former Minister, now Director Rumyantsev of the Russian Atomic Energy 
Agency, that Tenex is now in negotiations with several U.S. utilities 
to supply uranium with a view to resolving the GNSS shortfall. DOE also 
understands that the uranium would be provided at the same prices and 
delivery times as under original contracts with GNSS.
    Unfortunately, the Honeywell facility in Metropolis, IL, which is 
the only U.S. facility for converting uranium to the gaseous form for 
the next stage of uranium processing (i.e. enrichment), had to cease 
production on December 22, 2003, due to an accident. It appears that 
Honeywell has implemented procedures and other changes at the plant, so 
that the Nuclear Regulatory Commission could allow the plant to resume 
operations, which have already begun the process of re-starting. With 
that and the supply of natural uranium now being negotiated with Tenex, 
we expect balance to be restored to the natural uranium market.
    Nevertheless, it appears that the market is coping with the 
temporary supply shortfall. We suspect that utilities have exercised 
provisions for supply flexibilities in their contracts with uranium 
vendors to alleviate at least some of the shortfall. The Department, of 
course, continues to closely monitor the situation.
    Since this is primarily a commercial, not a non-proliferation, 
issue, I would suggest that the Office of Nuclear Energy, Science & 
Technology or the Office of the Undersecretary could provide further 
details.

                       NATIONAL IGNITION FACILITY

    Question. Dr. Beckner, I understand that NIF is still at least 6 
years and over $1 billion away from completion of this project. It is 
accurate to say that NIF is both the largest laser, and the most 
expensive diagnostic tool in the NNSA stockpile. When we develop any 
technology, we need to ask ourselves--is the outcome worth the cost? If 
you don't achieve ignition, the American people have purchased a laser 
that is it 25 times more expensive than the Z machine at Sandia. I 
think we need to understand that the project is viable before we spend 
billions more over the life of this program. How much money are you 
willing to spend to achieve ignition and at what point would you say we 
have spent too much?
    Answer. The NIF Project is on schedule for completion at the end of 
fiscal year 2008. Our plan, as outlined in the project data sheet, 
shows the funding required in fiscal years 2005-2008 to complete the 
project is approximately $867 million, a figure that has not changed 
since the present baseline was approved in September 2000.
    NNSA is developing an integrated activation and early use plan for 
NIF that provides for first ignition experiments in 2010. This advance 
in the ignition date has been made possible by the strong technical 
advances in the Inertial Confinement Fusion program. Recent simulations 
have shown that it is possible to develop capsules that can be filled 
using a simple fill tube instead of a high pressure diffusion system. 
The fill tube system is simpler and less costly than the currently 
planned diffusion method, and can be developed sooner. Hence fusion 
ignition can be attempted earlier with this new fill tube approach. A 
1995 review of the ignition program concluded the probability of 
ignition on NIF was 50 percent or greater. Our confidence in 
demonstrating ignition on NIF has increased since then. The NIF 
activation and early use plan will be reviewed by the Defense Sciences 
Board.
    Completing the NIF Project is a key step in achieving ignition. In 
order to pursue the experimental campaign needed to support pursuit of 
our goal of obtaining ignition in fiscal year 2010, there are many 
program activities that must be conducted. Our total budget for 
Inertial Confinement Fusion (ICF) Program activities (not including the 
project), as outlined in the FYNSP, is approximately $2,046 million 
over the period fiscal year 2005 through fiscal year 2010. Of this 
amount, approximately half is directly related to national efforts 
aimed at our goal of achieving ignition utilizing the NIF. The balance 
supports operation of other facilities (such as Z) and our non-ignition 
stewardship activities.
    We fully recognize the magnitude of the investment we are making in 
the ICF area, and are convinced that it is the appropriate course of 
action to achieve our ignition and stewardship missions.
    We would be pleased to supply additional details on the break out 
of the inertial fusion budget elements for fiscal year 2005. 
Preliminary plans also exist for fiscal year 2006-2010.
    Question. Would you be willing to focus on solving the most 
challenging technical problems such as the cryogenic targets and 
perform a thorough testing on a full cluster of 48 lasers before you go 
forward as currently planned?
    Answer. In pursuing the goal of ignition in 2010, we must address 
many challenges. Among these are the design and manufacture of the 
ignition targets, development of cryogenic target handling capability, 
and completion of the NIF in fiscal year 2008. Our current plans 
provide the correct balance, within the FYNSP budget, for addressing 
each of these challenges. In addition, we are currently developing a 
NIF Activation and Early Use Plan that will define the specific path 
towards ignition in more detail. We anticipate having this plan 
reviewed by the Defense Science Board this summer, and will finalize 
the document after receiving their input.
    The performance of the NIF laser system is being continuously 
evaluated. Data from the initial quad of four laser beams has already 
demonstrated that on a per-beam basis, the facility meets its design 
requirements. In addition, we have used the diagnostics and target 
systems that are being developed in parallel with the NIF laser project 
to successfully demonstrate the facility's capability of performing 
sophisticated experiments, and to make progress toward the Stockpile 
Stewardship Program's important high energy density physics and 
ignition goals. We intend to continually test facility's performance as 
additional beams are activated, and perform increasingly more difficult 
experiments with those laser beams.
    While having a full cluster of 48 beams operating on NIF will be 
useful to high energy density physics, the placement of the beams will 
not allow many important ignition experiments to be conducted. All the 
beams from the same cluster enter the NIF target chamber from the same 
quarter of the chamber, essentially coming from the same direction. 
This is desirable for high energy density physics, and enables 
important experiments to be performed in this area. For example, planar 
hydrodynamics experiments will be performed in late 2004 to support 
validation of 3D ASC computer codes; equation of State experiments will 
be performed in late 2005; and radiation hydrodynamics experiments will 
be performed in late 2006. However, this configuration does not provide 
the symmetrical target illumination required to do the compression 
experiments required to investigate ignition. Consequently, we do not 
foresee any added value to placing a hold point at the completion of 
the first cluster of 48 beams. In fact, such a hold point would likely 
lead to schedule delays and cost increases while making the goal of 
ignition in 2010 impossible to achieve.

                    FIRST CLUSTER-LASER INTEGRATION

    Question. The fiscal year 2005 budget specifies that NIF ignition 
has been delayed until 2014 gives me great concern regarding this 
project. Delaying the ignition start date is contrary to news that the 
project is ahead of schedule. I understand that laser installation is 
18 months ahead of schedule and the Beam Light Infrastructure was 
achieved nearly 3 years ahead of schedule. As a result of these 
conflicting statements, I am very skeptical of actual status of NIF. To 
date, $2.5 billion has been spent and another $1 billion is required 
before we know whether or not this project will work. I don't share 
this all-or-nothing attitude, because the costs are too high. I believe 
we need a more measured approach to address the significant technical 
challenges that lie ahead. George Miller, the NIF Associate Director, 
has stated that the most significant technical challenge he has is the 
full integration of the lasers. I believe the first cluster, which is 
48 lasers or one-quarter of the total, would certainly give a clear 
indication of whether full integration is feasible. Dr. Beckner I would 
like you to put together a budget and schedule that will accelerate the 
installation and testing of the first cluster in fiscal year 2005. Can 
you do that?
    Answer. I am very much aware of the committee's determination that 
the program to achieve ignition remains on target. I've met with the 
staff of this committee as well as the other three committees to 
clarify our recent decisions to change course in order to pull back the 
ignition target to 2010, as opposed to 2014. We've done that because 
all of the committees have a very strong view that we must maintain 
that schedule. We had allowed the target date for ignition to move out 
because of funding priorities in other elements of the program not 
because of a reduced commitment to ignition.
    Successful completion of the NIF project on its current baseline 
schedule is only one of the elements necessary to achieve our goal of 
ignition in 2010. The project has re-sequenced some of its work to both 
accomplish it more efficiently, and to allow early activation of a quad 
of four laser beams. This re-sequencing has resulted in several major 
project milestones being completed well ahead of schedule, while the 
performance of the first quad of beams has provided us with a 
demonstration that the fundamental design is sound, as well as 
providing a basis for fine tuning component designs prior to initiating 
large procurements. We continue to monitor the project closely, and are 
satisfied that it is on schedule for successful completion in 
accordance with its approved baseline.
    I have discussed the feasibility of accelerating completion of the 
first cluster of 48 laser beams into fiscal year 2005 with Dr. Miller. 
At this stage in the project and within the current baseline and 
funding profile, procurement logistics, and lead times limit our 
ability to further re-sequence work and selectively accelerate 
milestones. Further we do not see any way to pull the first cluster 
milestone back as far as fiscal year 2005. However, if the committee 
would like to see an alternative schedule which accelerated 
installation and testing of the first cluster, which includes a modest 
suite of ``proof of principles'' experiments and which minimizes but 
could not eliminate impact to the ignition campaign schedule, we will 
develop such a schedule for your consideration.

                           CRYOGENIC TARGETS

    Question. The cryogenic target for the NIF system is a component 
the Department has deferred working on for several years. The 
University of Rochester has been working on the only cryogenic target 
in the world and it has been an enormous challenge. As I understand it, 
your office is currently considering two technology options. One is 
similar to the Omega Laser target developed at Rochester and a second 
is a theoretical option you believe will save NIF tens of millions of 
dollars and 4 years using a beryllium capsule. However, until this 
problem is solved, ignition will not become reality. Like laser 
integration, I believe you should focus your staff and budget on 
resolving the enormous challenges associated with the cryogenic 
targets. What is your plan and timetable to address the challenges 
associated with cryogenic targets?
    Answer. A cryogenic ignition target consists of a capsule filled 
with fusion ``fuel'', and a surrounding cryogenic system which holds 
the capsule accurately at temperatures near absolute zero. Research on 
cryogenic ignition targets has been a major component of the ICF 
Program since its inception. We have developed a wide variety of 
ignition capsule designs, and numerous aspects of the performance of 
these capsules have been validated via experiments on the Nova and 
Omega lasers and elsewhere. We have made strong progress on cryogenic 
systems. We have demonstrated much of the required technology, and a 
complete, integrated cryogenic system is operational at Rochester. The 
Rochester system provides valuable insight for NIF. The Rochester 
cryogenic system uses a high-pressure chamber to diffuse gas into the 
capsule.
    Our plan for NIF cryogenic ignition targets has three major 
components. First, we will continue our national cryogenic target 
technology development program. This program has demonstrated 
impressive results in the past several years, particularly in the areas 
of target fabrication and characterization. Secondly, we are planning a 
cryogenic system for NIF that uses a thin tube to fill the capsule with 
fusion fuel. This ``fill-tube'' cryogenic system will be completed in 
2009 and used for ignition experiments in 2010. A simpler pre-ignition 
cryogenic system will be completed in fiscal year 2006. This fill-tube 
system will ultimately be modified to allow operation with all types of 
ignition targets, including the diffusion filled targets used at 
Rochester. Finally, we are planning experiments and calculations to 
refine the design for fill-tube ignition targets. Note the fill-tube 
effort is not based on theory alone; fill-tubes have been used 
extensively in other areas of the ICF Campaign and the stewardship 
program, and we will draw upon this experience in preparing the first 
ignition experiments.
    Question. Are you planning to draw on the available expertise at 
the national labs to solve this problem and will you seek to have one 
of the labs validate the technology and design?
    Answer. Yes, as part of the national planning process for the ICF 
Program, all ICF participants are committed to leading technical 
efforts within the context of participation in an integrated program. 
This will continue to be the case for the cryogenic ignition target 
program. Lawrence Livermore National Laboratory will lead the 
construction of the NIF cryogenic target system and play a major role 
in ignition capsule design. Los Alamos National Laboratory will do 
independent calculations of the fill-tube approach, and in addition the 
material science capabilities at Los Alamos will be brought to bear on 
key questions related to ignition target fabrication. The University of 
Rochester will provide valuable input to the NIF cryogenic system via 
cryogenic experiments at OMEGA, and with the Naval Research Laboratory 
will also examine fill-tube target designs applicable to ``direct 
drive'' inertial fusion. General Atomics is focused on specific aspects 
of target fabrication and has experience in cryogenic systems. This 
national approach has proven very effective in advancing the 
technological state-of-the-art and providing innovative solutions as 
well as effective peer review.

                                 OMEGA

    Question. Will you begin to test the beryllium target design on the 
OMEGA system as soon as possible to get initial data to know if you 
have a viable target?
    Answer. Lawrence Livermore, Los Alamos, and Sandia have been 
conducting an extensive series of ignition-related experiments at OMEGA 
since the 1999 shutdown of Livermore's Nova laser. We expect that the 
OMEGA laser and the early experimental capability available at NIF will 
continue to be of great benefit as we move toward ignition. Experiments 
at OMEGA and NIF will be an integral part of our risk mitigation 
strategy. Both beryllium and plastic targets will be examined. These 
experiments will be used to validate advanced simulation tools and 
thereby refine our target designs for the 2010 ignition campaign.

                   ESTABLISHING SCIENTIFIC MILESTONES

    Question. Dr. Beckner, following the re-baselining of the NIF 
program in 2000, DOE agreed to specific milestones for the construction 
project. The Defense Authorization for 2002 requires that the 
Administrator of the NNSA notify Congress for every level 1 and level 2 
milestones that are achieved and a full report if a milestone is 
missed. However, that reporting requirement is only for construction 
and assembly milestones and doesn't apply to any scientific or 
programmatic milestones. In fact, there aren't any programmatic 
milestones by which to base NIF's success or failure as a scientific 
tool. I believe it is important that NNSA develop specific milestones 
by which Congress can judge this project. This document should also be 
peer-reviewed complex-wide for input on the scientific and research 
goals. Can you develop these scientific R&D milestones and provide to 
Congress such goals by this June?
    Answer. I fully agree a defined set of R&D milestones will provide 
insight into the success of NIF as a scientific tool. Experiments which 
could only be performed on the NIF have already been conducted and will 
continue to be performed during the commissioning of subsequent laser 
beams. In addition, we are currently developing a NIF Activation and 
Early Use Plan that will define the specific path towards ignition in 
more detail, including the scientific milestones we will achieve. We 
anticipate having this plan available in draft by the June time frame 
so that it can be reviewed by the Defense Science Board this summer. We 
will be pleased to provide you with the draft document, but request 
that you allow us to complete the external peer review process and 
incorporate the input from that review prior to finalizing the plan and 
beginning to report to you on our progress against it.

                               Z MACHINE

    Question. Dr. Beckner, Sandia National Labs currently operates the 
most powerful energy source of X-rays in the world. I think that anyone 
familiar with this machine would agree that Z has been a very cost-
effective workhorse of the stockpile stewardship program providing 
important data from high energy density experiments as well as 
possessing great potential for inertial confinement fusion research. We 
are turning away important research, because we haven't provided the 
financial support. I can certainly think of a project that could be 
used to provide the needed funding to expand the research operations 
and capabilities of this important scientific tool. Do you share my 
belief that the Z-machine is underutilized and that we are foregoing 
important research by not expanding to a second shift and increasing 
operational funding?
    Answer. The Z pulsed-power facility has been very successful, and I 
agree with you that more shots on Z could be effectively used. The 
amount of shots requested annually on Z is more than twice the number 
available under single-shift, 5-day-per-week operations. NNSA has added 
significant additional funds to Z over the past few years via the Z-
refurbishment Project. This approximately $60M activity will further 
expand Z's capabilities and ensure that it remains a vital part of the 
stewardship program.
    While we have funded the refurbishment of Z, we unfortunately have 
not been able to implement additional operations due to funding 
limitations and competing program demands. In fact, many large 
Department of Energy and NNSA scientific facilities are oversubscribed; 
indeed, one of the hallmarks of a successful facility is strong demand 
from the scientific community. We have attempted to balance the 
experimental, computational and engineering demands of Stockpile 
Stewardship within the FYNSP. There are a number of critical 
experiments on Z required to support life-extension program and other 
critical activities which have the highest priority. We recognize that 
some important experiments will be delayed given the current single-
shift operational status of Z.
    Question. What is the justification for remaining with one shift, 
when so much more could be accomplished?
    Answer. NNSA is committed to funding all stewardship activities 
within the existing FYNSP. Additional facility operations at Z would 
require the addition of funds to the Inertial Confinement Fusion (ICF) 
Campaign from other parts of the stockpile stewardship program or the 
shifting of funds within the ICF campaign; in my judgment neither has 
been the right course to pursue given other funding pressures in the 
ICF Campaign and the stewardship program.
    The NIF Project is a major commitment by NNSA and DOE and a key 
element of the stewardship program, and hence we are committed to 
delivering it on schedule. Demonstration of ignition is the major 
purpose of NIF, and with respect to demonstrating fusion in the 
laboratory, it is our first priority. Success on NIF ignition is 
essential to the future of the ICF Program. The situation is similar in 
the NIF diagnostics, cryogenics, and supporting technologies area. As I 
noted earlier, we have decided to fund the refurbishment of the Z 
machine. We also have major commitments to additional operations and 
the Extended Performance project for the OMEGA laser at the Laboratory 
for Laser Energetics at the University of Rochester, which also has had 
recent outstanding results.
    Question. Do you support expanding the opportunity to do more 
research in inertial confinement fusion at Z?
    Answer. The technical progress on inertial fusion at Z has been 
impressive, and if it were possible to do more under the constraints we 
face I would support it. However, given the FYNSP, I do not support the 
diversion of resources from elsewhere within the ICF Campaign or other 
stewardship accounts to fund additional ICF research at Z. We do have 
several important challenging milestones in the Z research plan during 
fiscal year 2005 and fiscal year 2006 and success in achieving or 
exceeding these milestones could cause us to change some of our 
procurement priorities. As documented in National Academy of Sciences 
and other reviews, the demonstration of ignition is the essential next 
step forward for the ICF Program. Demonstration of ignition is the 
major purpose of NIF, and with respect to demonstrating inertial fusion 
in the laboratory, it is our first priority. Success on NIF ignition is 
essential to the future of the ICF Program. The NIF ignition program is 
tightly constrained and we must stay focused upon it to succeed.
    Question. What can NNSA do to facilitate such research?
    Answer. The primary way NNSA can facilitate this research is by 
adding additional operations to Z and successfully completing the Z 
refurbishment project.
    NNSA is proceeding with the refurbishment of the Z machine. This 
refurbishment will replace original components that date back to the 
early 1980's. This refurbishment will: extend the lifetime of Z, 
increase its precision and reproducibility, reduce the maintenance 
required between experiments thereby facilitating double-shift 
operations should the additional funds become available, and 
significantly enhance its technical capabilities. For example, the 
refurbished Z facility will produce nearly double the X-ray energy for 
stockpile stewardship and ICF research. It will also greatly expand the 
utility of Z to address fundamental material properties by including 
the flexibility of pulse shaping in order to double the experimental 
pressures achieved.

                           NIF OTHER OPTIONS

    Question. Dr. Beckner, if we pulled the plug on NIF today I 
estimate we could save between $3 and $5 billion over the life of this 
project. A lot of very promising work could be done with this money 
including a variety of experiments using pulse power and laser power to 
test our weapons systems. Also, the Japanese have had tremendous 
success with petawatt lasers at a fraction the cost of NIF. I know you 
are very much aware that the French are pursuing a similar laser system 
slightly larger than NIF that hopes to have ignition within a decade. 
Is there any reason why we shouldn't look at other options before we 
spend another $3 to $5 billion?
    Answer. The NIF is a unique element of the Stockpile Stewardship 
Program (SSP), providing the capability to pursue the goal of ignition 
and create conditions of matter similar to those found in nuclear 
weapons. We believe NIF is the only facility in the world capable of 
getting ignition by 2010. At that time, it will have been nearly 20 
years since the last U.S. nuclear test. NIF will enable the study of 
issues that affect an aging or refurbished stockpile. It will also 
advance critical elements of the underlying science of nuclear weapons 
that will play a major role in validation of ASC codes. NIF will be 
important in helping to attract and train the exceptional scientific 
and technical talent needed to sustain stockpile stewardship over the 
long term. While we are constantly evaluating all options to obtain the 
capabilities and information required to support the SSP, we have not 
identified any U.S. facilities that can support the vital needs of the 
Stewardship program as well as NIF.
    We do not believe it prudent to rely on foreign nations to satisfy 
our requirements. While it is true that the French are pursuing a laser 
similar to NIF, their project has just broken ground, something we did 
for NIF in 1997. Thus, we believe the French are 6 to 7 years further 
from ignition than we are. In addition, the French project is dependant 
on optical components jointly developed with NIF for success. If NIF is 
cancelled, the French laser project will also be impacted. The Japanese 
results, partially based on target designs and laser technology from 
Livermore, is scientifically exciting but in its infancy. Their next 
step, not anticipated for another 5 years, will use NIF laser 
technology, is only a proof of principle, and will not achieve 
ignition. In addition, current evaluations require a NIF-scale facility 
of petawatt and long pulse lasers for ignition success. We believe that 
the current FYNSP is the appropriate funding approach to our 
Stewardship mission.

                          MESA/CMR FACILITIES

    Question. Your fiscal year 2005 budget provided only half of the 
funding necessary to complete the MESA project at Sandia National Lab 
by 2007. This delay will unnecessarily increase the overall cost and 
delay critical work on engineering solutions that will benefit the 
weapons stockpile. This budget, also fails to provide adequate funding 
to complete the Chemical and Metallurgy Research Facility (CMR) at Los 
Alamos. It is my understanding that the planned end-life of the 
existing 50-years-old facility will expire 4 years before a new CMR 
replacement will be ready for use. What is the justification for 
delaying the completion of these important facilities--especially when 
delays will drive up the overall cost?
    Answer. The fiscal year 2005 request for MESA is consistent with 
the Performance Baseline approved by the Secretary of Energy on October 
8, 2002, with a Total Project Cost of $518.5 million and a completion 
date of May 2011. The Performance Baseline reflects construction of the 
MESA facility in a sequenced approach that brings the MESA Complex on-
line in phases to meet NNSA's priority mission requirements, while at 
the same time being affordable within the confines of the Future Years 
Nuclear Security Program (FYNSP). Critical microelectronic integrated 
circuits are already being produced in the retooled Microelectronics 
Development Laboratory portion of the MESA project and have met the 
initial needs of the life extension program.
    As a result of the congressional appropriation increase provided 
for MESA in fiscal year 2003, the Performance Baseline was changed to 
reflect a revised completion date of May 2010. The appropriation 
increase in fiscal year 2004 will result in further acceleration of the 
project; the actual schedule impact is being evaluated as part of the 
fiscal year 2006 budget process. The fiscal year 2005 request was then 
adjusted due to overall priorities within the constraints of the FYNSP, 
and to reflect a favorable bidding environment that allowed for shifts 
in the project funding profile that had no impact on project 
completion.
    The CMR Replacement Project continues to be a high priority for the 
Stockpile Stewardship Program. Based on the fiscal year 2004 
appropriation reducing the CMR Replacement Project funding by 
approximately 50 percent (from $20.5 million to $9.9 million after the 
rescission), it was necessary to reassess the project's path forward 
within the confines of the Future Years Nuclear Security Program 
(FYNSP). We re-scoped the project realizing that it would not be sound 
management to move from a fiscal year 2004 appropriation of $9.9 
million to our original plan of $75.0 million for fiscal year 2005.

                          MODERN PIT FACILITY

    Question. Dr. Beckner, the President's budget provides a $19 
million increase for conceptual design for the Modern Pit Facility. I 
assume, based on this funding request, that the Department is intent on 
moving forward with the construction of a $4 billion facility. What is 
the proposed timetable for the Secretary of Energy to make a final 
decision to site the Modern Pit Facility?
    Answer. A secretarial decision to move forward with planning that 
includes a site selection for a Modern Pit Facility is currently 
pending. All documentation required by the National Environmental 
Policy Act (NEPA) to support a final Environmental Impact Statement 
(EIS) and associated siting decision is complete. NNSA Administrator 
Linton Brooks announced on January 28, 2004, ``I intend to have further 
consultations with Congress before we proceed to a final EIS.'' 
Construction start for an MPF is currently scheduled for 2012 with full 
operations in 2021. The Congress will be consulted at major planning 
decision points prior to the start of construction.
    Question. Is the Carlsbad region or elsewhere in New Mexico still a 
viable option for this facility?
    Answer. Yes, the Carlsbad region, the Los Alamos site along with 
the three other sites evaluated in the draft environmental impact 
statement are still viable options to host the Modern Pit Facility.
    Question. Has the Department undertaken a study to evaluate the 
condition of the existing plutonium pits to verify the need for this 
facility?
    Answer. The Department has an extensive study to evaluate the 
condition of existing plutonium pits in the stockpile. NNSA is also 
conducting an extensive set of aging studies to confirm the minimum pit 
lifetime. While some results from these studies are expected in 2006, 
the result of additional work to confirm current pit lifetime estimates 
will become available prior to 2012 when construction of a Modern Pit 
Facility (MPF) is scheduled to start. Because of the uncertainty in pit 
lifetimes and the long-lead time to design and construct an MPF, 
continued planning for an MPF is prudent risk management.
    Question. Will the nuclear stockpile report that was requested by 
this committee impact the Secretary's decision to site a new pit 
facility?
    Answer. As noted in the report (``An Enhanced Schedule for the 
Modern Pit Facility (MPF)'') provided by the Secretary of Energy on 
March 1, 2004, continued planning for a new pit facility is appropriate 
for all future stockpiles under consideration. The NNSA has evaluated 
capacity requirements for an MPF based on the following parameters: (1) 
size of the future stockpile, (2) numbers and types of weapons in the 
stockpile, (3) pit lifetime, (4) start date for quantity production, 
and (5) length of time between shutdown of Rocky Flats and start of new 
production. We have concluded from these analyses that if the number of 
weapons in the U.S. stockpile is consistent with NPR/Moscow Treaty and 
if pit lifetimes are assumed to be about 60 years, the Nation will need 
a production capacity of some 125 pits per year beginning in about 
2021.

                             SPACE REACTORS

    Question. Admiral Bowman, I understand that Secretary Abraham has 
recently assigned the responsibility for the development of a civilian 
space nuclear reactor as part of project Prometheus. The mission NASA 
has identified for this project is the Jupiter Icy Moons Orbiter. 
Traditionally, this activity has been the responsibility for DOE's 
Office of Nuclear Energy. How is it that the Naval Reactor program has 
secured this responsibility?
    Answer. The NASA Administrator asked the Secretary of Energy to 
assign my Program the responsibility to develop, design, deliver, and 
operationally support civilian space nuclear reactors. On March 8, 
2004, the Secretary of Energy assigned Naval Reactors these 
responsibilities in support of Project Prometheus. The Secretary of the 
Navy concurred in this assignment.
    In the NASA press release, NASA Administrator Sean O'Keefe is 
quoted as saying, ``NASA sought this partnership because NR has an 
enduring commitment to safety and environmental stewardship that is a 
requirement for an undertaking of this magnitude. This partnership will 
help ensure the safe development and use of a space-fission reactor to 
enable unparalleled science and discovery as we explore the solar 
system and beyond. This work is an integral piece of the President's 
exploration agenda and without it the exploration agenda is 
compromised.''
    The DOE's Office of Nuclear Energy (NE) will retain responsibility 
for various space nuclear technology efforts, including long-term space 
reactor science and technology development not associated with work 
assigned to NR. NE will also continue its responsibility for all 
aspects of space radioisotope power systems.

                   STAFFING AND TECHNICAL CHALLENGES

    Question. How do you plan to meet this challenge from a staffing 
and technical capability?
    Answer. Because the Naval Nuclear Propulsion Program is a lean 
organization, accepting a role in Project Prometheus requires that I 
increase the size of my staff and my DOE laboratory staffs to prevent 
any noticeable impact on the core mission of supporting the nuclear 
fleet. Because we are still early in the planning phase, we have not 
yet determined how much of the Project Prometheus effort will be done 
in house and how much will be subcontracted. The analysis we've done so 
far indicates that this year I should increase my Headquarters staff by 
a few people and my two DOE laboratory staffs by about 60 people 
(combined increase). Because I intend to subcontract some of the 
Project Prometheus work, my staff will be reviewing the specialized 
expertise and facilities of industry, academia, and other DOE 
laboratories to inform my decision. All of my staff and DOE laboratory 
increases will be fully funded by NASA.

                                 ______
                                 
               Questions Submitted by Senator Larry Craig

            TECHNICAL AREA 18 LOS ALAMOS NATIONAL LABORATORY

    Question. Last June, the Department of Energy halted work on the 
project to relocate nuclear material and functions from the Los Alamos 
National Laboratory's Technical Area 18 to the Nevada Test Site because 
of an excessively high increase in the cost to complete the relocation. 
At that time, it was reported that the cost estimate for the 
modifications to the facility at NTS had risen to more than $200 
million over the original estimate of $100 million. The DOE had further 
indicated its intent to conduct an independent cost review.
    What is the current cost of this project? What has been done to 
reduce the cost? Has project scope or facility functionality been 
reduced or changed and what effect has this had on cost?
    Answer. NNSA is finalizing its review of the conceptual design for 
the NTS Device Assembly Facility (DAF) option. The initial conceptual 
design for DAF was submitted to NNSA Headquarters on January 20, 2004 
with an estimated project range of $219 million to $255 million with a 
schedule for completing the project in 2011.
    As part of this submission, the project schedule had special 
nuclear material (SNM) shipments from TA-18 to DAF in 2009. After 
reviewing this package and assessing options for accelerating 
activities, I announced on March 31, 2004 that NNSA would accelerate 
movement of TA-18 programmatic SNM to DAF. The initial goal is to move 
approximately 50 percent of the programmatic SNM from TA-18 to DAF by 
March 2006. At this time, NNSA anticipates it will need access to a 
subset of the TA-18 SNM to support ongoing mission commitments during 
transition in the areas of emergency response, nuclear 
nonproliferation, and criticality safety.
    On April 9, 2004, Dr. Beckner, directed that the early move of SNM 
occur outside of the project. The original project submission 
identified approximately $22 million related to transportation costs of 
SNM, including the design, development, and testing of new SNM shipping 
containers. Accelerating transportation activities will allow for NNSA 
to use existing shipping containers, avoiding approximately $7-8 
million for designing new containers. Current estimates related to SNM 
move are $1.22 million in fiscal year 2004 and $3 million in fiscal 
year 2005. On April 30, 2004, I directed my staff to prepare a closure 
plan for TA-18 that will identify the schedule and cost for moving the 
rest of the SNM to DAF.
    Based on this direction and input provided by other NNSA program 
managers, the project team revised the CD-1 submission and provided 
information to NNSA Headquarters for review and approval on May 7, 
2004. While the final range is under validation by NNSA, it is expected 
to be in the low- to mid-$100 millions with project schedule for 
completion in late 2009. In addition to removing transportation 
activities at $22 million, NNSA is removing the design and construction 
of a new low scatter building within the DAF PIDAS based on discussions 
with NNSA programs and security experts. Design and construction of the 
low scatter building was estimated at approximately $30 million. NNSA 
is now exploring options to conduct the activities proposed for this 
new facility. In addition, NNSA is deferring upgrades to the critical 
assemblies at a cost of approximately $10 million; only new control 
systems and instrumentation for the critical assemblies are contained 
within the project to support installation at DAF.
    Question. Please provide an ``apples to apples'' comparison of cost 
among the options that the DOE considered and explain the rationale for 
concluding that the NTS option is the option with the lowest cost and 
highest probability of success.
    Answer. During the CD-0 phase of the project, NNSA evaluated the 
proposed action of relocating TA-18 capabilities and materials 
associated with Security Category I/II materials to a new location. 
Location alternatives included sites: (1) a different site at LANL at 
Los Alamos, New Mexico; (2) Sandia National Laboratories (SNL) at 
Albuquerque, New Mexico; (3) NTS near Las Vegas, Nevada; and (4) 
Argonne National Laboratory--West (ANL-W), near Idaho Falls, Idaho. The 
No Action and Upgrade in Place Alternatives were also evaluated. These 
alternatives are discussed in detail in the Environmental Impact 
Statement (EIS) for the Proposed Relocation of Technical Area 18 
Capabilities and Materials at the Los Alamos National Laboratory, DOE/
EIS-0319, August 2002. The preferred alternative in the Final EIS was 
the DAF.
    As a result of CD-0 Phase 1, each alternative developed a concept 
and rough order of magnitude cost estimate. These estimates were 
analyzed by NNSA and adjusted to provide equal comparison as shown in 
Table 1. It is important to note that the transportation cost estimates 
at this time were anticipated to exceed $50 million and there were 
concerns regarding the system's ability to support TA-18 SNM relocation 
in addition to other requirements.

                               TABLE 1.--CD-0 PHASE 1 ALTERNATIVE COST ASSESSMENT
                                            [In millions of dollars]
----------------------------------------------------------------------------------------------------------------
                                                                  LANL         NTS          SNL         ANL-W
----------------------------------------------------------------------------------------------------------------
TEC.........................................................        130.6         76.7        129.2         92.7
TPC.........................................................        148.9         95.0        147.6        111.0
Transportation..............................................          4           52           50           53
                                                             ---------------------------------------------------
      TOTAL.................................................        152.9        147.0        197.6        164.0
----------------------------------------------------------------------------------------------------------------

    Based on this cost information and program considerations, former 
NNSA Administrator John Gordon approved the original CD-0 Phase 2 for 
this project on July 27, 2001 to proceed with designing a new 
underground facility at LANL. While not completed, preliminary 
information from conceptual design activities for this underground 
facility in conjunction with the events of September 11, 2001, 
warranted a re-examination of the NTS option (DAF). The AE chartered a 
group to update the initial NTS concept on April 15, 2002 and to assess 
life cycle costs. The group completed a special study ``TA-18 Mission 
Relocation Project Special Study: Revisit the DAF Concept'' on June 25, 
2002. The results showed that the DAF alternative was now a more cost 
effective option in terms of construction and SNM transportation (see 
Table 2). As a result of new information, the AE approved the revised 
CD-0 Phase 2 on August 8, 2002, for the DAF.

    TABLE 2.--TA-18 MISSION RELOCATION PROJECT SPECIAL STUDY RESULTS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                    LANL         NTS
------------------------------------------------------------------------
Design, Construction and Start-up.............        162.0         96.7
PIDAS Requirements............................         16.0    ( \1\ )
Transportation................................          4.0         30
                                               -------------------------
      TOTAL...................................        182.0        126.7
------------------------------------------------------------------------
\1\ N/A.

    At NTS, only DAF was determined to be suitable and capable of 
adequately supporting the TA-18 missions. This decision was based on 
the fact that other NTS locations would require new construction at a 
substantially higher base cost than re-modeling DAF. In addition, the 
DAF has long been recognized as under-utilized and it maintains 
substantial excess capacity. A decision was made based upon an option 
analysis to utilize existing office space at the NTS control point 
rather than build new offices near the DAF (with resulting cost 
avoidance).

                                 ______
                                 
              Questions Submitted by Senator Patty Murray

                 PACIFIC NORTHWEST NATIONAL LAB (PNNL)

    Question. Ambassador Brooks, a draft plan for accelerated cleanup 
of the Hanford Site, and the 300 Area in particular, would force 
evacuation by 2007 of several buildings within the Pacific Northwest 
National Lab (PNNL)--buildings that currently host work for the 
National Nuclear Security Administration (NNSA) and the Department of 
Homeland Security. Adequate replacement facilities cannot be in place 
by the 2007 deadline, making this the first time in the history of the 
Environmental Management program that cleanup would require active 
facilities to be demolished, and capabilities discontinued and/or lost.
    During a House Armed Services Committee hearing last week, you said 
the Office of Science, which serves as steward of PNNL, had not yet 
asked for NNSA help in addressing the potential loss of national 
security capability at the lab. Is that still true?
    Answer. The Office of Science has asked NNSA to inventory its 
activities at Area 300. NNSA has conducted this assessment and 
submitted it to the Office of Science.
    Question. Has the Department sought input from your office in 
finding a solution to the problems posed by the draft cleanup schedule 
for 300 Area?
    Answer. The Department has raised the problems posed by the draft 
cleanup schedule for the 300 Area with NNSA but has not yet asked NNSA 
for solutions.
    Question. If the Department or the Office of Science seeks help 
from the NNSA, is your office prepared to contribute to the cost of 
replacing the facilities lost to 300 Area cleanup?
    Answer. We are currently assessing whether or not the NNSA 
activities that would be lost at Area 300 justify the considerable cost 
of replacing the 300 Area facilities.
    Question. Are you confident that the Department is on track to find 
a solution that preserves the important capabilities at PNNL?
    Answer. PNNL supports the national security of the United States in 
a variety of ways and should be commended for its efforts. However, 
given that PNNL's 300 Area capabilities only account for roughly 17 
percent of NNSA's nonproliferation budget at PNNL, NNSA must evaluate 
all available options before it can support the construction of a new 
facility to replace PNNL's 300 Area facilities.

    Senator Domenici. I want to share something with you just 
before we close this hearing. I do not know if I should be 
talking about this issue of America with you, but it is going 
to be science that is going to make the breakthrough, be it one 
or ten, that will once again start creating jobs in America, so 
that when productivity increases we will see jobs instead of 
what we are seeing now as productivity and no jobs. Most crazy 
arrangement of economics we have ever seen. It would seem to me 
the breakthrough with brand new technology and innovative 
things is going to do it. Where it will come from, I do not 
know. I have been pondering what we could do in the Federal 
Government as an incentive to have it happen quicker but that 
is too tough for me. But I have some people thinking about it. 
But frankly, I think you have more to do with it than people 
think, because you have the greatest array of scientists and 
engineers, when you add your three labs up, of anywhere in the 
world. And when you take the Mesa Facility and the CMR 
facilities, and those are needed for the stockpile, but 
everybody knows that nano-science and micro-engineering, 
somewhere from those is going to come that breakthrough. And 
the center for it was supposed to be Sandia National 
Laboratories in a facility we started because of some things 
that nano-science may do for the nuclear weapons. Now, we can 
let an institution see and live its day and not do what it is 
supposed to do because we do not fund it on time. Or we can 
think it is important enough and fund it. So I am complaining 
to you that your budget will cause a very big delay in 
providing the facilities that are not there, that you cannot 
expect great scientists to work in. If you ever saw what they 
are working in, they are not going to make the innovative 
breakthroughs that we are talking about there. And so I think 
the 50 percent reduction in the expected continuation of the 
building is not right. I urge that you be considerate of our 
efforts to move it back on a path, that it might get built 
sooner. Now, that is enough. If you want to comment, fine. If 
not.
    Ambassador Brooks. I think yes sir is the appropriate thing 
for me to say.

                          SUBCOMMITTEE RECESS

    Senator Domenici. Okay. With that, we have a number of 
hearings for this subcommittee this year and they will be 
interesting, but we stand recessed.
    [Whereupon, at 4:25 p.m., Wednesday, March 23, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre></body></html>
